<html>
<title> - AN EXAMINATION OF THE PRESIDENT'S FISCAL YEAR 2013 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                   AN EXAMINATION OF THE PRESIDENT'S 
FISCAL YEAR 2013 BUDGET REQUEST FOR THE DEPARTMENT OF HOMELAND SECURITY

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2012

                               __________

                           Serial No. 112-67

                               __________

       Printed for the use of the Committee on Homeland Security



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

76-513 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001














                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director


















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     3

                               Witnesses

Hon. Janet Napolitano, Secretary, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Letter.........................................................    19
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama:
  Letter.........................................................    22

                                Appendix

Questions Submitted to Hon. Janet Napolitano.....................    59

 
 AN EXAMINATION OF THE PRESIDENT'S FISCAL YEAR 2013 BUDGET REQUEST FOR 
                                  THE 
                    DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                      Wednesday, February 15, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                            Washington, DC.
    The committee met, pursuant to call, at 2:45 p.m., in Room 
311, Cannon House Office Building, Hon. Peter T. King [Chairman 
of the committee] presiding.
    Present: Representatives King, Smith, Lungren, Rogers, 
McCaul, Bilirakis, Miller, Walberg, Cravaack, Walsh, Meehan, 
Rigell, Long, Duncan, Farenthold, Turner, Thompson, Sanchez, 
Jackson Lee, Cuellar, Clarke of New York, Richardson, Davis, 
Higgins, Richmond, Clarke of Michigan, Keating, Hochul, and 
Hahn.
    Chairman King. The Committee on Homeland Security will come 
to order. The committee is meeting today to hear testimony from 
Secretary Napolitano relating to the President's fiscal year 
2013 budget request for the Department of Homeland Security. At 
the outset, I want to thank the Secretary for her flexibility 
in rescheduling this hearing. Before I go onto an opening 
statement, I discussed this with the Secretary, I would like to 
acknowledge that the President has just recently signed into 
law Public Law 112-86. It is Congressman Cravaack's bill, which 
calls on the TSA to set up expedited procedures for active duty 
service personnel.
    I would now, at the request of the White House, like to 
present you with the bill and the President's pen. Madam 
Secretary, I will now recognize myself for an opening 
statement. I would just like to, at the outset, thank you for 
the cooperation you have given to this committee over the last 
3 years now. Life flies when you are having a good time.
    Secretary Napolitano. It does indeed.
    Chairman King. Seriously, I want to thank you for again 
meeting with, I know, our side of the aisle, and I know Ranking 
Member Thompson and his Members as well. I also want to thank 
you for the level of cooperation you have given to me in my 
capacity representing New York, and the extensive cooperation 
you have had. I know you spoke to Commissioner Kelly earlier 
this week and the mayor. So I want to thank you very much for 
that. Today we are going to be examining the President's 
request, which is roughly the same as it was last year, as a 
practical matter. I think it is down from 39.7 to 39.5. The 
fact is, in this time of budget austerity, I commend you for 
fighting to get that amount because I believe almost all the 
money in here, all the funding in here is required. These are 
difficult times. But the threats are still there.
    Obviously, we have now an emerging threat with Hezbollah, 
which I will discuss with you later. We also have the threats 
we have had over the years. Anyone who looks and gets the 
briefings knows it is a very dangerous world we live in. So it 
is essential that the Department have the funding it needs and 
the Department do the job it has do, and also work with local 
and State governments as they try to counter these threats that 
are against us.
    I also know that with budget moneys being cut back, it is 
more of a burden on you, makes it more difficult to allocate 
the money. Everyone wants some piece of it, I understand that. 
It is your job to allocate it to the areas that are most 
severely threatened. I know the extensive effort you put into 
that. I, again, commend you on that.
    I know that you have changed the funding, the grant system 
this year. I will have questions for you on that as well as to 
how that is going to be implemented regarding State 
governments, city governments, et cetera. I know you are trying 
to fine-tune it and make it more responsive after 9 years of 
doing it one way, and now going to another way. But again I 
want to make sure that as we do that that things don't fall 
between the cracks. Also we have the cybersecurity legislation 
which this committee should be marking up before the end of 
March. Chairman Lungren has worked very extensively on that. I 
know there is at least five or six other committees as well. It 
is intended to try to move that this spring to get a combined 
bill to go to the floor. Again, we will work with your 
Department and the administration to ensure that we cover it as 
well as we can. I know in your appearance before the Homeland 
Security Appropriations Subcommittee this morning, you had an 
exchange with Congresswoman Lowey on the Department's efforts 
in working with the financial services industry on 
cybersecurity.
    As you know, the financial services industry is vital to 
the economy of New York and the Nation. I have a few concerns 
that we could be doing more in fostering a seamless 
relationship between DHS and the private sector on the issue of 
cybersecurity. You can answer that in your own statement or 
during the questions. One area which I think many of us have 
concerns about, and that is the significant decrease in funding 
for the Coast Guard of approximately $600 million from the 
fiscal year 2012 funding levels. I don't know of any agency of 
the Federal Government which has had to respond more since 
September 11 than the Coast Guard. I mean, their duties have 
just increased geometrically. By all accounts, have done an 
outstanding job. I am really concerned that that large a cut, 
which would eliminate over a thousand personnel and 
decommission numerous front-line operational units, and also 
significant reductions in operational hours could have, again, 
a very detrimental effect on our security.
    So anyway, I look forward to hearing--I am not going to go 
on with a long statement--I look forward to hearing your views 
on basically your priorities as far as combating 
radicalization, strengthening border security, and implementing 
management reforms within the Department to avoid duplication 
and find cost savings. Again, also discuss with you the really 
almost imminent threat from Hezbollah, which some see as being 
almost imminent, and what the Department will be doing on that.
    With that, I yield to the distinguished Ranking Member, the 
gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. Good 
afternoon, Madam Secretary. It is good to have you back before 
the committee. It has been a while. Welcome. I expect that you 
will answer a wide range of questions today about the fiscal 
year 2013 budget request. I certainly have quite a few 
questions myself. But before we turn to the fiscal year 2013 
request, I think it is important that we take a moment to 
acknowledge your starting point, the fiscal year 2012 
appropriations law. That measure, which many of us opposed, 
short-changed Homeland Security in a number of troubling ways. 
It was predicated on the belief that we can demand that DHS 
carry out a wide range of homeland security and nonsecurity 
commissions without providing the resources. From my 
perspective, it was tantamount to Congress running up a long 
tab, ordering more robust Homeland Security efforts, 
particularly with respect to border security, aviation 
security, and immigration enforcement, and then stiffing you 
when the bill arrived.
    With this backdrop and the prospect of an even less 
favorable budget environment for fiscal year 2013, I can 
understand your desire to submit a proposal that comes in $1.3 
billion less than last year's budget. The fact that you were 
able to do so and for the first time, fund the disaster relief 
fund at $6 billion is really remarkable. I do not imagine that 
doing so was an easy task. I also expect that getting all the 
components on the same page without cutting on expenses and 
leveraging resources was not easy either. It seems unlikely, 
however, that efficiency savings account for the full $1.6 
billion reduction.
    We need to know which programs will be losing capacity or 
even capabilities under your request. If you are not going to 
have the resources under this budget to fully implement certain 
programs within the mandated period, you need to tell us. We 
are your authorizing committee. We have a stake in seeing 
programs like CFATS, TWIC, US-VISIT, and the Coast Guard fleet 
modernization implemented. We need to know if time lines will 
have to be adjusted or more resources will be necessary from 
the appropriations process. I am concerned that the budget does 
not seek enough for Coast Guard fleet modernization acquisition 
to keep pace with the decommissioning. I am concerned that the 
budget seeks to consolidate 16 State and local grant programs 
into one small pot. I have trouble understanding how $1.5 
billion will stretch to sustain and develop new core 
capabilities. I am concerned that while new resources are 
appropriately being provided to end PPD for cybersecurity, the 
other side of the House, the infrastructure protection side 
seems to be short-changed.
    Given the problems at CFATS have only begun to be 
understood, it is troubling to see that the budget is asking 
for less money in fiscal year 2013. Before I close, I have to 
acknowledge that the budget proposes a number of organizational 
changes. While the rationale behind some of these changes is 
not as of yet clear, I must commend you for taking the 
committed advice and finally transferring the US-VISIT program 
out of NPPD. It floundered there. At CBP and ICE, I believe 
that this border program may actually be positioned to achieve 
its mission and finally allow us to identify and prevent 
overstays.
    Again, Madam Secretary, thank you for appearing today. I 
look forward to discussing the budget proposal and working with 
you to ensure that we keep our Nation secure during the 
difficult economic times. With that, Mr. Chairman, I yield 
back.
    Chairman King. Thank you, Mr. Thompson.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record. I would also remind 
our witness that your entire written statement will appear in 
the record. Now would ask you to summarize your statement at 
this time, and now recognize the Secretary of Homeland 
Security, Secretary Napolitano.

 STATEMENT OF HON. JANET NAPOLITANO, SECRETARY, UNITED STATES 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Napolitano. Thank you, Mr. Chairman, 
Representative Thompson, Members of the committee, for the 
opportunity to discuss President Obama's fiscal year 2013 
budget for the Department of Homeland Security. Ten years after 
the September 11 attacks, America is stronger and more secure 
today, thanks to the strong support of the President and of the 
Congress, thanks to the work of the men and women of the 
Department of Homeland Security, and to local, State, and 
Federal partners across the Homeland Security enterprise. While 
we have made significant progress, threats from terrorism, 
including, but not limited to al-Qaeda and al-Qaeda-related 
groups, persist and continually evolve, and the demands on DHS 
continue to grow. Today's threats are not limited to any one 
individual, group, or ideology, and are not defined nor 
contained by international borders. Terrorist tactics can be as 
simple as a homemade bomb and as sophisticated as a biological 
threat or a coordinated cyber attack.
    We have had success in thwarting numerous terrorist plots, 
including the attempted bombings of the New York City subway 
and Times Square, foiled attacks against air cargo, and other 
attempts across the country. Nonetheless, continued threats 
from abroad and at home demonstrate how we must constantly 
remain vigilant and prepared. The President's fiscal year 2013 
budget for DHS allows us to continue to meet these evolving 
threats and challenges by preserving core front-line 
operational priorities through the redirection of over $850 
million in base resources from administrative and mission 
support areas. This continues our unprecedented commitment to 
fiscal discipline, which has led us to over $3 billion in cost 
avoidances and reductions over the past 3 years through our 
efficiency review and other initiatives.
    Given the fiscal challenges to the Department's State and 
local partners, DHS is also approaching these partnerships in 
new and innovative ways. For 9 years, DHS has been supporting 
State and local efforts across the Homeland Security enterprise 
to build capabilities, awarding more than $35 billion in 
funding over that period. As we look ahead in order to address 
evolving threats and make the most of limited resources, the 
administration has proposed a new vision for Homeland Security 
grants through the National Preparedness Grant Program to 
create a robust National preparedness capacity based on cross-
jurisdictional and readily deployable State and local assets.
    Using a competitive risk-based model, this grants program 
will use a comprehensive process to assess gaps, identify and 
prioritize deployable capabilities, put funding to work 
quickly, and require grantees to regularly report their 
progress. My written testimony includes a comprehensive list of 
the operational priorities in our budget. Today, I would like 
to highlight a few more of them: One, preventing terrorism and 
enhancing security. This was the founding mission of DHS, and 
remains our top priority today. The fiscal year 2013 budget 
safeguards the Nation's transportation systems through a 
layered detection system focused on risk-based screening, 
enhanced targeting, and information-sharing efforts to 
interdict threats and dangerous people at the earliest possible 
point.
    The budget supports the administration's global supply 
chain security strategy across air, land, and sea modes of 
transportation by strengthening efforts to prescreen and 
evaluate high-risk containers before they are shipped to the 
United States. We also continue our strong support for State 
and local partners through training, fusion centers, and 
intelligence analysis and information sharing on a wide range 
of critical Homeland Security missions.
    Second, to secure and manage our borders, this budget 
continues the administration's unprecedented focus on border 
security, travel, and trade, by supporting our Border Patrol 
agents and CBP officers on the front lines, as well as the 
continued deployment of proven, effective surveillance 
technology along the highest-trafficked areas of the Southwest 
Border, and continued security improvements along the Northern 
Border. To secure the Nation's maritime borders, the budget 
invests in recapitalization of Coast Guard assets, including 
the sixth National security cutter, fast response cutters, as 
well as the renovation and restoration of shore facilities.
    Third, the budget request also continues the Department's 
focus on smart and effective enforcement of our country's 
immigration laws. In fiscal year 2013, we will complete Nation-
wide implementation of Secure Communities. Through this 
initiative and our continued collaboration with the Department 
of Justice, we are expected to continue to increase the number 
of criminal aliens and other priority individuals who are 
identified and removed. This budget provides the resources 
needed to address this changing population, while continuing to 
support alternatives to detention, detention reform, and 
immigrant integration efforts.
    The budget also focuses on monitoring and compliance, 
promoting adherence to worksite-related laws through criminal 
prosecutions of egregious employers and expansion of E-Verify.
    Next, to safeguard and secure cyberspace, this budget makes 
significant investments to strengthen cybersecurity, including 
funds to expedite the deployment of Einstein 3 to prevent and 
detect intrusions on Government computer systems, increase 
Federal network security across the Federal Government, and 
continue to develop a robust cybersecurity workforce to protect 
and respond to National cybersecurity threats.
    In 2011, the Department responded to a record number of 
disasters. So to ensure continued resilience to disasters, our 
next major mission, the President's budget focuses on a whole-
of-community approach to emergency management. It includes 
resources for the disaster relief fund, which provides a 
significant portion of the Federal response to victims in 
Presidentially-declared disasters or emergencies, and is funded 
largely through authority under the Budget Control Act. This 
budget also continues to provide essential support to National 
and economic security by supporting the Coast Guard's 
operations in the polar regions, and by continuing to support 
ICE and CBP's efforts to protect U.S. intellectual property 
rights and collection of customs revenue.
    The fiscal year 2013 budget proposal reflects this 
administration's strong commitment to protecting the homeland 
and the American people through the effective and efficient use 
of DHS resources.
    As outlined in my testimony today, we will continue to 
preserve front-line priorities across the Department by cutting 
costs, sharing resources across components, and streamlining 
operations wherever possible. Chairman King, Ranking Member 
Thompson, Members of the committee, thank you for the 
opportunity to be here today, and I am happy to answer your 
questions.
    [The statement of Secretary Napolitano follows:]
              Prepared Statement of Hon. Janet Napolitano
                           February 15, 2012
    Chairman King, Ranking Member Thompson, and Members of the 
committee: Let me begin by saying thank you to this subcommittee for 
the strong support you have provided me and the Department over the 
past 3 years. I look forward to continuing to work with you in the 
coming year to protect the homeland and the American people.
    I am pleased to appear before the subcommittee today to present 
President Obama's fiscal year 2013 budget request for the Department of 
Homeland Security (DHS).
    Ten years after the September 11 attacks, America is stronger and 
more secure today, thanks to the strong support of the President and 
Congress; the work of the men and women of the Department of Homeland 
Security (DHS) and local, State, and Federal partners across the 
homeland security enterprise.
    While we have made significant progress, threats from terrorism--
including, but not limited to al-Qaeda and al-Qaeda-related groups--
persist and continually evolve, and the demands on DHS continue to 
grow. Today's threats are not limited to any one individual, group, or 
ideology and are not defined nor contained by international borders. 
Terrorist tactics can be as simple as a homemade bomb and as 
sophisticated as a biological threat or a coordinated cyber attack. We 
have had success in thwarting numerous terrorist plots including the 
attempted bombings of the New York City subway and Times Square, foiled 
attacks against air cargo, and other attempts across the country. 
Nonetheless, the recent threat surrounding the 10th anniversary of the 
September 11 attacks and the continued threat of home-grown terrorism 
demonstrate how we must constantly remain vigilant and prepared.
    To continue to address these evolving threats, DHS employs risk-
based, intelligence-driven operations to prevent terrorist attacks. 
Through a multi-layered detection system focusing on enhanced targeting 
and information sharing, DHS works to interdict threats and dangerous 
people at the earliest point possible. DHS also works closely with its 
Federal, State, and local law enforcement partners on a wide range of 
critical homeland security issues in order to provide those on the 
front lines with the tools they need to address threats in their 
communities.
    Strengthening homeland security also includes a significant 
international dimension. To most effectively carry out DHS's core 
missions--including preventing terrorism, securing our borders, and 
protecting cyberspace--we must partner with countries around the world. 
This work ranges from strengthening cargo, aviation, and supply chain 
security to joint investigations, information sharing, and science and 
technology cooperation. Through international collaboration, we not 
only enhance our ability to prevent terrorism and transnational crime, 
we also leverage the resources of our international partners to more 
efficiently and cost-effectively secure global trade and travel. Today, 
DHS works in more than 75 different countries--the third-largest 
foreign footprint of any civilian U.S. Government agency--in order to 
address and respond to evolving threats before they reach our shores.
    Domestically, over the past several years, DHS has deployed 
unprecedented levels of personnel, technology, and resources to the 
Southwest Border. At the same time, the Department has made critical 
security improvements along the Northern Border while strengthening 
efforts to increase the security of the Nation's maritime borders. DHS 
is also focused on smart and effective enforcement of U.S. immigration 
laws while streamlining and facilitating the legal immigration process.
    To strengthen the Nation's cybersecurity posture, DHS leads the 
Federal Government's efforts to secure civilian government computer 
systems and works with industry and State, local, Tribal, and 
territorial governments to secure critical infrastructure and 
information systems.
    Additionally, DHS continues to coordinate disaster response efforts 
Nation-wide. In 2011, the Department responded to a record number of 
disasters, including Hurricane Irene, which impacted 14 States; 
wildfires in the Southwest; severe flooding in the Mississippi and 
Missouri river systems; and devastating tornadoes that hit the Midwest 
and the South. The Department's response to these and other disasters 
shows how far it has come in just a few years. Rather than wait until a 
request for disaster assistance has been received and approved, the 
Federal Emergency Management Agency (FEMA) and agencies across the 
Federal Government work actively with communities to prepare before 
disasters occur and to maintain a constant readiness posture.
                maximizing efficiency and effectiveness
    The fiscal year 2013 budget for DHS is $58.6 billion in total 
budget authority, $48.7 billion in gross discretionary funding, and 
$39.5 billion in net discretionary funding. Net discretionary budget 
authority is 0.5 percent below the fiscal year 2012 enacted level. An 
additional $5.5 billion for the Disaster Relief Fund (DRF) is provided 
under the disaster relief cap adjustment, pursuant to the Budget 
Control Act of 2011 (BCA).
    The Department has implemented a variety of initiatives to cut 
costs, share resources across Components, and consolidate and 
streamline operations wherever possible. To preserve core front-line 
priorities in fiscal year 2013, we have redirected over $850 million in 
base resources from administrative and mission support areas, including 
contracts, personnel (through attrition), information technology, 
travel, personnel moves, overtime, directed purchasing, professional 
services, and vehicle management. Through the Department-wide 
Efficiency Review (ER), which began in 2009, as well as other cost-
saving initiatives, DHS has identified over $3 billion in cost 
avoidances and reductions, and redeployed those funds to mission-
critical initiatives across the Department.
    At the same time, the Department challenged its workforce to 
fundamentally rethink how it does business--from the largest to 
smallest investments. In 2011, DHS conducted its first-ever formal base 
budget review for fiscal year 2013, looking at all aspects of the 
Department's budget to find savings within our current resources and to 
better align those with operational needs. Through its annual ``Think 
Efficiency Campaign,'' DHS solicited employee input on creative cost-
saving measures and will implement six new employee-generated 
initiatives in early 2012.
    Given the fiscal challenges to the Department's State and local 
partners, DHS is also approaching these partnerships in new and 
innovative ways. The administration has proposed a new homeland 
security grants program in fiscal year 2013 designed to develop, 
sustain, and leverage core capabilities across the country in support 
of National preparedness, prevention, and response. The fiscal year 
2013 National Preparedness Grant Program (NPGP) will help create a 
robust National preparedness capacity based on cross-jurisdictional and 
readily deployable State and local assets. Using a competitive, risk-
based model, the NPGP will use a comprehensive process for identifying 
and prioritizing deployable capabilities, limit periods of performance 
to put funding to work quickly, and require grantees to regularly 
report progress in the acquisition and development of these 
capabilities.
    In fiscal year 2011, DHS achieved a milestone that is a pivotal 
step towards increasing transparency and accountability for the 
Department's resources. For the first time since fiscal year 2003, DHS 
earned a qualified audit opinion on its Balance Sheet--highlighting the 
significant progress we have made in improving our financial management 
in the 8 years since DHS was founded. Through these and other efforts 
across the Department, we will continue to ensure taxpayer dollars are 
managed with integrity, diligence, and accuracy and that the systems 
and processes used for all aspects of financial management demonstrate 
the highest level of accountability and transparency.
    The fiscal year 2013 President's budget supports these significant 
efforts to increase transparency, accountability, and efficiency. 
Following are some key initiatives and proposals included in the budget 
that continue to streamline Departmental operations:
  <bullet> US-VISIT.--In order to better align the functions of US-
        VISIT with the operational Components, the budget proposes the 
        transfer of US-VISIT functions from the National Protection and 
        Programs Directorate (NPPD) to U.S. Customs and Border 
        Protection (CBP) and U.S. Immigration and Customs Enforcement 
        (ICE). Currently, CBP operates numerous screening and targeting 
        systems, and integrating US-VISIT within CBP will strengthen 
        the Department's overall vetting capability while also 
        realizing efficiencies.
  <bullet> Strategic Sourcing.--Through the ER and Component 
        initiatives, DHS has used strategic sourcing initiatives to 
        leverage the purchasing power of the entire Department for 
        items such as software licenses, wireless communication 
        devices, furniture, and office supplies. In fiscal year 2013, 
        DHS expects to save more than $264 million through the use of 
        these contracts.
  <bullet> Acquisition Management and Reform.--A major management 
        priority in fiscal year 2013 is the continued improvement of 
        the DHS acquisition process. The Under Secretary for Management 
        is leading an effort to improve the overall acquisition process 
        by reforming the early requirements development process and 
        enhancing our ability to manage the implementation and 
        execution of acquisition programs.
  <bullet> Strengthening the Efficiency of IT Programs.--The Department 
        is committed to improving performance of IT programs, 
        implementing a ``Cloud First'' policy, reducing the number of 
        Federal data centers, and consolidating IT infrastructure. On 
        the basis of these initiatives, the overall fiscal year 2013 
        budget (including all DHS Components) for IT infrastructure is 
        reduced by 10 percent below fiscal year 2012 enacted levels.
  <bullet> Common Vetting.--In order to increase the efficiency and 
        effectiveness of its screening efforts and leverage 
        capabilities across the Department, the budget includes funding 
        to continue to enhance the Department's biographic and 
        biometric screening capabilities. As part of this effort, DHS 
        has initiated implementation of an enhanced biographic exit 
        program, which will better aggregate the information within 
        existing data systems, enhance review of potential overstays, 
        increase automated matching, incorporate biometric elements, 
        and provide the foundation for a future biometric exit 
        solution.
  <bullet> Common Airframes.--DHS is also examining how to leverage 
        joint requirements for aviation assets between CBP and the U.S. 
        Coast Guard. A senior leadership working group has performed a 
        baseline analysis of the various roles and missions of DHS's 
        aviation assets and is working to increase the effectiveness of 
        Departmental aviation assets through continued coordination and 
        collaboration. Complementing this effort, DHS recently began an 
        ER initiative which will increase cross-component collaboration 
        for aviation-related equipment and maintenance by establishing 
        excess equipment sharing, maintenance services, and contract 
        teaming agreements, as well as other opportunities for 
        aviation-related efficiencies.
  <bullet> Information Sharing and Safeguarding.--DHS is embarking on a 
        Department-wide effort to increase efficiencies and reduce 
        redundancies through the implementation of key information-
        sharing and safeguarding capabilities such as Identity, 
        Credentialing, and Access Management. Significant future cost 
        savings will be realized with the continued consolidation of 
        Sensitive But Unclassified portals, streamlining of classified 
        networks and the alignment of Common Operating Picture 
        investments. Working through a Department-wide information-
        sharing governance structure, DHS is addressing requirements 
        resulting from post-Wikileaks reforms, and ensuring that 
        information on both classified and unclassified networks is 
        properly protected to preserve privacy and civil liberties.
  <bullet> Aviation Passenger Security Fee.--The fiscal year 2013 
        budget includes the administration's proposal to restructure 
        the Aviation Passenger Security Fee (Security Fee) to achieve 
        total collections of $2.239 billion. The proposal would 
        generate an additional $317 million in new collections in 2013, 
        of which $117 million would be used to further offset the cost 
        of Federal aviation security operations and $200 million would 
        contribute to Federal deficit reduction. Following the Security 
        Fee restructuring, passengers would pay a fee of $5.00 per one-
        way trip beginning in the fourth quarter of fiscal year 2013, 
        rather than a separate fee for each enplanement under the 
        current construct. The restructuring would provide TSA with the 
        flexibility to meet increasing aviation security costs and 
        better aligns the costs associated with passenger security to 
        the direct beneficiaries. The Security Fee has not changed or 
        been adjusted for inflation since the TSA was established in 
        2002, even while the overall cost of aviation security has 
        grown by more than 400 percent. The administration's proposal 
        makes progress towards fulfilling the intent of the Aviation 
        and Transportation Security Act to cover the costs of aviation 
        security through fees and not by the general taxpayers.
                           budget priorities
    The fiscal year 2013 President's budget prioritizes the mission 
areas outlined in the Department's 2010 Quadrennial Homeland Security 
Review and the 2010 Bottom-Up Review, the first complete effort 
undertaken by the Department to align its resources with a 
comprehensive strategy to meet the Nation's homeland security needs.
    The budget builds on the progress the Department has made in each 
of its mission areas while also providing essential support to National 
and economic security.
    Mission 1: Preventing Terrorism and Enhancing Security.--Protecting 
the United States from terrorism is the cornerstone of homeland 
security. DHS's counterterrorism responsibilities focus on three goals: 
Preventing terrorist attacks; preventing the unauthorized acquisition, 
importation, movement, or use of chemical, biological, radiological, 
and nuclear materials and capabilities within the United States; and 
reducing the vulnerability of critical infrastructure and key 
resources, essential leadership, and major events to terrorist attacks 
and other hazards.
    Mission 2: Securing and Managing Our Borders.--DHS secures the 
Nation's air, land, and sea borders to prevent illegal activity while 
facilitating lawful travel and trade. The Department's border security 
and management efforts focus on three interrelated goals: Effectively 
securing U.S. air, land, and sea borders; safeguarding and streamlining 
lawful trade and travel; and disrupting and dismantling transnational 
criminal and terrorist organizations.
    Mission 3: Enforcing and Administering Our Immigration Laws.--DHS 
is focused on smart and effective enforcement of U.S. immigration laws 
while streamlining and facilitating the legal immigration process. The 
Department has fundamentally reformed immigration enforcement, focusing 
on identifying and removing criminal aliens who pose a threat to public 
safety and targeting employers who knowingly and repeatedly break the 
law.
    Mission 4: Safeguarding and Securing Cyberspace.--DHS is the 
Federal Government lead agency for securing civilian government 
computer systems and works with industry and State, local, Tribal, and 
territorial governments to secure critical infrastructure and 
information systems. DHS analyzes and mitigates cyber threats and 
vulnerabilities; distributes threat warnings; and coordinates the 
response to cyber incidents to ensure that our computers, networks, and 
cyber systems remain safe.
    Mission 5: Ensuring Resilience to Disasters.--DHS provides the 
coordinated, comprehensive Federal response in the event of a terrorist 
attack, natural disaster, or other large-scale emergency while working 
with Federal, State, local, and private-sector partners to ensure a 
swift and effective recovery effort. The Department's efforts to build 
a ready and resilient Nation include fostering a community-oriented 
approach, bolstering information sharing, improving the capability to 
plan, and providing grants and training to our homeland security and 
law enforcement partners.
    In addition to these missions, DHS leads and supports many 
activities that provide essential support to National and economic 
security, including, but not limited to, maximizing collection of 
customs revenue, maintaining the safety of the marine transportation 
system, preventing the exploitation of children, providing law 
enforcement training, and coordinating the Federal Government's 
response to global intellectual property theft. DHS contributes in many 
ways to these elements of broader U.S. National and economic security 
while fulfilling its homeland security missions.
    The following are highlights of the fiscal year 2013 budget:
Preventing Terrorism and Enhancing Security
    Guarding against terrorism was the founding mission of DHS and 
remains our top priority. The fiscal year 2013 budget safeguards the 
Nation's transportation systems through a layered detection system 
focusing on risk-based screening, enhanced targeting, and information-
sharing efforts to interdict threats and dangerous people at the 
earliest point possible. The budget supports the administration's 
Global Supply Chain Security Strategy across air, land, and sea modes 
of transportation by strengthening efforts to prescreen and evaluate 
high-risk containers before they are shipped to the United States and 
annualizing positions that provide the capacity to address security 
vulnerabilities overseas. Funding is included for Securing the Cities 
to protect our highest-risk cities from radiological or nuclear attack 
and continues efforts to support National bio preparedness and response 
efforts. The budget also continues strong support for State and local 
partners through a new consolidated grant program, training, fusion 
centers, and intelligence analysis and information sharing on a wide 
range of critical homeland security issues.
  <bullet> Strengthening Risk-Based Aviation Security.--The fiscal year 
        2013 budget supports DHS's effort to employ risk-based, 
        intelligence-driven operations to prevent terrorist attacks and 
        to reduce the vulnerability of the Nation's aviation system to 
        terrorism. These security measures create a multi-layered 
        system to strengthen aviation security from the time a 
        passenger purchases a ticket to arrival at his or her 
        destination. The fiscal year 2013 budget:
    <bullet> Supports trusted traveler programs, such as TSA Pre-Check 
            and the CBP Global Entry program, which are pre-screening 
            initiatives for travelers who volunteer information about 
            themselves prior to flying in order to potentially expedite 
            screening at domestic checkpoints and through customs.
    <bullet> Continues support for passenger screening canine teams 
            included in the fiscal year 2012 enacted budget, an 
            important layer of security to complement passenger 
            checkpoint screening at airports, assist in air cargo 
            screening, and enhance security in the mass transit 
            environment.
    <bullet> Funds the continued operation of technology to screen 
            passengers and baggage through 1,250 Advanced Imaging 
            Technology units, which safely screen passengers for 
            metallic and non-metallic threats, and 155 new state-of-
            the-art Explosives Detection Systems to efficiently screen 
            baggage for explosives which will reduce the number of re-
            scans and physical bag searches.
    <bullet> Expands Secure Flight to cover the Large Aircraft and 
            Private Charter Standard Security Program, screening an 
            estimated 11 million additional passengers annually. 
            Through Secure Flight, TSA pre-screens 100 percent of all 
            travelers flying within or to the United States against 
            terrorist watch lists before passengers receive their 
            boarding passes.
  <bullet> Enhancing International Collaboration.--In our increasingly 
        globalized world, DHS continues to work beyond its borders to 
        protect both National and economic security. The fiscal year 
        2013 budget supports DHS's strategic partnerships with 
        international allies and enhanced targeting and information-
        sharing efforts to interdict threats and dangerous people and 
        cargo at the earliest point possible.
    <bullet> Through the Immigration Advisory Program and enhanced in-
            bound targeting operations, CBP identifies high-risk 
            travelers who are likely to be inadmissible into the United 
            States and makes recommendations to commercial carriers to 
            deny boarding. The fiscal year 2013 budget also supports 
            initiatives to interdict and apprehend criminals and 
            persons of National security interest, and disrupt those 
            who attempt to enter the United States with fraudulent 
            documents.
    <bullet> Through the Visa Security Program and with Department of 
            State concurrence, ICE deploys trained special agents 
            overseas to high-risk visa activity posts to identify 
            potential terrorist and criminal threats before they reach 
            the United States. The fiscal year 2013 budget supports 
            efforts to leverage IT solutions and the capabilities of 
            our law enforcement and intelligence community partners to 
            increase ICE's efficiency in screening visa applications in 
            order to identify patterns and potential National security 
            threats.
    <bullet> Through pre-clearance agreements, CBP screens passengers 
            internationally prior to takeoff through the same process a 
            traveler would undergo upon arrival at a U.S. port of 
            entry, allowing DHS to extend our borders outwards while 
            facilitating a more efficient passenger experience. The 
            fiscal year 2013 budget continues to support CBP's pre-
            clearance inspection efforts, which are designed to 
            determine compliance with admissibility of agriculture, 
            customs, and immigration requirements to the United States.
  <bullet> Supporting Surface Transportation Security.--The transit 
        sector, because of its open access architecture, has a 
        fundamentally different operational environment than aviation. 
        Accordingly, DHS helps secure surface transportation 
        infrastructure through risk-based security assessments, 
        critical infrastructure hardening, and close partnerships with 
        State and local law enforcement partners. The fiscal year 2013 
        budget supports DHS's efforts to bolster these efforts.
    <bullet> The new fiscal year 2013 National Preparedness Grants 
            Program, described in more detail below, is focused on 
            building National capabilities focused on preventing and 
            responding to threats across the country, including the 
            surface transportation sector, through Urban Search & 
            Rescue teams, canine explosive detection teams and HAZMAT 
            response as well as target hardening of critical transit 
            infrastructure.
    <bullet> Conduct compliance inspections throughout the freight rail 
            and mass transit domains; critical facility security 
            reviews for pipeline facilities; comprehensive mass transit 
            assessments that focus on high-risk transit agencies; and 
            corporate security reviews conducted in multiple modes of 
            transportation on a continuous basis to elevate standards 
            and identify security gaps.
    <bullet> Fund 37 Visible Intermodal Prevention and Response (VIPR) 
            teams, including 12 multi-modal teams. VIPR teams are 
            composed of personnel with expertise in inspection, 
            behavior detection, security screening, and law enforcement 
            for random, unpredictable deployments throughout the 
            transportation sector to prevent potential terrorist and 
            criminal acts.
  <bullet> Strengthening Global Supply Chain Security.--The fiscal year 
        2013 budget supports the administration's Global Supply Chain 
        Security Strategy announced in early 2012, which presents a 
        unified vision across air, land, and sea modes of 
        transportation.
    <bullet> Supports increased targeting capabilities by updating 
            rules in real time and providing CBP with 24/7 targeting 
            capability.
    <bullet> Strengthens the Container Security Initiative, enabling 
            CBP to pre-screen and evaluate high-risk containers before 
            they are shipped to the United States.
    <bullet> Continues support for positions to improve the 
            coordination of cargo security efforts, accelerate security 
            efforts in response to the vulnerabilities, ensure 
            compliance with screening requirements, and strengthen 
            aviation security operations overseas.
  <bullet> Support to State and Local\1\ Law Enforcement (SLLE).--The 
        fiscal year 2013 budget continues support for State and local 
        law enforcement efforts to understand, recognize, prevent, and 
        respond to pre-operational activity and other crimes that are 
        precursors or indicators of terrorist activity through 
        training, technical assistance, exercise support, security 
        clearances, connectivity to Federal systems, technology, and 
        grant funding. Specifically, the budget focuses on:
---------------------------------------------------------------------------
    \1\ ``Local'' law enforcement includes all law enforcement at the 
municipal, Tribal, and territorial levels.
---------------------------------------------------------------------------
    <bullet> Maturation and enhancement of State and major urban area 
            fusion centers, including training for intelligence 
            analysts and implementation of Fusion Liaison Officer 
            Programs;
    <bullet> Implementation of the Nation-wide Suspicious Activity 
            Reporting (SAR) Initiative, including training for front-
            line personnel on identifying and reporting suspicious 
            activities;
    <bullet> Continued implementation of the ``If You See Something, 
            Say Something<SUP>TM</SUP>'' campaign to raise public 
            awareness of indicators of terrorism and violent crime; and
    <bullet> State, local, Tribal, and territorial efforts to counter 
            violent extremism, in accordance with the Strategic 
            Implementation Plan to the National Strategy on Empowering 
            Local Partners to Prevent Violent Extremism in the United 
            States.
    The budget also supports efforts to share intelligence and 
information on a wide range of critical homeland security issues. The 
budget continues to build State and local analytic capabilities through 
the National Network of Fusion Centers, with a focus on strengthening 
cross-Department and cross-Government interaction with fusion centers. 
Through the Fusion Center Performance Program, DHS will assess 
capability development and performance improvements of the National 
Network of Fusion Centers through annual assessment and targeted 
exercises. Resources also enable the Office of Intelligence and 
Analysis, in partnership with the Office of Civil Rights and Civil 
Liberties and the Privacy Office to provide privacy, civil rights, and 
civil liberties training for fusion centers and their respective 
liaison officer programs. The Secretary's focus on SLLE includes 
elevating the Office of State and Local Law Enforcement to a stand-
alone office and a direct report.
  <bullet> Biological, Radiological, and Nuclear Threat Detection.--
        Countering biological, nuclear, and radiological threats 
        requires a coordinated, whole-of-Government approach. DHS, 
        through its Domestic Nuclear Detection Office and Office of 
        Health Affairs, works in partnership with agencies across 
        Federal, State, and local governments to prevent and deter 
        attacks using nuclear and radiological weapons through nuclear 
        detection and forensics programs and provides medical and 
        scientific expertise to support bio preparedness and response 
        efforts. The fiscal year 2013 budget supports the following 
        efforts:
    <bullet> Securing the Cities.--$22 million is requested for 
            Securing the Cities to continue developing the domestic 
            portion of the Global Nuclear Detection Architecture, the 
            multi-layered system of detection technologies, programs, 
            and guidelines designed to enhance the Nation's ability to 
            detect and prevent a radiological or nuclear attack in our 
            highest-risk cities.
    <bullet> Radiological/Nuclear Detection.--Supports the procurement 
            and deployment of Radiation Portal Monitors and Human 
            Portable Radiation Detection Systems, providing vital 
            detection equipment to CBP and the U.S. Coast Guard to scan 
            for radiological and nuclear threats. Included within the 
            fiscal year 2013 budget is an increase of $20 million to 
            procure mobile rad/nuc detection technology for front-line 
            operators.
    <bullet> Technical Nuclear Forensics.--Funds for the DNDO National 
            Technical Nuclear Forensics Center support pre-detonation 
            nuclear forensics, the integration of nuclear forensics 
            capabilities across the interagency and National priorities 
            for deterrence, attribution, and prosecution.
    <bullet> BioWatch.--Funds continued deployment of the Gen 1/2 
            BioWatch detection network, a Federally managed, locally 
            operated, Nation-wide bio-surveillance system designed to 
            detect the intentional release of aerosolized biological 
            agents. Continues development of the next generation 
            technology to expedite response times.
    <bullet> National Bio and Agro Defense Facility (NBAF).--The fiscal 
            year 2013 budget provides $10 million to complement on-
            going research at the Plum Island Animal Disease Center by 
            accelerating research programs focused on African Swine 
            Fever and Classical Swine Fever at Kansas State University. 
            This effort will also identify and prioritize future 
            research needs for the existing Biosecurity Research 
            Institute and the proposed National Bio and Agro-Defense 
            Facility. Funding will support identifying high-priority 
            agents from potential terrorist threats and emerging global 
            foreign animal diseases; developing and executing the steps 
            necessary for the facility to receive select agent 
            certification and the waivers necessary to study the high-
            priority agents; and developing public outreach plans to 
            ensure that all stakeholders surrounding the facility 
            understand the value of the proposed work and the 
            safeguards in place. To complement its on-going research, 
            beginning in 2012, DHS's Science and Technology Directorate 
            (S&T) will convene an expert and stakeholder taskforce, in 
            conjunction with the interagency taskforce, to conduct a 
            comprehensive assessment of whether and for what purpose a 
            Biosafety Level 4 facility should be stood up, taking into 
            account the current threats from terrorism, foreign 
            animals, and the global migration of zoonotic diseases to 
            the United States. The assessment will review the cost, 
            safety, and any alternatives to the current plan that would 
            reduce costs and ensure safety within the overall funding 
            constraints established by the BCA.
  <bullet> Presidential Candidate Nominee Protection and Inauguration 
        Protection.--The fiscal year 2013 budget funds critical Secret 
        Service operations and countermeasures to protect the First 
        Family and visiting dignitaries, including the conclusion of 
        the 2012 Presidential campaign (October-November 2012) and 
        Presidential inaugural events. The budget also continues 
        support for the replacement of protective equipment, vehicles, 
        training of personnel, and other infrastructure to allow the 
        Secret Service to improve the execution of its protective and 
        investigatory missions.
Securing and Managing Our Borders
    Protecting our Nation's borders--land, air, and sea--from the 
illegal entry of people, weapons, drugs, and contraband is vital to 
homeland security, as well as economic prosperity. Over the past 
several years, DHS has deployed unprecedented levels of personnel, 
technology, and resources to the Southwest Border. At the same time, 
DHS has made critical security improvements along the Northern Border 
while strengthening efforts to increase the security of the Nation's 
maritime borders.
    The fiscal year 2013 budget continues the administration's 
unprecedented focus on border security, travel, and trade by supporting 
21,370 Border Patrol agents and 21,186 CBP Officers at our ports of 
entry as well the continued deployment of proven, effective 
surveillance technology along the highest-trafficked areas of the 
Southwest Border. To secure the Nation's maritime borders, the budget 
invests in recapitalization of Coast Guard assets and provides 
operational funding for new assets coming on line.
  <bullet> Law Enforcement Officers.--The budget annualizes border 
        security personnel funded through the fiscal year 2010 
        Emergency Border Security Supplemental Act (Pub. L. 111-230) 
        and the Journeyman pay increase, totaling 21,370 CBP Border 
        Patrol agents and 21,186 CBP Officers at ports of entry who 
        work around the clock with Federal, State, and local law 
        enforcement to target illicit networks trafficking in people, 
        drugs, illegal weapons, and money and to expedite legal travel 
        and trade.
  <bullet> Border Intelligence Fusion Section (BIFS).--The budget 
        supports efforts to integrate resources and fuse information 
        from DHS, the Department of Justice (DOJ), the Department of 
        Defense, and the intelligence community at the El Paso 
        Intelligence Center, providing a common operating picture of 
        the Southwest Border and Northern Mexico.
  <bullet> Technology.--Funding is requested to support the continued 
        deployment of proven, effective surveillance technology along 
        the highest-trafficked areas of the Southwest Border. Funds 
        will be used to procure and deploy commercially available 
        technology tailored to the operational requirements of the 
        Border Patrol, the distinct terrain, and the population density 
        within Arizona.
  <bullet> Infrastructure.--CBP is updating and maintaining its 
        facilities infrastructure to support its dual mission of 
        securing the border and facilitating trade and travel. 
        Currently, CBP's facilities plan calls for the following land 
        border ports of entry (LPOEs) to be completed in fiscal year 
        2013: Nogales West/Mariposa, Arizona; Guadalupe, Texas; Van 
        Buren, Maine; and Phase I of San Ysidro, California. 
        Additionally, design and construction is planned to commence on 
        Phase II of San Ysidro, California, and CBP will begin 
        implementing the Tier III Outbound Infrastructure program 
        across 10 Southwest Border LPOEs in order to implement a range 
        of outbound infrastructure improvements. This work bolsters 
        CBP's southbound inspection capabilities while facilitating 
        processing efficiency and ensuring port security and officer 
        safety.
  <bullet> Northern Border Security.--To implement the U.S.-Canada 
        Beyond the Border Plan, which articulates a shared vision to 
        work together to address threats at the earliest point possible 
        while facilitating the legitimate movement of people, goods, 
        and services, the budget provides $10 million to support 
        Northern Border technologies, such as the continuation of 
        procurement/testing and evaluation efforts for Low Flying 
        Aircraft Detection, the deployment of Maritime Detection 
        Project, and Aircraft Video Downlink.
  <bullet> CBP Air and Marine Procurement.--To support CBP Air and 
        Marine's core competencies of air and marine law enforcement, 
        interdiction, and air and border domain security, funding is 
        requested for the continuation of the P-3 Service Life 
        Extension Program, a UH-60 A-L Black Hawk helicopter 
        recapitalization, a new KA-350 CER Multi-Role Enforcement 
        aircraft, and various marine vessels.
  <bullet> U.S. Coast Guard Recapitalization.--The fiscal year 2013 
        budget fully funds the sixth National Security Cutter (NSC), 
        allowing the Coast Guard to replace its aged, obsolete High 
        Endurance Cutter fleet as quickly as possible. The budget 
        supports the procurement of 2 Fast Response Cutters, funding 
        for a Maritime Patrol Aircraft, 4 cutter boats, and makes a 
        significant investment in the renovation and restoration of 
        shore facilities. The budget also provides funds to crew, 
        operate, and maintain 2 Maritime Patrol Aircraft, 30 45-ft 
        Response Boats--Medium, and 2 Fast Response Cutters acquired 
        with prior-year appropriations.
Enforcing and Administering our Immigration Laws
    DHS is focused on smart and effective enforcement of U.S. 
immigration laws while streamlining and facilitating the legal 
immigration process. Supporting the establishment of clear enforcement 
priorities, recent policy directives, and additional training for the 
field, the budget continues the Department's efforts to prioritize the 
identification and removal of criminal aliens and repeat immigration 
law violators, recent border entrants, and immigration fugitives. 
Nation-wide implementation of Secure Communities and other enforcement 
initiatives, coupled with continued collaboration with DOJ to focus 
resources on the detained docket and priority cases on the non-detained 
docket, is expected to continue to increase the number of criminal 
aliens and other priority individuals who are identified and removed. 
The budget provides the resources needed to address this changing 
population, while continuing to support Alternatives to Detention, 
detention reform, and immigrant integration efforts. The budget also 
focuses on monitoring and compliance, promoting adherence to worksite-
related laws through criminal prosecutions of egregious employers, Form 
I-9 inspections, and expansion of E-Verify.
  <bullet> Secure Communities.--The fiscal year 2013 budget includes 
        funding to complete Nation-wide deployment in fiscal year 2013 
        of the Secure Communities program, which uses biometric 
        information and services to identify and remove criminal and 
        other priority aliens found in State prisons and local jails. 
        Secure Communities is an important tool in ICE's efforts to 
        focus its immigration enforcement resources on the highest-
        priority individuals who pose a threat to public safety or 
        National security. While we continue to focus our resources on 
        our key priorities, DHS is committed to ensuring the Secure 
        Communities program respects civil rights and civil liberties. 
        To that end, ICE is working closely with law enforcement 
        agencies and stakeholders across the country to ensure the 
        program operates in the most effective manner possible. We have 
        issued guidance regarding the exercise of prosecutorial 
        discretion in appropriate cases, including cases involving 
        witnesses and victims of crime, and implemented enhanced 
        training for State and local law enforcement regarding civil 
        rights issues related to the program, among other recent 
        improvements.
  <bullet> Immigration Detention.--Under this administration, ICE has 
        focused its immigration enforcement efforts on identifying and 
        removing criminal aliens and those who fall into other priority 
        categories including repeat immigration law violators, recent 
        border entrants, and immigration fugitives. As ICE continues to 
        focus on criminal and other priority cases, the agency 
        anticipates reducing the time removable aliens spend in 
        detention custody. Consistent with its stated enforcement 
        priorities and recent policy guidance, ICE will continue to 
        focus detention and removal resources on those individuals who 
        have criminal convictions or fall under other priority 
        categories. For low-risk individuals, ICE will work to enhance 
        the effectiveness of Alternatives to Detention (ATD), which 
        provides a lower per-day cost than detention. To ensure the 
        most cost-effective use of Federal resources, the budget 
        includes flexibility to transfer funding between immigration 
        detention and the ATD program, commensurate with the level of 
        risk a detainee presents.
  <bullet> 287(g) Program.--In light of the Nation-wide activation of 
        the Secure Communities program, the budget reduces the 287(g) 
        program by $17 million. The Secure Communities screening 
        process is more consistent, efficient, and cost-effective in 
        identifying and removing criminal and other priority aliens. To 
        implement this reduction in 2013, ICE will begin by 
        discontinuing the least productive 287(g) task force agreements 
        in those jurisdictions where Secure Communities is already in 
        place and will also suspend consideration of any requests for 
        new 287(g) task forces.
  <bullet> Detention Reform.--ICE will continue building on current and 
        on-going detention reform efforts in 2013. ICE will implement 
        its new Risk Classification Assessment Nation-wide to improve 
        transparency and uniformity in detention custody and 
        classification decisions and to promote identification of 
        vulnerable populations. In addition, ICE will continue 
        implementation of the new Transfer Directive, which is designed 
        to minimize long-distance transfers of detainees within ICE's 
        detention system, especially for those detainees with family 
        members in the area, local attorneys, or pending immigration 
        proceedings. ICE will also continue implementation of revised 
        National detention standards designed to maximize access to 
        counsel, visitation, and quality medical and mental health care 
        in additional facilities.
  <bullet> Worksite Enforcement.--Requested funds will continue the 
        Department's focus on worksite enforcement, promoting 
        compliance with worksite-related laws through criminal 
        prosecutions of egregious employer violators, Form I-9 
        inspections, civil fines, and debarment, as well as education 
        and compliance tools.
  <bullet> E-Verify.--$112 million is provided to sustain funding for 
        the E-Verify Program operations and enhancements to help U.S. 
        employers maintain a legal workforce. The fiscal year 2013 
        budget includes funding to support the expansion of the E-
        Verify Self Check program, a voluntary, free, fast, and secure 
        on-line service that allows individuals in the United States to 
        check their employment eligibility status before formally 
        seeking employment. Consistent with funding the continued 
        operation of E-Verify for the benefit of U.S. employers, the 
        budget also extends E-Verify authorization for an additional 
        year.
  <bullet> Immigrant Integration.--The fiscal year 2013 budget includes 
        $11 million to continue support for U.S. Citizenship and 
        Immigration Services (USCIS) immigrant integration efforts 
        through funding of citizenship and integration program 
        activities including competitive grants to local immigrant-
        serving organizations to strengthen citizenship preparation 
        programs for permanent residents.
  <bullet> Systematic Alien Verification for Entitlements (SAVE).--The 
        fiscal year 2013 budget includes $20 million in appropriated 
        funding to continue support for USCIS SAVE operations and 
        enhancements to assist local, State, and Federal agencies in 
        determining individuals' eligibility for public benefits on the 
        basis of their immigration status. The funding will supplement 
        the collections derived from the SAVE query charges.
  <bullet> USCIS Business Transformation.--The fiscal year 2013 budget 
        continues the multi-year effort to transform USCIS from a 
        paper-based filing system to a customer-focused electronic 
        filing system. This effort is funded through the Immigration 
        Examinations Fee Account.
Safeguarding and Securing Cyberspace
    DHS leads the Federal Government's efforts to secure civilian 
Government computer systems and works with industry and State, local, 
Tribal, and territorial governments to secure critical infrastructure 
and information systems. The fiscal year 2013 budget makes significant 
investments in cybersecurity to expedite the deployment of EINSTEIN 3 
to prevent and detect intrusions on Government computer systems; 
increases Federal network security of large and small agencies; and 
continues to develop a robust cybersecurity workforce to protect 
against and respond to National cybersecurity threats and hazards. The 
budget also focuses on combating cyber crimes, targeting large-scale 
producers and distributors of child pornography and preventing attacks 
against U.S. critical infrastructure through Financial Crimes Task 
Forces.
  <bullet> Federal Network Security.--$236 million is included for 
        Federal Network Security, which manages activities designed to 
        enable Federal agencies to secure their IT networks. This 
        funding supports Federal Executive Branch civilian departments 
        and agencies in implementing capabilities to improve their 
        cybersecurity posture in accordance with the Federal 
        Information Security Management Act, while enabling improved 
        continuous monitoring of network activity and other 
        capabilities to address evolving cyber threats.
  <bullet> National Cybersecurity Protection System (NCPS).--$345 
        million is included for Network Security Deployment, which 
        manages the NCPS operationally known as EINSTEIN. NCPS is an 
        integrated intrusion detection, analytics, information-sharing, 
        and intrusion prevention system that supports DHS 
        responsibilities within the Comprehensive National 
        Cybersecurity Initiative mission. In fiscal year 2013, the 
        program will continue to focus on intrusion prevention while 
        taking steps to improve its situational awareness of evolving 
        cyber threats to Federal networks and systems through a Managed 
        Security Services (MSS) solution. Under the MSS solution, each 
        internet service provider will use its own intrusion prevention 
        services that conform to DHS-approved security, assurance, and 
        communication requirements.
  <bullet> US-Computer Emergency Readiness Team (US-CERT Operations).--
        $93 million is included for US-CERT Operations. As the 
        operational arm of the National Cyber Security Division, US-
        CERT leads and coordinates efforts to improve the Nation's 
        cybersecurity posture, promote cyber information sharing, and 
        manage cyber risks to the Nation. US-CERT encompasses the 
        activities that provide immediate customer support and incident 
        response, including 24-hour support in the National 
        Cybersecurity and Communications Integration Center. As more 
        Federal network traffic is covered by NCPS, additional US-CERT 
        analysts are required to ensure cyber threats are detected and 
        the Federal response is effective.
  <bullet> Multi-State Information Sharing and Analysis Center.--
        Funding is included to expand the Multi-State Information 
        Sharing and Analysis Center to 25 States to provide the 
        capacity to cover all States by fiscal year 2015.
  <bullet> Cybersecurity Workforce.--The fiscal year 2013 budget 
        includes $12.9 million to provide high-quality, cost-effective 
        virtual cybersecurity education and training to develop and 
        grow a robust cybersecurity workforce that is able to protect 
        against and respond to National cybersecurity threats and 
        hazards.
  <bullet> Cybersecurity Research and Development.--The fiscal year 
        2013 budget includes $64.5 million for S&T's research and 
        development focused on strengthening the Nation's cybersecurity 
        capabilities.
  <bullet> Cyber Investigations.--The fiscal year 2013 budget continues 
        to support cyber investigations conducted through the Secret 
        Service and ICE. In fiscal year 2013, ICE will continue to 
        investigate and provide computer forensics support for 
        investigations into domestic and international criminal 
        activities, including benefits fraud, arms and strategic 
        technology, money laundering, counterfeit pharmaceuticals, 
        child pornography, and human trafficking, occurring on or 
        through the internet. The Secret Service's Financial Crimes 
        Task Forces will continue to focus on the prevention of cyber 
        attacks against U.S. financial payment systems and critical 
        infrastructure.
Ensuring Resilience to Disasters
    The Department's efforts to build a ready and resilient Nation 
focus on a whole community approach to emergency management by engaging 
partners at all levels to ensure that we work together to build, 
sustain, and improve our capability to prepare for, protect against, 
respond to, recover from, and mitigate all hazards. In the event of a 
terrorist attack, natural disaster, or other large-scale emergency DHS 
provides the coordinated, comprehensive Federal response while working 
with Federal, State, local, and private-sector partners to ensure a 
swift and effective recovery effort.
    To ensure that FEMA is able to support these efforts, the DRF, 
which provides a significant portion of the total Federal response to 
victims in Presidentially-declared disasters or emergencies, is funded 
largely through an authority provided under the BCA. To support the 
objectives of the National Preparedness Goal and to leverage limited 
grant funding in the current fiscal environment, the administration 
proposes a new homeland security grants program in fiscal year 2013 to 
create a robust National response capacity based on cross-
jurisdictional and readily deployable State and local assets. The 
fiscal year 2013 budget also funds FEMA's continued development of 
catastrophic plans, which include regional plans for response to 
biological events and earthquakes.
    State and Local Grants.--The fiscal year 2013 budget includes $2.9 
billion for State and local grants, over $500 million more than 
appropriated by Congress in fiscal year 2012. This funding will sustain 
resources for fire and emergency management grants while consolidating 
all other grants into the new, streamlined National Preparedness Grant 
Program (NPGP). The fiscal year 2013 NPGP will:
  <bullet> Focus on the development and sustainment of core National 
        Emergency Management and Homeland Security capabilities.
  <bullet> Utilize gap analyses to determine asset and resource 
        deficiencies and inform the development of new capabilities 
        through a competitive process.
  <bullet> Build a robust National response capacity based on cross-
        jurisdictional and readily deployable State and local assets.
    Using a competitive, risk-based model, the NPGP will use a 
comprehensive process for identifying and prioritizing deployable 
capabilities; limit periods of performance to put funding to work 
quickly; and require grantees to regularly report progress in the 
acquisition and development of these capabilities.
  <bullet> Assistance to Firefighters Grants.--The fiscal year 2013 
        budget provides $670 million for Assistance to Firefighter 
        Grants. Included in the amount is $335 million for Staffing for 
        Adequate Fire and Emergency Response (SAFER) Grants to retain 
        and hire firefighters and first responders--totaling more than 
        1,700 firefighter positions Nation-wide--and $335 million for 
        equipment, training, vehicles, and related materials. Whereas 
        in prior years, a management and administration allowance has 
        been carved out of the top line, the fiscal year 2013 budget 
        proposes to fund it elsewhere, effectively increasing the 
        funding available for actual awards by more than $28 million. 
        The administration proposed $1 billion as supplemental SAFER 
        appropriations in fiscal year 2012 as part of the American Jobs 
        Act. This proposal included the authority for the Secretary to 
        waive certain restrictions on the award and expenditure of 
        SAFER grants to assist State and local firefighting agencies in 
        the current economic environment and prevent unnecessary job 
        losses. If economic conditions warrant, the administration will 
        once again work with Congress in fiscal year 2013 to seek 
        authority to waive these restrictions.
  <bullet> Emergency Management Performance Grants (EMPG).--The fiscal 
        year 2013 budget includes $350 million to support emergency 
        managers and emergency management offices in every State across 
        the country. Just as with the Assistance to Firefighter Grants, 
        a management and administration allowance has historically been 
        carved out of the top line. The fiscal year 2013 budget 
        proposes to fund management and administration elsewhere, 
        effectively increasing the funding available for actual awards 
        by approximately $10.5 million. EMPG supports State and local 
        governments in developing and sustaining the core capabilities 
        identified in the National Preparedness Goal and achieving 
        measurable results in key functional areas of emergency 
        management.
  <bullet> Disaster Relief Fund (DRF).--A total of $6.1 billion is 
        provided for the DRF. Of this amount, $608 million is included 
        in the Department's base budget with the remainder provided 
        through the disaster relief cap adjustment, pursuant to the 
        BCA. The DRF provides a significant portion of the total 
        Federal response to victims in Presidentially-declared 
        disasters or emergencies.
  <bullet> National Flood Insurance Program (NFIP).--The NFIP is funded 
        entirely by policy fees and provides funding to reduce the risk 
        of flood damage to existing buildings and infrastructure by 
        providing flood-related grants to States, communities, and 
        Tribal nations. The fiscal year 2013 budget includes $120 
        million for three interrelated mitigation grant programs to 
        increase America's resiliency to floods.
  <bullet> Training/Exercises.--The fiscal year 2013 budget includes 
        $183.5 million for training and exercise activities to support 
        Federal, State, and local officials and first responders. In 
        fiscal year 2013, the Department expects to train more than 
        100,000 first responders and will begin the first full 2-year 
        exercise cycle under the revised National Exercise Program 
        (NEP). The NEP will leverage more than a dozen exercises across 
        the country and will build progressively to a capstone exercise 
        in calendar year 2014.
  <bullet> Emergency Management Oversight.--The fiscal year 2013 
        request includes $24 million in base resources for the Office 
        of the Inspector General to continue its Emergency Management 
        Oversight operations.
Providing Essential Support to National and Economic Security
    DHS provides essential support to many areas of National and 
economic security. In addition to supporting Coast Guard's current 
operations in the Polar Regions, the budget initiates acquisition of a 
new polar icebreaker to address Coast Guard emerging missions in the 
Arctic. The budget also continues to support ICE's and CBP's 
enforcement and investigative efforts to protect U.S. intellectual 
property rights and collect customs revenue.
  <bullet> Polar Icebreaking Program.--The budget provides $8 million 
        to initiate acquisition of a new Polar Icebreaker to ensure the 
        Nation is able to maintain a surface presence in the Arctic 
        Region well into the future and $54 million to fund operation 
        and maintenance of Coast Guard's existing Polar Icebreakers, 
        CGC HEALY and CGC POLAR STAR (POLAR STAR to be re-activated in 
        2013).
  <bullet> Arctic Mission Support.--New funding is requested for 
        recapitalization and expansion of helicopter hangar facilities 
        in Cold Bay and recapitalization of aviation re-fueling 
        facilities at Sitkinak, both in Alaska. These investments will 
        sustain DHS's ability to establish effective presence in the 
        Bering Sea and Aleutian Chain, the ``Gateway to the Arctic''.
  <bullet> Collect Customs Revenue.--Funds are requested to support 
        CBP's role as a revenue collector for the U.S. Treasury--
        customs revenue remains the second-largest source of revenue 
        for the Federal Government. These resources support effective 
        internal controls that protect the duties and taxes (over $37 
        billion in 2011) collected by CBP.
  <bullet> Protect Trade & Intellectual Property Rights Enforcement.--
        The fiscal year 2013 budget includes funds to support ICE's and 
        CBP's enforcement programs to prevent trade in counterfeit and 
        pirated goods, enforce exclusion orders on patent-infringing 
        goods and goods in violation of Intellectual Property Rights 
        (IPR), and investigate the smuggling and distribution of 
        counterfeit goods and products that pose risks to public safety 
        and security. The budget also provides $10 million to CBP for 
        IPR supply/distribution chain management which will transform 
        IPR risk assessment, increase efficiency, and support U.S. 
        economic competitiveness. This CBP-private-sector partnership 
        program aims to improve IPR targeting by enabling CBP to 
        identify and release shipments of authentic goods without 
        inspection. Additional funds will expand CBP's Industry 
        Integration Centers to address issues within critical trade 
        sectors by increasing uniformity of practices across ports of 
        entry, facilitating the timely resolution of trade compliance 
        issues Nation-wide, improving enforcement efforts, and further 
        strengthening critical agency knowledge on key industry 
        practices.
                               conclusion
    The fiscal year 2013 budget proposal reflects this administration's 
strong commitment to protecting the homeland and the American people 
through the effective and efficient use of DHS resources. As outlined 
in my testimony today, we will continue to preserve front-line 
priorities across the Department by cutting costs, sharing resources 
across Components, and streamlining operations wherever possible.
    Thank you for inviting me to appear before you today. I look 
forward to answering your questions and to working with you on the 
department's fiscal year 2013 budget request and other homeland 
security issues.

    Chairman King. Thank you for your statement, Secretary 
Napolitano. As I stated, your full statement will be included 
in the record.
    We will now begin the round of questions. We have been 
faced with a series of threats for the past 10\1/2\ years. Now, 
within the last several months, the threat of Hezbollah seems 
to have emerged more than it was during that previous time. We 
had the indictments in Washington regarding the attempted 
assassination--the plot to assassinate the Saudi ambassador, to 
blow up Cafe Milano. Now with the increased tension in the 
Middle East, I believe that there is a growing, growing threat 
from Hezbollah. Certainly, I know I have been contacted by 
local police, also by local houses of worship, especially 
synagogues. Can you tell us what the Department is doing to 
address this pending or possible threat from Hezbollah? 
Specifically, are you reaching out at all to religious 
institutions?
    Secretary Napolitano. Yes, Mr. Chairman. We share your 
concern about Hezbollah. We are constantly monitoring their 
activities around the world. We are working very closely with 
the FBI and the intel community in this regard. In addition, we 
are reaching out to particularly Jewish, the Jewish community 
across the country, who have been the intended targets in the 
past. We have just, this past week, convened a very large 
conference call with leaders of the Jewish community from 
around the country. We remain in constant touch with them. 
Right now we have no specific or credible threat against any 
organization or target in the United States. But this is 
certainly a situation that bears watching.
    Chairman King. Thank you, Secretary. You referenced this in 
your opening statement, but the changing in the grant system 
which basically you are taking, I guess it is 16 former 
programs and merging them into one, the National Preparedness 
Grant Program. Now, in going through the budget justification 
documents, it appears to only mention States and territories as 
recipients of the funding. So are high-threat urban areas, 
transit authorities, port authorities, will they be eligible to 
apply for the funding?
    Secretary Napolitano. Mr. Chairman, what we have put in the 
budget documents is our vision for how these grant programs 
will be consolidated and organized. We will work with the 
Members of the committee in terms of how you see the 
appropriate recipients to be. Right now as envisioned, we don't 
envision any changes. But because this is such a major 
alteration on how we handle grants, we would probably need to 
work with the committee on that.
    Chairman King. I would think so. Because again, you have 
got large States like California and New York, and to have it 
just going through the State, to me it is important that we 
have, again, local urban areas, certainly port authorities, 
transit authorities, all of whom could have unique problems to 
their area of the State, including large numbers of people, 
millions of people perhaps. So I would ask that as it goes 
forward that you find ways to work with all those entities.
    Secretary Napolitano. Indeed. To accomplish our vision, we 
will require legislative change. So we will be working with the 
committee on that.
    Chairman King. Also I am pleased to see that the Secure the 
Cities program is being fully funded again this year. But as it 
goes forward, how do you see DHS monitoring it, coordinating 
it, perhaps using it in other cities in the country rather than 
just where it is located now?
    Secretary Napolitano. Well, we saw Securing the Cities, it 
was a pilot program originally in New York. What we are asking 
for now, and what the budget has money for, is to add a second 
site to it. I think a lot of lessons learned, good lessons 
learned, actually, from the experience in New York so we can 
begin the process of expansion.
    Chairman King. If I can go back to the point I raised 
before about the grant system. We were contacted by a number of 
local organizations, International Association of Emergency 
Managers, International Association of Counties, National 
League of Cities who are concerned that the grant funding may 
be too State-centric. So again, I would just emphasize that we 
have been contacted just in the last 24 hours by any number of 
these groups who have a real concern about that funding.
    Secretary Napolitano. It is our intent that the funding be 
consolidated to streamline, simplify, remove administrative 
costs. But we want to focus on meeting the National 
preparedness goal. How do we leverage resources around the 
country? How do we make sure that there is a basic Homeland 
Security net so to speak, building on the $35 billion of 
capability that the Congress already has invested in? My view 
is that this should be primarily a risk-based grant, and that 
we ought to continue to inform grant decisions by evaluation of 
risk.
    Chairman King. Okay. Again, I would just use an example 
here, you have Ms. Hochul and myself on opposite parts of the 
State. She has real security concerns on the Northern Border. 
We have different concerns down in the Long Island/New York 
City area. Both legitimate. I don't know if the State, with all 
due respect to Governor Cuomo, whether the State is fully 
equipped to appreciate the distinctions and differences between 
various parts of the State. So I would just ask you to keep 
that in mind as it goes forward.
    Secretary Napolitano. Yes.
    Chairman King. With that I recognize the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman. As well as the other 
States in the United States other than New York, we join you in 
that concern, Mr. Chairman. With respect to the reference the 
Chairman made of the letter from the National Association of 
Counties, National League of Cities, U.S. Conference of Mayors, 
International Association of Fire Chiefs and others, I would 
like to have it entered into the record.
    Chairman King. Without objection, so ordered.
    [The information follows:]
         Letter Submitted by Ranking Member Bennie G. Thompson
                                  February 2, 2012.
The Honorable Peter King,
Chairman, Committee on Homeland Security, U.S. House of 
        Representatives, H2-176 Ford House Office Building, Washington, 
        DC 20515.
The Honorable Bennie Thompson,
Ranking Member, Committee on Homeland Security, U.S. House of 
        Representatives, H2-117 Ford House Office Building, Washington, 
        DC 20515.
    Dear Chairman King and Ranking Member Thompson: We write on behalf 
of the elected and appointed officials of our Nation's cities and 
counties and their fire services and emergency managers to urge the 
U.S. Department of Homeland Security and Congress to engage in a direct 
conversation with all local and State partners before considering any 
proposals to change how the State and Local Homeland Security Grant 
Program (HSGP) is implemented, or how appropriated funds are 
administered by the Department.
    Everyone--the administration, Congress, and State and local 
officials--wants to ensure the Nation's homeland security and emergency 
management programs are successful. We are concerned, however, that 
recent proposals to restructure the HSGP would move us in the wrong 
direction and make it harder to achieve the goal of protecting 
Americans in their, local communities.
    As FEMA begins to implement changes to HSGP as required by both the 
fiscal year 2012 appropriations law and the Presidential Policy 
Directive 8 (PPD-8), and as you consider the fiscal year 2013 budget 
request, we respectfully ask that you keep in mind the following 
principles:
    1. Any proposals to change homeland security grant programs must be 
developed in concert with all stakeholders.--The suite of State and 
local homeland security grant programs were the result of significant 
negotiations not only between the Executive Branch and Congress, but 
also among the intergovernmental organizations and stakeholders. This 
includes local elected and appointed officials, as well as those who 
play a key role in executing street-level terrorism prevention and 
preparedness activities in our neighborhoods--our Nation's fire 
services, law enforcement, and other front-line personnel. Failure to 
include these key stakeholders in decisions related to proposed changes 
to the homeland security grants may result in less effective homeland 
security programs at the State and local levels.
    2. Grant recipients must be transparent on distribution of Federal 
funds, and subgrantees must not be overburdened with additional 
requirements.--This will allow for better oversight, ensuring that 
funds are not only distributed by the letter of the law, but also in 
its spirit. We believe that to the maximum extent possible, funding 
should be distributed to prepare local first responders with planning, 
training, exercise, and equipment activities, particularly those that 
foster a regional and coordinated emergency response. Grant funds 
should be used to address risks and vulnerabilities in communities and 
help build National capabilities.
    The current fiscal constraints that localities are facing are 
forcing our members to make very difficult programmatic and personnel 
choices. When coupled with the reduction in State and local homeland 
security funding both last year and this year, it has become even more 
important that the limited dollars available be spent as effectively as 
possible so that localities can protect the public.
    We would appreciate the opportunity to meet with you or your staff 
to discuss the path ahead for intergovernmental partnerships to 
prevent, deter, and respond to terrorism in the United States. Mitchel 
Herckis, Principal Associate for Human Development and Public Safety at 
the National League of Cities, will be in touch with your office to 
schedule a meeting and respond to any questions regarding this letter. 
Thank you in advance for your consideration.
                           National Association of Counties
                                  National League of Cities
                              The U.S. Conference of Mayors
U.S. Council of the International Association of Emergency 
                                                   Managers
                   International Association of Fire Chiefs
                 International Association of Fire Fighters
                            National Volunteer Fire Council

    Mr. Thompson. Also, with respect to FEMA grants, there is 
some concern that these stakeholders have not been included in 
the process of developing guidance from grants in the 
consolidation proposals. Will you commit to the committee that 
if it has not been the best, you will make your best effort to 
work with those groups?
    Secretary Napolitano. Yes. We have had a lot of discussions 
with stakeholders over the last year. Some of them have 
actually, I think, already said they support the vision. The 
question is going to be the details. How do we fill it out? 
That, again, will be something we will work on not just with 
the stakeholder community, but with the Congress.
    Mr. Thompson. We have the record. I will ask also that we 
will provide you with a copy of the letters from the 
stakeholders. With respect to TWIC, your best guess as to when 
we will come with some guidance on the readers for the TWIC 
card.
    Secretary Napolitano. I think they are right on the verge 
of the guidance for the readers. I am putting a lot of, quite 
frankly, pressure on this to get this guidance out. Because as 
you know, the cards deadlines is coming up. We want to avoid 
the situation, to the extent we can, where people are having to 
renew cards before the readers, or at least the guidance for 
the readers is out.
    Mr. Thompson. Well, if we get to the deadline and it is 
time to renew, do you see yourself extending the cards rather 
than having people come back and pay $133.50?
    Secretary Napolitano. I have asked my staff to give me a 
set of options on what we can do if that were to happen, yes. 
That would certainly be an option.
    Mr. Thompson. We have a lot of communities that are port-
connected and others. They are hearing from a number of people 
that they paid the money for the cards, they are no more than 
just a flash card right now because there is no reader that 
goes with them. I would encourage you to look seriously that if 
the Department does not meet the time line for producing the 
readers that that period be extended until the readers are in 
place. The other point is we would like for you to look at not 
requiring people who apply for a TWIC card to come back and 
pick it up. That second trip for a lot of individuals costs a 
lot of money. Some people have to take off a day's work to pick 
up the card. There are some alternatives out there. We 
understand the security challenges around it. But it is a 
concern. We would like for you to look at it.
    Secretary Napolitano. I would be happy to. I share those 
concerns. We are going to work through all available options 
within the Department. We will certainly keep your office 
informed.
    Mr. Thompson. For the sake of the record, is the problem 
with the readers the Department, or where has the breakdown 
been for the last 4-plus years?
    Secretary Napolitano. You know, it is hard to say where, in 
fact. There have been just a lot of operational issues with 
some of the test readers and with respect to their viability 
and their ruggedness and the like. So there has been just--I 
mean, there have been things tested that haven't played out. So 
it has been a real process to finally arrive at something that 
will be good guidance.
    Mr. Thompson. So your testimony is you are close?
    Secretary Napolitano. That is my understanding, yes.
    Mr. Thompson. Mr. Chairman, I would love to get something 
back from the Secretary as to her best guess as to when we can 
expect something from the Department.
    Chairman King. We can make that a joint request of the 
Secretary right now.
    Secretary Napolitano. I will be happy to get something back 
to you.
    Mr. Thompson. I yield back.
    Chairman King. Thank the gentleman for yielding. Also in 
mentioning Ms. Hochul, I didn't want to slight Mr. Higgins, who 
is also from western New York. You are just in my line of 
vision there. How can we ignore Brian Higgins?
    Mr. Thompson. We have got another New Yorker here, too, 
now.
    Chairman King. I am talking about upstate. I mentioned 
upstate. We are well aware of you, too.
    Ms. Clarke of New York. I want to be sure.
    Chairman King. Even though we don't always agree on the 
NYPD. With that, I recognize the gentleman from Alabama, 
Chairman of the Transportation Security Subcommittee, Mr. 
Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. I would like to offer 
for the record a letter that the Alabama delegation sent to the 
Secretary. It was delivered yesterday. If there is no 
objection.
    Chairman King. Without objection.
    [The information follows:]
               Letter Submitted by Honorable Mike Rogers
                                 February 14, 2012.
The Honorable Janet Napolitano,
Secretary, Department of Homeland Security, Washington, DC 20528.
    Dear Secretary Napolitano: We write to express our serious concerns 
about the Department of Homeland Security's decision to suspend the 
implementation of the Secure Communities Program in the 30 remaining 
counties in Alabama. As you have noted, Secure Communities is ``an 
effective tool to identify and remove dangerous criminals who pose a 
threat to public safety.'' We are certain you would agree that the 
program is also an efficient use of both Federal and State resources to 
combat illegal immigration and has proven invaluable to law enforcement 
agencies across the country. For these reasons, it is critical that 
every county in Alabama participate in the program.
    On August 22, 2011, Alabama Attorney General Luther Strange 
personally delivered to you a written request for a Section 287(g) 
Memorandum of Agreement between your Department and certain Alabama 
State and local law enforcement agencies for Federal Training and 
certification to enforce Federal immigration laws. On September 23, 
2011, DHS Assistant Secretary Betsy Markey replied that ``ICE and the 
Alabama Department of Public Safety have mutually benefited from our 
on-going 287(g) memorandum of agreement, and we will continue to foster 
this partnership.'' However, she denied Attorney General Strange's 
request to extend the training to other law enforcement agencies 
pending the activation of Secure Communities in the remaining counties 
in Alabama. It is our understanding that individual Alabama counties 
have made similar requests directly to Immigration and Customs 
Enforcement Director John Morton.
    On September 23, 2011, Director of the Alabama Department of 
Homeland Security Spencer Collier informed you that the State desired 
to fully participate in Secure Communities by implementing the program 
in every county. Following that meeting, Director Morton called 
Director Collier to advise him that DHS intended to complete 
implementation of the program in every country in Alabama by the end of 
November, and that the deadline was being ``expedited'' following 
Director Collier's meeting with you. As that deadline approached, the 
DHS Office of Intergovernmental Affairs informed Director Collier that 
the previously-promised November deadline was being pushed back to the 
end of December due to budgetary and logistical issues. Just prior to 
that new deadline, Assistant Secretary Markey informed Director Collier 
that DHA would not meet the new deadline, again citing budgetary and 
logistical issues, but reiterating your Department's commitment to 
fully implement the program in every county in Alabama.
    When Congressman Aderholt learned of and questioned the claimed 
issues, your Department admitted there were no budgetary and logistical 
concerns. As you know, Secure Communities had been fully supported by 
Congress since its launch, including increases above the request in 
fiscal years 2010 and 2012.
     The Department then revealed that the delay was due to the Justice 
Department's efforts to invalidate Alabama's immigration enforcement 
law in Federal court. Senator Sessions' office received the same 
explanation, which is set forth, in part, below:

``Although the federal courts have enjoined several parts of H.B. 56, 
certain provisions were not enjoined and are currently in effect . . . 
While these provisions of Alabama's state immigration enforcement law, 
which conflict with ICE's immigration policies and programs, remain the 
subject of litigation, ICE does not believe it is appropriate to expand 
deployment of Secure Communities, one of its central enforcement 
programs, in Alabama.''

    Setting aside the dubious notion that an immigration enforcement 
law is somehow inconsistent with the policies and programs of the 
Nation's top immigration law enforcement agency, we question the basis 
for your Department's assertion that it is not ``appropriate'' to 
expand deployment of Secure Communities in Alabama due to on-going 
litigation concerning H.B. 56. While implementation of the program in 
Alabama has been halted since July, your Department has fully 
implemented the program in every other State with similar immigration 
enforcement laws that are currently being challenged in Federal court 
by the Department of Justice on the same or similar grounds.
    It is our understanding that up until this abrupt reversal of 
course, Alabama law enforcement had a positive working relationship 
with DHS. Your Department's decision to cease assisting Alabama in the 
removal of dangerous illegal aliens is wholly inconsistent with this 
administration's stated position of focusing on the removal of those 
very individuals. There is no legitimate reason why Alabama law 
enforcement should be denied critical 287(g) training or the citizens 
of Alabama should be denied the protection of the Secure Communities 
program.
    For these reasons, we demand that 287(g) training be made available 
to those State and local agencies that have requested such training, 
and that Secure Communities be implemented in every county in Alabama 
by March 15, 2012. We believe this is a reasonable deadline given that 
your Department initially intended to complete implementation in 
November 2011.
    We look forward to your timely response.
            Sincerely,
                                             Jeff Sessions,
                                             United States Senator,
                                            Richard Shelby,
                                             United States Senator,
                                           Robert Aderholt,
                                             United States Senator,
                                               Mike Rogers,
                                      United States Representative,
                                            Spencer Bachus,
                                      United States Representative,
                                                 Jo Bonner,
                                      United States Representative,
                                                 Mo Brooks,
                                      United States Representative,
                                               Martha Roby,
                                      United States Representative.

    Mr. Rogers. Thank you. Thank you, Madam Secretary, for 
being here. Thank you for your service to our country. I know 
yours is not a 40-hour-a-week job and low pressure. So we 
appreciate your service. I want to talk to you about Secure 
Communities and 287(g). Now, my understanding from looking at 
the memo on the budget is that the 287(g) program was reduced 
by 25 percent, which has basically halted any additional 
training of additional communities going forward. Is that 
correct?
    Secretary Napolitano. For task forces, yes. We are moving 
to--we began this migration last year. But we are really moving 
toward, as we install Secure Communities throughout the 
country, that is really the preferred way to identify those in 
the country illegally and to get them removed.
    Mr. Rogers. Well, I agree that Secure Communities is a 
great way, but the 287(g) program has been just an outstanding 
force multiplier, relatively inexpensive, too. So I hate to see 
no additional communities be added.
    Secretary Napolitano. If I might, Representative, in terms 
of task forces, we are actually going to discontinue some 
because we have task forces in the country that over the last 1 
or 2 years have picked up maybe one or two illegals. So when we 
actually calculate out the average cost of removing somebody 
who has been picked up by a 287(g) task force versus say Secure 
Communities, 287(g) pencils out to be about 10 times as 
expensive per alien. So there is a cost factor involved, you 
are correct.
    Mr. Rogers. That is interesting. Talk about Secure 
Communities. My understanding is that--well, not my 
understanding, I know that we were told in Alabama that the 
remaining 37 counties--there has been 30 so far that have had 
the Secure Communities established--the remaining 37 counties 
were to have it installed by November of last year. Then it was 
backed up to December of last year. Now I am told it has been 
stopped. Is that, in fact, the case?
    Secretary Napolitano. It has been delayed, that is correct.
    Mr. Rogers. Why?
    Secretary Napolitano. Several reasons. But one reason is 
that, as you know, the Alabama State law is in litigation. It 
is at the Eleventh Circuit. The schedule for oral argument is 
coming right up. We left the program in place where it was 
turned on. Where it is turned on covers 75 percent of the 
foreign-born population in Alabama. But given the pendency of 
the litigation, we decided to just hold off on the remaining 
quarter. I will say, however, that it is our intent to finish 
completion of Secure Communities by the end of this year.
    Mr. Rogers. Why is that litigation relevant? My 
understanding is you haven't halted it in Arizona or Georgia, 
and they have similar legislation at the State level.
    Secretary Napolitano. I think in those jurisdictions, it 
was already turned on before the litigation commenced. So we 
left it there at status quo as well.
    Mr. Rogers. Okay. Talk about procurement. I have had a lot 
of business groups come into not only my hearings that we have 
been looking at procurement, but coming in, we have had kind of 
open sessions off the record where different groups that 
interact with the Department come in and talk about their 
experience. Uniformly, I hear across industries how difficult 
it is to work with DHS when it comes to procurement 
acquisitions. Mainly they are saying there is never really any 
interaction before an RFP, and oftentimes, that creates a 
circumstance where there is unrealistic expectations about what 
can be done.
    I am curious, are you familiar with the problem and the 
concerns that the private sector has? What, if anything, are 
you doing about it?
    Secretary Napolitano. Yes. Some of the--I think probably 
some of the same people have visited with me as well. A couple 
of things. One is I have directed the under secretary for 
management to take on procurement. We need to centralize it 
more within the Department. One of the problems has been, as a 
new department from a lot of different legacy agencies, we had 
different procurement systems and different rules and people 
used to different things, and used to dealing with a different 
category of vendors. So we have taken steps to centralize, to 
have an acquisition approval process for acquisitions that are 
large, and then to reach out to the private sector. We just 
held, for example, kind of a procurement fair, for lack of a 
better term, with the under secretary for management to improve 
those channels of communication that we need. So 
Representative, we are on it.
    Mr. Rogers. Great. Thank you. I see my time has expired. I 
yield back.
    Chairman King. The gentleman yields back. The gentlelady 
from California, Ms. Sanchez, is recognized for 5 minutes.
    Ms. Sanchez. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for being before us today. I have two questions for 
you. The first one was that I was recently in the Calexico-
Mexicali border. From the Mexico side, they have poured cement, 
they have built new roadways to come over to make another land 
port, if you will, that I think was, from my understanding, was 
agreed to by both sides. Somehow or other, the funding has not 
come, or the cuts in the budget are not making this land, this 
new land port happen from our side, which is just amazing to 
see it happening on the other end and nothing from our end.
    So the first thing would be the locals had asked me to come 
and take a look at it. Obviously, the council people and the 
county supervisor. So what is going on with that and what can 
we do? Because they tell me that it is about 3 hours standing 
time, if you are a pedestrian, to go across that section right 
now. I happen to know because I have family in Mexicali, so I 
asked them what do you think? They said absolutely, it is 
taking way too long, 2, 3 hours. Sometimes in the summer it is 
130 degrees out there with no cover.
    So the question, what are we doing with respect to that? 
Then the second question I have for you, Madam, is that this 
January, the media reported that two tourists from the United 
Kingdom were denied entry to the United States by CBP because 
of a comment they had posted on Twitter. So do you know 
anything about this incident? Is it a CBP practice to see what 
foreign nationals are putting on social media? Is that 
determining their admittance to the United States?
    Secretary Napolitano. With respect to the port question, I 
can look specifically into Mexicali, but the Southern Border 
ports are budgeted through the GSA, not through DHS. We get the 
Northern ports, but not the Southern Border ports. Kind of 
ironic. The GSA budget has not fared well in the Congress. That 
has slowed down a number of important projects, including land 
ports along the Southwest Border which are necessary for travel 
and trade. All the things that go on in that border area. I 
think that is probably where it is caught up. With respect to 
the two tourists----
    Ms. Sanchez. So Madam, how could we--what is the mechanism, 
if they are necessary and if your Department deems them 
necessary, to get this moving?
    Secretary Napolitano. Well, I think the question is trying 
to do everything we need to do within the confines of the 
Budget Control Act. We are all dealing with that as a fiscal 
reality. We need to reduce the deficit. We all recognize that 
as well. But because GSA is governed by a different set of 
committees and a different appropriations process, it does 
become, you know, a little bit two ships passing in the night. 
We are in constant touch with GSA, working with them. They know 
the priorities. But they only have so much money.
    Ms. Sanchez. Thank you. Then the question of the foreign 
nationals from England?
    Secretary Napolitano. Without getting too much in the 
weeds, we aren't sitting there monitoring social media looking 
for stuff. That is not what we do. In that instance there was a 
tip, and the tip led to a secondary inspection of the 
individuals. That governed the judgment of exclusion, not just 
the Twitter or tweet.
    Ms. Sanchez. But was the tweet taken into account as your 
Department was thinking of whether to let these people in or 
not?
    Secretary Napolitano. Well, it was, but I am really not at 
liberty to say all of the reasons. But I think the impression 
was left that CBP is just sitting around, you know, wandering 
the blogosphere looking for things. That is not what CBP does. 
They do, however, when they receive a specific tip, have an 
obligation to follow it up.
    Ms. Sanchez. Thank you, Madam Secretary. I will yield back.
    Chairman King. The gentlelady yields back. The gentleman 
from Texas, the Chairman of the Subcommittee on Oversight and 
Investigation, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman. Madam Secretary, thank 
you for being here today. Thank you for your service. I think 
it is important to note that today marks the 1-year anniversary 
of the brutal killing of Agent Jaime Zapata and shooting of 
Agent Avila, and I think by the Los Zetas. I think it is 
appropriate to remember that event, and to remember them here 
today in this committee.
    Madam Secretary, there has been some speculation that the 
weapons used to kill Agent Zapata may have been possibly linked 
to the Operation Fast and Furious. Do you have any information 
that would indicate there is a connection there?
    Secretary Napolitano. I have no information to that effect, 
no. I don't know one way or the other.
    Mr. McCaul. Okay. So you can't say--it's possible, I guess, 
is what you are saying.
    Secretary Napolitano. I just don't know one way or the 
other.
    Mr. McCaul. So you can't conclusively say one way or the 
other whether there is a link to these weapons and Fast and 
Furious.
    Secretary Napolitano. That is true.
    Mr. McCaul. Okay. We know that the weapons were used to 
kill Border Patrol Agent Brian Terry, correct?
    Secretary Napolitano. They were certainly found at the 
scene of that murder.
    Mr. McCaul. The other question I have is I know that the 
OCDETF essentially, Organized Crime Drug Enforcement Task Force 
had an ICE agent participating on the OCDETF task force that 
also participated in Fast and Furious. Can you tell us what the 
role of that ICE agent was with respect to Fast and Furious?
    Secretary Napolitano. Well, my understanding is it was very 
minimal. This is all learned after the fact. This was an ATF 
operation operated under the auspices of OCDETF, but it was an 
ATF operation.
    Mr. McCaul. Do you believe that the ATF may have misled 
your organization or the ICE agent on the task force?
    Secretary Napolitano. I hope they did not.
    Mr. McCaul. Do you know whether he was informed about the 
operation?
    Secretary Napolitano. I do not. I don't know whether the 
full extent and the number of guns being allowed to walk 
unsupervised into Mexico was disclosed. I believe that the size 
and management of that operation, lots of serious mistakes 
made, and should never be repeated.
    Mr. McCaul. I certainly agree with you. I would like to 
follow up more on that with you in the future. The next 
question I have is more along the lines of management and 
budget. We had hearings on--we heard from several Under 
Secretaries within DHS. One in particular talked about--and you 
and I talked about this previously--the idea of the DOD model, 
the Goldwater-Nichols model. I believe you actually said you 
had a book on this, which I was impressed to hear.
    Secretary Napolitano. On my desk.
    Mr. McCaul. On your desk. It seems to me that there are 
always lessons learned from other events in the past in the 
Federal Government. There may be a lot to learn from the 
growing pains and mistakes and lessons learned that the 
Department of Defense had in consolidating their efforts, as 
you are trying to consolidate 22 different organizations, a 
very difficult task. They found that there were various high-
risk operations that were, I think, in their words had 
performance problems. I think as you testified earlier to Mr. 
Rogers' question, the idea of centralizing acquisitions and 
procurement seems to make a lot of sense.
    I was pleased to hear that you have made some progress in 
that direction. But can you just sort of tell me what your 
thoughts are in terms of looking at that model and trying to 
apply that to the Department of Homeland Security?
    Secretary Napolitano. Yes. In fact, I do have a volume on 
Goldwater-Nichols on my desk, which I guess shows you what 
Secretaries of Homeland Security read in their spare time. But 
in any event, it took about 40 years between the creation of 
the Department of Defense and the consolidation and management 
that Goldwater-Nichols represented. We are going to beat that 
target. We are going to take lessons learned in DOD. Not 
everything done in the DOD context applies in the DHS context. 
We also, in many respects, have a much broader set of missions 
that we have to perform. But things like acquisition review, 
particularly for large purchases, how you manage procurement in 
general. Things like looking at how you buy software, how you 
buy vehicles, designing common frames for aircraft that can be 
used by Coast Guard and----
    Mr. McCaul. I do want to mention at that hearing out of all 
the agencies in charge of homeland security, DHS only gets 50 
percent of that funding. I think that was an important point 
that I was not aware of. I think perhaps we can change that as 
well.
    Secretary Napolitano. That is for the Congress.
    Mr. McCaul. Precisely.
    Secretary Napolitano. But I will say that those are the 
kinds of efficiencies that we can, I think, encourage and grow 
at DHS.
    Mr. McCaul. Thank you, Madam.
    Chairman King. The gentleman yields back. The gentleman 
from Texas, Mr. Cuellar, is recognized for 5 minutes.
    Mr. Cuellar. Thank you, Mr. Chairman. Thank you also the 
Ranking Member. Madam Secretary, it is good seeing you again. I 
believe you are going down to my district next week. I hope 
that--actually, I will be there in the same area you will be 
at, so I hope to see you there. I thank you. I know dealing 
with the budget is always hard. But I thank you for looking at 
the administrative cost reductions, the duplicative programs 
that you have. Thank you for doing that, for making your agency 
more efficient, more effective. I have several questions. The 
first one has do with a GAO report that came out on March 2011 
that talks about a $639.4 million of unobligated balance in the 
customer user fees account that you know came about because of 
the elimination of the North American trade agreement country 
exceptions.
    It has been going on since, I believe, 2008. There is 
authorization, there is no authorization. Bottom line is that 
is a lot of money that is available if we can use that for 
border, because that came in from the trade issues. What is the 
status on trying to get that? Why can't we just get that money 
out, especially in these tight money times?
    Secretary Napolitano. You know, I don't know, sitting here, 
I don't know whether there is some kind of statutory problem or 
whether we are holding it for a particular reason. But I will 
be happy to get back to you on that.
    Mr. Cuellar. Yeah. I appreciate it. Because I think GAO 
says you can use it. It is authorized by law. But if you can 
look at it and get back to the committee. The other thing is I 
know that because of the budget, the budget doesn't ask for any 
new Customs and Border Protection officers. As you know, when 
you go down to the border, they are going to hit you again, or 
talk to you about long lines, and not having enough. So at the 
same time, we are opening up new ports of entry, the local 
folks are saying that there is not enough Customs and Border 
Protection. I have always said we have done a good job with the 
men and women in green, but we need the men and women in blue 
to get our Customs folks, whether it is sea ports, land ports, 
or airports on that. Especially also since you also are cutting 
CBP overtime by $20 million, how are we going to handle those 
lines that we have? I think that is an issue that will be 
brought up to you when you go down there to the border.
    Secretary Napolitano. Yes. In fact, that is one of the 
reasons I am going back to the border, is to talk with people 
who live there about problems that they see. You know, the 
problem with the lines is two-fold. One, it can be a manpower 
problem. It is often a lane availability issue. The ports just 
aren't big enough to handle the amount of traffic they have to 
process. We have to work on both of those things. The overtime 
pay issue, the Congress dealt with that last year by allowing 
us to use the LEAP system, among other things. That will enable 
us, I think, to better manage the overtime situation, keep that 
under control better. Second, we have in the budget, the 
President has annualized additional port officers that were put 
in in fiscal year 2012. Those are being hired and trained now. 
So there should be relief in that direction as well.
    Mr. Cuellar. We will be happy to work with you, especially 
I think you all do a $9.1 million decrease in plant facilities 
management sustainment at the ports of entry. As you know, on 
Tallulah bridge to Laredo, and I think I got more bridges than 
any other Congressman in the country. So bridges are very 
important to me. I would look forward working with you and look 
at alternatives as we go up there. Because the private sector, 
I think Mr. Cravaack has been talking about this, the private 
sector and local governments are willing to do that. The 
Anzalduas Bridge is one perfect example where they want to step 
up and do that. They want to put in some of the local income. 
So I would ask you to work with us on that issue.
    Secretary Napolitano. Absolutely.
    Mr. Cuellar. Finally, the last thing on overtime. There was 
a report that came out, an analysis that shows in the last 6 
years we had a $1.4 million in daily overtime by CBP. 
Especially now that we have the lowest border crossings in the 
last 40 years, I want to see--and I can understand, I 
understand the whole argument you never know when they have to 
travel to one part. But it also included your 250 agents that 
are assigned at the Border Patrol headquarters, where they made 
a combined of $4.8 million in overtime in the District of 
Columbia. Now, I can understand the Border Patrol at the 
border, but to have 250 agents, Border Patrol in Washington, 
DC, and to pay them overtime is something I just don't 
understand. My time is almost up, but I would like to follow 
that, because I have been trying to get that information and 
they couldn't get it. I said I would directly talk to you and 
get this information. But I think Members of Congress want to 
see those Border Patrol at the border instead of having them 
wrack up millions of dollars of overtime at headquarters.
    Secretary Napolitano. Representative, I share that concern. 
With the number of agents as 250, something I have begun 
talking about with the Commissioner. I will say, however, that 
it makes sense to have Border Patrol agents get some 
headquarters rotation so they really get an appreciation of how 
the system works and what is going on, particularly those that 
are moving up the ladder.
    Mr. Cuellar. Right. I am in full agreement. But 250, I 
think we can work with you, and we want to work with you. 
Again, thank you for the good job you have been doing. I know 
it is a difficult job. Thank you. I look forward to working 
with you. Thank you, Mr. Chairman.
    Secretary Napolitano. You bet.
    Chairman King. The time of the gentleman has expired. The 
gentleman from Minnesota, Mr. Cravaack, the author of the bill.
    Mr. Cravaack. Thank you. Again, I have got a great staff. 
They were essential in completing that.
    Chairman King. Chip, no one doubts that.
    Mr. Cravaack. Thank you, sir. Thank you, Madam Secretary, 
for being here today. The President, in his budget, cuts the 
Federal Flight Deck Officer program from $25 million down to 
$12.5 million. Now, this is approximately a 50 percent 
decrease. This program is comprised of volunteers who 
ultimately pay more out of their pockets than it actually costs 
for them to be an FFDO to protect our Nation. In fact, to 
provide the protection for each flight deck officer for each 
FFDO flight costs the Nation $15. That is how efficient the 
Federal Flight Deck Program is. I have to believe that it is 
probably one of the most cost-effective programs in the United 
States Government. These guys basically volunteer their time 
and money to be a vital deterrent to our country.
    Quite frankly, they are the last line of defense when it 
comes it air piracy for flying. My question would be what 
prompted that? Did you make this cut, or did it come from the 
President? Where did this come from?
    Secretary Napolitano. I think the reduction for the Federal 
Flight Deck Officer program is predicated on the fact that the 
program is not risk-based. You will have an FFDO just, you 
know, whether somebody is on a flight or not. We are moving in 
the TSA to risk-based systems. Those are the ones that we are 
going to put money into.
    Mr. Cravaack. I fully agree with risk-based system. But I 
also fully believe a $15 Federal Flight Deck Officer as a last 
line of defense on an aircraft is absolutely essential. Would 
you agree that the Federal Flight Deck Officer would be the 
last line of defense on an aircraft?
    Secretary Napolitano. There are many layers of defense, 
beginning before people even get their ticket.
    Mr. Cravaack. Yes, ma'am.
    Secretary Napolitano. One of the things I continue to 
emphasize is, you know, the checkpoint at the gate, which has 
caused some concern, is only one of other many layers. So there 
is a lot of things. The FFDOs have been useful, that is true. I 
don't know about the $15 figure. But it is a program, as we 
look around the universe of things that we want to do in the 
aviation environment, like I said before, given we have to find 
places to cut, that was one of them. Because it is not risk-
based, that was put on the table.
    Mr. Cravaack. Yes, ma'am. I fully understand risk-based. 
But again, I will ask you the question, is a Federal Flight 
Deck Officer the last line of defense for our traveling public?
    Secretary Napolitano. I think the armed cockpit door 
probably is.
    Mr. Cravaack. Speaking as a 17-year pilot, ma'am, and also 
as a Federal Flight Deck Officer, I know about the cockpit 
door. I will tell you, ma'am, speaking from the position that I 
have flown as a pilot and also as a Federal Flight Deck 
Officer, you may think that the flight deck door is the last 
line of defense, but it is that armed pilot in the cockpit that 
will be the last line of defense. Thank you for your comments, 
though. Is your intention that this program be phased out?
    Secretary Napolitano. I think as the budget request shows, 
it is our intention to reduce it, yes. But not--we have not 
predicted its demise. We just think we can do it with less.
    Mr. Cravaack. Let me expound upon that. What kind of 
message do you think it sends to pilots who are willing to join 
this program on their own dime, take personal vacation days off 
of work, pay for their own lodging to train for the privilege 
and the honor of protecting their fellow citizens? How do you 
think it is going to affect that program?
    Secretary Napolitano. Representative, obviously in a 
difficult budget, we had to make difficult decisions, and this 
was one.
    Mr. Cravaack. Again, ma'am, going for the last line of 
defense for the most efficient program, I think, probably that 
you have in protecting the traveling public, I would strongly 
encourage you to reevaluate that position. Also, it has come to 
my attention relatively recently, in line with the President's 
budget request, NORAD has proposed two 24-hour Airspace Control 
Alert sites, Duluth and Langley, to be eliminated. The 148th 
Bulldogs out of Duluth were just chosen to be an active 
association actually, where active duty combines with the Air 
National Guard there. Now they are pulling a vital mission from 
these two fighter wings. How is this going to affect you in 
responding to threats? Because after 
9/11, these guys were flying 24/7. It is not only they protect 
the northern sector of the United States, they deploy in a lot 
of different places. I see my time has expired. Can you just 
comment on that real quickly?
    Secretary Napolitano. Right. There are several other 
similar-type things around, particularly the Northern Border. 
But they have, in the analysis that has been done is that those 
operations can be covered from a consolidated center elsewhere.
    Mr. Cravaack. Okay. Thank you, Mr. Chairman. I will yield 
back.
    Chairman King. The time of the gentleman has expired. The 
gentlelady from New York, Ms. Clarke, is recognized for 5 
minutes.
    Ms. Clarke of New York. Thank you very much, Mr. Chairman. 
We forgot to add Mr. Turner to our discussion about upstate-
downstate New York. Mr. Turner is also a New York City, and one 
of our newest Members here. Let me say, Madam Secretary, that 
first of all, there is no doubt in my mind, and I think the 
mind of most New Yorkers, that your commitment to partnership 
and collaboration with our local law enforcement has been 
extraordinary. We are truly, truly grateful for that. We have 
had an opportunity through, unfortunately through having been 
the No. 1 terrorist target in the Nation, to have those 
partnerships strengthened over time, and built up certain 
capabilities that most municipalities would have no reason to, 
most of all, but out of necessity we have had to. I wanted to 
raise a couple of issues with you. Having the highest regard 
and respect for local law enforcement in the City of New York, 
whether, in fact, there is a point where the Department of 
Homeland Security looks at the implementation of various 
policies in the City of New York and its impact on the 
municipality. Whether, in fact, dollars that we have provided 
for Homeland Security have been overreaching in terms of its 
usage and what its impact is on the local municipality.
    Why am I raising this? I am raising this because there have 
been a number of practices that have been highlighted most 
recently in our zealousness to apprehend whether it is the lone 
actor or anyone who has been radicalized that may be in the 
population. That has extended itself into the lives of average, 
everyday New Yorkers who just don't fit any profile under any 
circumstances, or who may. Because clearly there is a profile 
out there. They are individuals whose mosques are now, you 
know, open to surveillance, where individuals sit there just to 
observe whether, in fact, there is terrorist tendencies, I 
suppose. We have even seen videos produced that have high-
ranking officers of our city and utilized in the training of 
our police officers that talk about the third jihadist.
    There have been some things that I think have just gone 
askew. I am just wondering what role it is in the partnership, 
in the collaboration that we have the conversation about civil 
liberties and civil rights. I hope that me raising this with 
you today is an indicator to you that there needs to be some 
discussions. There needs to be some very serious discussions.
    We are New Yorkers, a town of diversity. To the extent 
where our police department has become so empowered that civil 
liberties become something that is secondary, then our Nation 
is beginning to decline. I just wanted to share that with you, 
and hope that you will look into that, Madam Secretary. But my 
question actually is that when you testified before this 
committee at the beginning of this Congress, you testified that 
the threat level was at the most heightened state since 9/11. 
Your testimony was often quoted by Members of this committee as 
a basis for many hearings on radicalization and recruitment 
within the Muslim community.
    A recent report issued by the Triangle Center on Homeland 
Security says that concerns about a potential wave of home-
grown terrorism have not materialized over the past 2 years, 
and terrorist incidents by those within the Muslim community 
have declined. I want to know, do we remain in that same 
posture at this stage given what we know, given all of the 
intelligence that has been gathered, and expertise? Are we 
still at the most heightened threat since 9/11?
    Secretary Napolitano. I think we live, Representative, in a 
very volatile world in a number of respects. As I said in my 
opening statement, we are dealing with evolving threats. They 
change all the time. They can be from al-Qaeda, al-Qaeda-
related groups, Islamist groups of other types, but as I also 
said, terrorism and extremism is not limited by national 
boundaries, and it is not limited to any one particular 
ideology. It requires us, who are in the prevention business, 
to really be looking at it in a number of ways in order to 
maximize our ability to minimize risk within, and along with 
and incorporating the important protections that our Nation has 
under the Constitution, the Bill of Rights, and other statutes 
such as the Privacy Act.
    So we want to make sure we incorporate those principles 
into how we do our work. But we do live right now in a very 
volatile world.
    Chairman King. Thank you. Recognize the gentleman from 
Illinois for 5 minutes.
    Mr. Walsh. Thank you, Mr. Chairman. Let me yield to you for 
as much time as you would like.
    Chairman King. I would just like to state for the record 
that General Petraeus testified last week that the independent 
Inspector General of the CIA did a full and thorough 
investigation, and found the relationship between the NYPD and 
the CIA to be entirely legal, not to violate any executive law 
or any law whatsoever, and the NYPD to have acted lawfully in 
every instance involving any dealing with the CIA, and also 
Director Mueller has also said that the NYPD is in full 
compliance with the law.
    With that, I yield back to the gentleman.
    Mr. Walsh. Thank you, Mr. Chairman. Madam Secretary, thanks 
for being here today. We have seen a wide range of reports from 
the GAO as well as a recent report from the House 
Transportation and Infrastructure Committee identifying 
hundreds of millions of dollars in annual waste and 
inefficiencies at TSA. Yet, in your proposed budget you are 
seeking to triple the $2.50 passenger security tax to 
ultimately $7.50, which you say would generate, I believe, $25 
billion over the next 10 years. The President's budget also 
proposes a $100 user fee for every single time an airplane 
takes off.
    It seems to be costing more and more for Americans to fly, 
which affects all sectors of our economy. Right now Government 
taxes make up around 20 percent of an airline ticket. So $61 on 
a typical $300 domestic round-trip ticket. That is more than 
any other item out there being taxed; cigarette, liquor, 
firearms, all are taxed less.
    We seem to be reaching a point where, especially in the 
difficult economic times we are in right now, where we are 
singling out the airlines and airline customers and possibly 
even discouraging travel. How do you balance that with the need 
for security?
    Secretary Napolitano. Well, you have to do both. Travel, 
trade, tourism are important economic values to keep this 
economy moving, to propel the recovery, and the like, so we are 
always looking for ways to facilitate travel and trade and 
maintain a security posture, particularly in the aviation 
world, where aviation does remain a constant threat, a constant 
target. So we are doing it in a couple of ways. One way is, as 
we move to a more risk-based approach, expanding the kind of 
Trusted Traveler-type programs, global entry for international 
travel, it is called TSA Pre-Check, that we are going to be 
expanding to the 28 largest airports in the United States over 
the course of the year, O'Hare being among them.
    So and as we do that, that in a way allows us to prescreen 
passenger before they get to the airport so they go in a 
separate line and we can expedite their processing, and takes 
pressure off of the other parts of the line for others. As we 
go on, in the months and years to come, it is our intention to 
be able to do more and more in that direction. We are going 
carefully and slowly because we don't have room for mistakes, 
but our pilot projects in this area have been very productive.
    Mr. Walsh. I have heard numerous concerns from folks in and 
around the industry, and just airline customers in general, 
concerned with the exorbitant taxes on flying these days. 
Quickly, with my remaining time, when and how are you looking 
at the other aspect of the equation, the millions of potential 
waste and inefficiency right now, inefficiencies that have been 
identified within TSA?
    Secretary Napolitano. Well, as I said earlier, we have 
already identified Department-wide in this budget $850 million 
worth of administrative efficiencies we believe we can take, 
and put that money, redeploy it into operational activity, and 
that is along with a $3 billion worth we have found already. We 
are constantly looking for ways that we can meet our 
obligations and do it more cheaply.
    So any avenue we have of doing that, and we listen to our 
employees, they have ideas. Sometimes the customer base, they 
have ideas. We have no monopoly on good ideas. So if people 
have them, we will listen.
    Mr. Walsh. Thank you. Thank you, Madam Secretary. Thank 
you, Mr. Chairman.
    Chairman King. The gentleman yields back, and the gentleman 
from New York, Mr. Higgins, is recognized for 5 minutes.
    Mr. Higgins. Thank you very much, Mr. Chairman, and the 
Ranking Member, and Secretary Napolitano for being here. I just 
want to ask you about two things relative to my home community 
in Buffalo. One is the Beyond the Borders Action Plan that was 
announced by the President and the Prime Minister Harper of 
Canada, which sets forth a plan for at least one pre-inspection 
pilot project for commercial vehicles crossing from Canada into 
the United States. That is a very, very important border 
crossing at the Peace Bridge, for commerce, for our shared 
communities in the United States and Canada, and I just wanted 
to urge you in the strongest possible terms to consider the 
Peace Bridge for that pilot project. It is very important.
    The other issue is the urban security, or Urban Area 
Security Initiative Program. In fiscal year 2011, your 
Department removed 32 high-risk urban areas, including Buffalo, 
New York, and these communities didn't choose to be on that 
program. They met a criteria that indicated that the unique 
circumstances of those communities posed a considerable threat, 
and therefore were given the resources to work in a 
collaborative way with other law enforcement agencies to 
protect these urban areas. You have a new program, the 
allocation for sustainment of capabilities in high-risk areas. 
I would ask that those 32 communities be considered for that 
funding as well.
    The unique situation with respect to Buffalo is that--well, 
it is Buffalo, but also Toronto is in close proximity, Niagara 
Falls a destination for 8 million people from all over the 
world. The Niagara power project is in that community, which 
produces the cleanest, cheapest electricity in all of New York 
State, all of which become high-impact targets for potential 
terrorism. So I think it is very, very important that the 
Department consider allowing these communities the resources 
they need to sustain the capabilities that they have 
established under this program.
    I just want to echo something that the Chairman had made 
reference to, and that is the threat of Hezbollah. Hezbollah is 
a Shia group, community, violent jihad. They act as a proxy for 
Syria, Venezuela, and Iran. They have a presence that is 
pervasive and growing in the 20-country region of Latin 
America. They also have a presence in at least 15 American 
cities and 4 major cities in Canada as well.
    You had indicated in response to the Chairman that you were 
working with the FBI and the intelligence community. We have 
had previous hearings here, where expert witnesses had said 
that, you know, we really shouldn't be all that concerned 
because Hezbollah's presence in the Western Hemisphere and in 
North America is really limited to fund-raising activity. I 
don't much see the distinction. I think that presence is a very 
severe threat, and I think it needs to be addressed.
    So, any comments from you?
    Secretary Napolitano. Well, as I indicated to the Chairman, 
I believe we are constantly monitoring Hezbollah and we are in 
touch with, we are working with the FBI, and have provided 
intel to State and local law enforcement where appropriate, and 
we are also conducting a lot of outreach to targeted 
communities. So we are, you know, right there with you.
    With respect to the Peace Bridge, we are working with 
Canada on the identification of staff to do the pre-inspection 
pilots. I think we envision two, not just one locale, and a 
strong case has been made for the Peace Bridge but no final 
decisions have been reached.
    Mr. Higgins. Just finally, I want to associate myself with 
the prospective comments of my colleague, Kathy Hochul, in 
asking to replace the outdated Niagara Falls Border Patrol 
station with a new facility at the Niagara Falls air reserve 
station. I am sure my colleague will be talking about that a 
little bit more later on, but the two Senators have joined us, 
the west New York delegation as well. We think that that is a 
very important move for a lot of reasons, including especially 
the good work that the Border Patrol does in Buffalo and west 
New York.
    Thank you, I yield back.
    Chairman King. Ms. Secretary, I should have warned you that 
you would be double-teamed by the New York State team here.
    The gentleman from Pennsylvania, the Chairman of the 
Counterterrorism Subcommittee, Mr. Meehan, is recognized for 5 
minutes.
    Mr. Meehan. Thank you, Mr. Chairman, and thank you, Madam 
Secretary, for being with us here today, and I want to thank 
you in advance as well for the cooperation of your agency. 
Tomorrow we will be working on further inquiry into the issue 
of the social media and the work of DHS on that, but I am 
grateful for the work that you have already done in helping us 
to understand that. We will be exploring it more tomorrow.
    I want to take a moment and follow up a little bit on some 
issues that Mr. McCaul raised, and it comes back--I am involved 
in looking at some of this issue with Fast and Furious. Now, 
you testified today that Fast and Furious was an ATF operation. 
What does that mean with respect to the cooperation or 
coordination with DHS?
    Secretary Napolitano. I think, just as it says, this was an 
ATF-led and -organized operation. So that is where it is.
    Mr. Meehan. Well, that is where it is, but I mean, it is an 
OCDETF case, and I know from your experience as a United States 
Attorney you understand the significance of what an OCDETF case 
means, which is a multi-agency case. We have established 
through testimony in other committees, and an OCDETF case 
implies, not implies, it requires that there be collaboration 
among multiple agencies. Fast and Furious has been identified 
as an OCDETF case. To what extent are there reporting 
requirements within the Department of Homeland Security for the 
participation of your agents on OCDETF cases?
    Secretary Napolitano. Well, if you are asking is there a 
reporting requirement that any participation in any OCDETF 
matter at the ultimate field level has to be reported all the 
way up to and including Washington headquarters, no. There is 
way too much action for that to be feasible or wise.
    If you are asking how are interagency issues handled in the 
OCDETF context, my understanding is, as is yours, there is a 
lead agency that is running the operation. In this instance it 
was the ATF.
    Mr. Meehan. But there is a leads agency, but there is 
participation. To what extent is there reporting requirements 
with respect to what your agency intends to do in 
participation?
    Secretary Napolitano. Again, I don't know what you mean by 
participation. We have agents who are out working on matters of 
all types at all times, but I think in Fast and Furious, and 
again, I think we all recognize that serious mistakes were made 
there that should never be repeated. But again, this was an ATF 
operation.
    Mr. Meehan. Well, that is the question. I know it was an 
OCDETF operation, which included the participation. Do you know 
who Layne France is?
    Secretary Napolitano. I do not.
    Mr. Meehan. Layne France is an ICE agent. He was also the 
co-case agent in OCDETF.
    Secretary Napolitano. Again, I did not know this was a Fast 
and Furious hearing. I thought this was a budget hearing.
    Mr. Meehan. Mr. McCaul opened the door. I didn't really 
come to get into it, but the question----
    Secretary Napolitano. Right, because I think there the 
issue is to make sure that in my shop we are not running gun-
walking cases with unsupervised deliveries, and the answer is 
that it is against our policy to do so. We have reemphasized 
those policies. We don't want that kind of thing happening.
    Mr. Meehan. But do you know whether there was any report 
from your case agent who was a co-case agent on this case up 
the chain with respect to the anticipated activities of this 
OCDETF case, which in the Justice Department requires approvals 
before the cases are undertaken?
    Secretary Napolitano. Again, you know, co-case agent, let's 
not confuse that with co-lead. I mean, you could have people 
that are on an OCDETF task force, and they may be listed on a 
piece of paper as a co-case agent and really have no 
operational contact with them. They are just a name down 
because this is the guy who does OCDETF work in a particular 
U.S. Attorney's office. I can't speak with specifics to the 
question you ask, again, because I didn't know this was a Fast 
and Furious hearing.
    Mr. Meehan. Have you done any investigation yourself, your 
Department, into the participation of your Department in Fast 
and Furious?
    Secretary Napolitano. I instructed--when I learned about--
when all of the facts came out about Fast and Furious back 
here, I instructed our Department to make sure that we were not 
running gun-walking cases, that our policies were clear, and 
that there was a common understanding within the Department on 
this.
    Mr. Meehan. But have you investigated the activity which 
took place? We know with ATF in which your agent was a co-case 
agent, have you looked independently of what is going on in the 
Department of Justice? Have you looked independently at the 
activities of your agents with respect to Fast and Furious?
    Secretary Napolitano. I believe that the Director of ICE 
has. I again must object to the use of the phrase, ``co-case 
agent'' because it implies that everybody was equal on this.
    Mr. Meehan. How do we know if you haven't looked into it to 
determine it?
    Secretary Napolitano. Well, I think there have been enough 
hearings in the House to establish that this was an ATF 
operation.
    Mr. Meehan. Have you spoken to Attorney General Holder 
about this case, Fast and Furious?
    Secretary Napolitano. I have not.
    Mr. Meehan. Why not?
    Secretary Napolitano. In part because it has been under 
investigation, here and by the Inspector General, and there was 
no occasion in which to do so.
    Mr. Meehan. My time is up. Thank you.
    Chairman King. Time for the gentleman is expired. The 
gentleman from Louisiana, Mr. Richmond, is recognized for 5 
minutes.
    Mr. Richmond. Thank you, Mr. Chairman. Let's go back to the 
grant program, and then in Louisiana, especially in south 
Louisiana, with the largest port system probably in the world 
when you combine Port of South Louisiana and the Port of New 
Orleans and the Port of Plaquemines. Is it your expectation 
that the jurisdictions that currently receive the bulk of the 
money, pursuant to your risk assessments, would receive the 
same or even more support under the new program?
    Secretary Napolitano. I think it is difficult to prejudge. 
I mean, I think what we intend is that we want to look at what 
the $35 billion that we have already spent on Homeland Security 
grants, where that has put us, so that we can look across 
States and regions and across the country and identify where we 
have gaps, where we have critical infrastructure that needs 
hardening, and in short, where the money best would go.
    Mr. Richmond. Second, the threat has--identification of 
risk assessment would have a large part in devising a new 
formula, or in that analysis will go into how much or who 
receives money under the new formula?
    Secretary Napolitano. Yes. It is intended to be a risk-
based, consequence-based evaluation. There will still be 
retained some base level of funding depending on populations, 
but we believe and our vision for these grants is that we ought 
to be building and sustaining a National capacity for terrorism 
and disaster prevention and mitigation and response. That is 
what we are combining these grants to achieve.
    Mr. Richmond. Well, will you give the States, the local 
municipality, or the grantee, the ability to comment, or 
challenge, or appeal their risk assessment in the event that 
they feel that there were some things left out, some things 
that weren't considered in their risk assessment?
    Secretary Napolitano. I think our relationship with our 
grantees is such, and it has been on-going, that there is just 
an exchange all the time, even as potential grantees are 
preparing their applications.
    Mr. Richmond. This one is a little bit probably outside of 
the realm of this particular hearing, but since we have 
departed from it already I might as well do it. Also, I am 
getting from my mayors, from my Governor, from my school 
boards, from everyone, our disaster loan issue that we have in 
Louisiana, which the Vice President of the United States came 
down to Louisiana, to St. Bernard Center, to say that the 
disaster loans would be forgiven for those municipalities. 
However, subsequent rules were promulgated where many of the 
municipalities, the school boards, and other agencies are not 
getting loan forgiveness from those disaster loans from 
Katrina. So I don't know if you know about it or can comment 
about it, but can you at least advocate on our behalf that the 
commitment was made, people made decisions based on it, and it 
would be the right thing to do to live up to the commitment to 
waive the repayment of those disaster loans?
    Secretary Napolitano. I will take a look at that, yes, sir.
    Mr. Richmond. Mr. Chairman, I would yield back.
    Chairman King. The gentleman yields back, and now I 
recognize the gentleman from Texas, Mr. Farenthold, for 5 
minutes.
    Mr. Farenthold. Thank you, Mr. Chairman, Madam Secretary. 
Hopefully the mic will pick me up if I can look at you.
    Secretary Napolitano. I can hear you fine.
    Mr. Farenthold. As Representative McCaul pointed out, this 
is the 1-year anniversary of the death of agent Jaime Zapata. 
Before I get to the budget I would like to just take a moment 
to thank you for what you have done for the Zapata family, but 
we are starting to receive inconsistent information from 
various agencies about how that progresses, and if you could 
help with that, the Zapata family and I would appreciate 
staying up-to-date on that.
    Secretary Napolitano. All right.
    Mr. Farenthold. With respect to the budget, I know Mr. 
Walsh talked a little bit about the fact that despite the 
overall budget decrease we are looking at doubling the fee 
passengers pay from $2.50 to $5 for the TSA. It seems like--I 
applaud you for cutting spending, but I am a little concerned 
about raising taxes, especially when we are not really seeing a 
need there. We have got the TSA actually working better than it 
has in the past, and we have got a lot of our technology 
expenditures under control. Why the need for increasing that 
fee?
    Secretary Napolitano. Well, thank you, and thank you for 
your kind words about TSA. I think they have made a lot of 
progress in the past few years. That fee--it is a fee, not a 
tax, and there are important differences there--has not been 
increased since 2002. In the mean time, the Congress has been 
appropriating money and dollars after dollars so we can make 
sure we have good technology, that we have the right number of 
personnel that are properly trained, and so forth. We have 
increased costs, as you might imagine, since 2002, in the 
aviation environment. Just the pure fact of charging for a 
checked baggage has forced more and more passengers to load up 
their carry-on pretty--you all travel a lot, and you know----
    Mr. Farenthold. If I had my way they would charge for the 
carry-on and make the checked baggage free.
    Secretary Napolitano. I see. Yeah, and like I said, I think 
you all are experts on airplane travel, and that we looked at 
last year. We think because it makes screening more complicated 
at the checkpoint, that in and of itself probably off-loaded 
about $250- to $270 million of costs on the TSA. We think it is 
time to properly scope that fee to raise it to $5 now, but not 
to do it per enplanement, which is what we proposed last year, 
but to do it per one-way trip, so that if you have to take 
different segments in a leg, people in a lot of places in the 
country don't have a hub airport, it is still only one fee, and 
then scope it up over the next year to a maximum of $7.50. We 
think that that will appropriately take some of the weight off 
the general taxpayer and allow us to continually sustain what 
we have done at TSA.
    Mr. Farenthold. Another efficiency that I would encourage 
you to look at, your office provided a briefing regarding the 
warehousing of equipment and there seems to be a relatively, 
what I think to be high lag time in deploying equipment after 
we purchase it and getting it out to the airports.
    I would encourage you all to consider following the model 
some technology companies do and actually drop-shipping it to 
the airports and including installation as part of the process 
rather than having them all shipped to a warehouse, stored 
there, and shipped out.
    Secretary Napolitano. Right, that is a procurement issue, 
and we can take a look at that. A lot of that lag time is 
attributable, as you suggest, you know, you have got to install 
the new equipment. You often have to reconfigure lanes and do a 
lot of new construction at the airport itself. So that has to 
be done before the equipment can be installed, but I think the 
drop-ship issue is something we can take a look at, at least 
for some.
    Mr. Farenthold. All right, I will yield back the remainder 
of my time. Thank you, Mr. Chairman.
    Chairman King. Thank you to the gentleman for yielding 
back, and I recognize the gentleman from Michigan, Mr. Clarke, 
for the 5 minutes.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman. Secretary 
Napolitano, it is great to see you. First of all, as a frequent 
traveler, finishing my first year in Congress, I wanted to 
thank the hard work, daily commitment of the TSA employees to 
make sure that the tragedies of 9/11 never happen again.
    Secretary Napolitano. Thank you.
    Mr. Clarke of Michigan. Now, I represent metropolitan 
Detroit. Many of the communities there, they have lost a lot of 
revenue because of the housing crisis. People have lost their 
home, property values are depressed, and as a result, many 
local units of government have had to lay off vital first 
responders, including firefighters.
    My question is, how can the Department of Homeland Security 
work with prior year SAFER grantees to help make sure that the 
new firefighters, new first responders that they hired with the 
Federal grant money can keep these employees and not have to 
lay them off when we really need them? They are a front-line 
defense against terrorism, or any other emergency that would 
hit our communities.
    Secretary Napolitano. Representative, we released the 
grants in that particular area on kind of a rolling basis. It 
is not going to be like UASI grants which will all get 
announced at the end of the week at one fell swoop. We have in 
the grant guidance for 2012, the 2012 grants which go out now 
for SAFER, and also were made retroactive to last year, been 
able to grant a waiver to allow localities to put more of those 
grant moneys into personnel costs than they have previously 
been allowed to do. The reason that that waiver is important is 
because it helps address the problem that you have, Detroit 
has, a lot of places have, where they were in a layoff 
situation for critical first responders.
    Mr. Clarke of Michigan. Well, thank you for that 
assessment. We really appreciate it. It is really going to make 
a difference in our communities helping them stay safer. So 
thank you again. I yield back my time.
    Secretary Napolitano. You bet.
    Chairman King. The gentleman yields back. I recognize the 
gentleman from Virginia, Mr. Rigell, for 5 minutes.
    Mr. Rigell. Thank you, Mr. Chairman, and Secretary 
Napolitano, welcome back and thank you for your service. I 
always try to find where do we have common ground, and let's 
always agree on that first, and the topic today for me is the 
287(g) Task Force issue and the defunding of that.
    When you mentioned earlier that a program might have been 
in existence for a year and led to only one apprehension, you 
have my full agreement that that program at a minimum should be 
reviewed and most likely terminated. But the fact that some are 
being continued would lead me to believe that some of the 
287(g) Task Force agreements are indeed effective, and so can 
you agree with me on that, that some are effective because they 
are being continued?
    Secretary Napolitano. Well, I would agree that they are 
relatively effective. I will, however, suggest that Secure 
Communities, as we activate it, is more--in the end more 
effective and cheaper.
    Mr. Rigell. I wouldn't dispute that. You know, the SAFER 
Communities Program is effective, and I will certainly agree to 
that. The Commonwealth of Virginia, and I have the great 
privilege of representing the Second District of Virginia. I 
certainly don't speak for the Governor, but I know that he and 
his administration have been very clear on this matter. They 
have requested it. They had intended to have 24 State troopers 
who are not just folks--the State troopers who would stop 
someone at night on the side of the road, but more this was the 
targeted task force, violent crimes, very violent crimes, drug 
dealers, rapes, murders, those areas, and they in their best 
judgment believed that and I do as well, that the 287(g) Task 
Force Program would work for them. So I am expressing my 
disappointment here, and in the spirit of transparency in 
Government, which I think we both share to the extent possible, 
we always have to keep some things out of the hands of the bad 
guys, but I don't think this is one of them. May I see the--or 
may the committee Members see, if a request is made to your 
office, the data that supported your decision on this?
    Secretary Napolitano. Yes. You can see that, and I would 
also say with respect to Virginia, that request had been 
pending for some time. What we have done in Virginia in the 
mean time is deploy more ICE agents into the areas where we 
were told that the task force would primarily be focused, on 
the theory that full-time Federal agents would actually be more 
productive.
    So I will be happy to get you briefed up on that as well.
    Mr. Rigell. The expenses--thank you for that. The expenses 
related to running the 287(g) program, and I know you have a 
lot of things on your plate, but could you describe for us just 
generally what those expenses would be and what savings are 
being realized by discontinuing that program?
    Secretary Napolitano. Oh, constant training is a big 
expense; travel, travel for training; some overtime in those 
areas. So that is, you know, the little buckets. There are 
buckets, but they add up to a pretty substantial number when 
you reduce it to a cost-per-removed individual.
    Mr. Rigell. Yet, it still is just difficult for me, and I 
still can't fully reconcile this, and maybe it will take some 
additional work here, that a good Governor of, for example, the 
Commonwealth of Virginia, who is saying look, we are you know, 
we can help you here, a force multiplier, and yet you know, 
under the administration, not one 287(g) Task Force application 
has been approved, at least to my knowledge, and it is 
difficult to reconcile how a force multiplier, just thinking 
about the value of a highly-trained Virginia State trooper, for 
example, his or her willingness through the direction of the 
Governor to assist in a key law enforcement area, and here we 
have turned down that help.
    Secretary Napolitano. Well, we work a lot with State and 
local law enforcement, as you know, and I have had several 
discussions with the Governor, although not in the last week. 
But I have had several in the past about the 287(g) Task Force. 
I just think, in conclusion, we believe that making sure you 
have the right number of full-time Federal agents and that we 
have Secure Communities turned on, and we just turned on four 
more States last week for Secure Communities, that that is a 
much more effective way to go, and helps us target 
appropriately the population that we want to prioritize in 
removal, which are criminal aliens.
    Mr. Rigell. I thank you for your testimony and for your 
service. I yield back.
    Chairman King. The gentleman yields back. I recognize the 
gentlelady from upstate New York, Ms. Hochul.
    Ms. Hochul. Thank you, Mr. Chairman. I am the other half of 
the tag-team as you call it. Thank you for all of your service 
to our country and everything you do to protect Americans and 
keep us safe. So we appreciate that and certainly your efforts 
to put together a budget during very challenging times. So 
thank you on behalf of all of us.
    A few initiatives, some of them mentioned by my colleague 
Brian Higgins, and thank you for including $10 million in your 
budget request for Northern Border technology, which will help 
implement Beyond the Border Action Plan.
    I second the request to have the pre-inspection station at 
the Peace Bridge. This is such an important issue for us with 
our proximity to Canada, and not just Canada, but the largest 
city in Canada, Toronto. We are the source of a tremendous 
amount of commerce every day, which is often stifled at the 
border because of the inability to cross and the delays, 
particularly of our trucks. So this can be a huge boost to the 
upstate economy which is not faring so well. So we appreciate 
all of your attention that you can give to that as well.
    We are also sending jointly from myself and Congressman 
Higgins and our Senators a letter to you urging to find the 
funds in your budget for this idea of a customs and border 
inspection station at the Niagara Falls Air Reserve Station. We 
have been told that while it is a joint unit between Air 
Reserve and the Air National Guard, the guard station is going 
to be leaving. So to us, this is an ideal opportunity to have a 
Federal campus, again the proximity the collaboration that 
already goes on between DHS and our Canadian partners right 
there on the border. It is already going, and I know the Air 
Guard has already signed off on this. We are just looking for 
approval from yourself as well. So you will be getting a letter 
from us on that.
    One issue that came up earlier in our DHS authorization 
bill was an amendment I proposed, I was grateful to my 
colleagues for accepting this. That was the proposal that the 
Department only purchase uniforms that are made in America. The 
bigger picture of this is to ensure that our National security 
and our economic security are tied together. I had this 
conversation this morning during an Armed Services hearing with 
Secretary Panetta, who shared my belief that we do much better 
when we rely on our National suppliers for not just our 
military, but our domestic protection as well. Uniforms, all 
the way up to all of your procurement opportunities. So we have 
not--this has not been enacted, but I am wondering are there 
voluntary steps you can take, or can you help us do this--not 
just for our security, but also for the jobs that it would 
create back here in America? Again, an economically secure 
Nation is better for all of us.
    So can you speak to that issue as well, and what can be 
done on your end?
    Secretary Napolitano. I agree, an economically secure 
Nation is better than one that is not, and that we are all 
interested in making sure that we are maximizing job creation 
in our country. Representative, I will have to look into what 
we were doing on the procurement or the availability of 
uniforms. I think you make a valid point. I don't know if there 
have already been steps taken to lead in that direction or not. 
So I will get back to you on that.
    Ms. Hochul. Thank you very much. I also want to echo our 
request again, to have us included, the Buffalo and Rochester 
areas, if you can reconsider the Urban Area Initiative, 
security issues. We are off the list. Again, I think you 
understand the assets that we have. People come from all over 
the world to see our resources; Niagara Falls, the 
hydroelectric power source that is up there. So we always want 
to make sure that our portion of the State is represented very 
well, and we can make our best arguments on why we want to 
continue to have a good relationship with the Department of 
Homeland Security up there.
    So we appreciate a reconsideration of that as well. With 
that, I will yield back the balance of my time, Mr. Chairman.
    Chairman King. Thank you. You got an awful lot into your 
minute and, let's see, 2 minutes 40 seconds.
    Ms. Hochul. I am a fast talking New Yorker. That is for 
sure.
    Chairman King. I recognize the gentlelady from Michigan, 
the subcommittee Chairman, Mrs. Miller.
    Mrs. Miller. Thank you, Mr. Chairman. We talk fast in 
Michigan, too, so we will just get Evelyn Wood speed speaking 
here.
    Secretary, welcome. We are delighted to have you here. I 
want to follow up on a couple of comments that have been made 
by some of my colleagues about various things in regards to the 
Department of Defense and how they might have some overlap, 
overlay with the Department of Homeland Security as well. I 
think as a Nation, particularly as I have been following some 
of the DOD budget hearings also this week, we miss the boat 
sometimes. So I don't know if I am really asking you a 
question, but maybe just offering some thought for as we go in 
the future here. I think we missed the boat during the last 
BRAC, the Base Realignment and Closure Commission, when we 
could have looked at some military facilities inventory 
domestically here that could have been utilized by the DHS. As 
we go forward and they are talking about the possibility of two 
additional BRACs in maybe 2013 and 2015 as well, you might just 
think about that a bit, if I can just throw that out there, 
because I do think that there is potential. I say that because 
I have been proponent of having regional Homeland Security 
facilities around the country.
    Secretary Napolitano. Right.
    Mrs. Miller. Tom Ridge really was the original guy that was 
talking about that. I am not sure if you are still 
contemplating that, but I personally think it still makes a lot 
of sense and so that might be one thing. Then as well, when we 
look at all of the various types of literally off-the-shelf 
hardware that the taxpayers have already paid for that have 
been utilized effectively in theater by DOD, particularly with 
UAVs, which are now being utilized by your Department as well, 
as we are out of Iraq, as we have a drawdown in Afghanistan, we 
want to make sure that your Department is looking at all the 
potential kinds of things that we will be bringing back here 
that may have some application that you can get sort of on the 
cheap, really.
    Secretary Napolitano. If I might, we are constantly 
interchanging with DOD to see if there are technologies or 
things they have already developed; we have already paid to 
have developed----
    Mrs. Miller. Exactly.
    Secretary Napolitano [continuing]. That we can use in our 
civilian missions. So that is an on-going process. With respect 
to materiel that was in Afghanistan, Iraq that is coming home, 
we are getting both helicopter and fixed-wing aircraft from 
that that we will be using primarily at the Southwest Border. 
So we have had that--we have been working that issue as well.
    Mrs. Miller. I think there is a lot more though. I just ask 
you to think about that a bit because whatever it is, I mean 
even some of the LAN systems that they have utilized there, you 
know, as opposed to the UAVs, the LAN systems and the robots 
and that that they have done, you may have some application to 
the Southern Border as well.
    Secretary Napolitano. Indeed.
    Mrs. Miller. You might want to take a look at that. Besides 
that, you have the personnel that are coming back that know how 
to operate all of these things that you may be able to meld in 
your Department.
    So that is one thing. In the interest of time and speaking 
fast, though, on our committee we have had some recent hearings 
in regard to the global supply chain to the scanning process, 
screening process at the Nation's ports. I am sure Ms. Hahn is 
going to follow up on this, but I would just mention, in fact 
just last week we had a hearing, we are going to have another 
hearing in 2 weeks about the current mandates, legislative 
mandates for 100 percent scanning. I know you have said that 
that is probably not possible. We had some conversation and 
testimony that it was about a $20 billion item to do something 
like that, and that currently there is only 2 to 4 percent that 
is actually being scanned. So, you know, there is a big 
difference, and I am not--I certainly understand that 
circumstances happen, and the costs and all of these kinds of 
things. I guess what I would say is, we are looking forward to 
working with you for a legislative fix to that. If there is one 
forthcoming, maybe you could tell me. Do you have some ideas on 
how you might want to address that issue? Because I think you 
would find people that are willing to work with you on that 
issue.
    Secretary Napolitano. Well, we have--thank you for that. We 
have total agreement on the goal of the 100 percent scanning 
requirement. What we don't have is--the goal, of course, is to 
prevent harmful material from entering the United States. What 
we don't have is agreement as to whether 100 percent scanning 
is the best way to achieve that or whether--or is even feasible 
from a diplomatic and logistics point of view. It is my 
conclusion that it is not currently feasible, but there are 
other ways that get us to the same place. It means looking at 
targeted-shipper programs. It means working with international 
organizations like the IMO on common standards for moving 
security in the cargo environment.
    The whole Global Supply Chain Initiative is designed in 
part, to give us a better sense, or to give us a better way to 
get to the goal of making sure we minimize the risk of 
dangerous cargo entering the United States. So we would be 
happy to work with the committee on some of this. My current 
intent will be to extend the deadline that presently is in the 
statute.
    Mrs. Miller. Legislatively?
    Secretary Napolitano. Well, the statute gives me the 
ability now to extend the deadline.
    Mrs. Miller. Very good, thank you. Thanks, Mr. Chairman.
    Mr. Lungren [presiding]. The gentlelady's time has expired. 
The gentlelady from California, Ms. Hahn, is recognized for 5 
minutes.
    Ms. Hahn. Thank you, Mr. Chairman, Secretary Napolitano. It 
is great to have you here and listen to your testimony. I, for 
one, am glad that we have the additional $5.5 billion for the 
Disaster Relief Fund in this budget. Representing California, 
you know, we seem to every year have disasters--fires, floods, 
occasional earthquake. Last year we had a waterless hurricane 
that--I never even heard of that before, but we had it. So--and 
even for our country, I don't think I can remember as many 
disasters in our country as we have had recently. So I 
appreciate the extra funding so that Americans have the 
resources they need to recover in the event of a disaster.
    I also have some concern about some of the changes in the 
budget in your Department. I will say that I have always been a 
strong advocate for port security grants. Even before I came to 
Congress, I worked with my predecessor Jane Harman in working 
to change the criteria for port security grants, so that there 
was risk vulnerability and consequence as part of helping 
appropriate that. I advocated last session keeping the port 
security grant as a separate program. I am unhappy that the 
Appropriations Committee lumped them into one large grant 
program and am concerned that the administration is attempting 
to do the same thing.
    I think port security is crucial. I still feel like our 
ports are really some of our most vulnerable entryways into 
this country. So I just want to go on record, and maybe you can 
talk a little bit about how you still think that this is an 
adequate way to fund, you know, security efforts at our 
seaports across this country.
    In the same line, I have actually heard from our ports that 
currently they even have a hard time utilizing even some of the 
grants that they have been awarded. They are concerned about 
some of the bureaucracy, and particularly in terms of 
reimbursement. So sometimes they are willing to purchase 
equipment and programs that they know definitely are going to 
be reimbursable as opposed to maybe getting what they think is 
the most appropriate equipment or program to secure the ports 
because of some insecurity, if you will, on how they are going 
to be reimbursed. So you might want to just look at how we 
streamline the current grant programs in the future so that 
they can utilize it better, effectively, if we are going to--
especially if we are going to change it.
    Secretary Napolitano. Well, first, you know, one of the 
things, and the committee was very strong on this. The cuts 
Congress made to grants last year were really deep. You know, 
we are talking 40 percent, 50 percent. My options were very 
limited in terms of what I could do. Now, with respect to the 
ports, they were really sliced very deeply. However, you know, 
port authorities can work with UASIS in terms of hardening 
infrastructure at the ports. That is another way to go about 
it.
    With respect to red tape or bureaucracy, I will say that 
FEMA is now turning around applications on average in 30 days 
or less. So they really have tried to cut through that, and 
with respect to what is reimbursable and what is not, I would 
think that the Port of Los Angeles, and what have you, would be 
in regular conversations with FEMA as to what they think they 
need most and how it fits within the grant structure.
    Ms. Hahn. You know, and Congresswoman Miller really, she 
convened the hearing we had last week on Pacific port security 
and the issue of 100 percent cargo scanning did come up. We do 
understand that the administration has pretty much said at this 
point it is not feasible.
    Is that something we are even going to continue to strive 
towards--and I know there is a lot of levels. You know, point 
of origin, you know, the secure ports, Safe and Secure Ports 
Initiative. I hear that. I just know, you know, the Port of 
Long Beach and L.A., you know, 14 million of those containers 
coming in and out annually. I am still very concerned that, you 
know, we are not scanning more than 3 or 4 percent and, you 
know, I think what we need to be looking at is investing in the 
technology that might be out there that actually could help us 
achieve this without slowing down commerce, and without, you 
know, being a burden. Because I really am still very worried 
about those containers coming in and out of our ports and 
whether or not we truly know what is inside of them.
    Secretary Napolitano. Well, there have been a lot of major 
and significant improvements made in the safety and security of 
cargo, particularly container shipments, over the last 6 or 7 
years, and particularly in the last couple of years. Those 
improvements are going to continue. If somewhere down the road 
the technology evolves, and the international situation is such 
that you could get to something that looks like a 100 percent 
scanning, of course that would be something we would look at.
    But I have to be frank with the committee, that I think 
that that is so down the road, and so slight a possibility that 
we are better off focusing on how we attain the goal of 
minimizing the risk that something unsafe comes into the 
country, and we are really looking at other avenues for getting 
there.
    Ms. Hahn. Thank you.
    Mr. Lungren. The gentleman from Michigan, Mr. Walberg, is 
recognized for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thank you, 
Secretary, for being here, and for enduring the long rounds of 
questioning.
    Mr. Walberg. I would follow up on my colleague from 
Michigan and concerns about the Northern Border as well as 
Southern Border issues, and using the tools that we are seeing 
reduced in the military right now, such as the C-27J which was 
slated for use because of its medium-sized capabilities, 
carrying capabilities, transport capabilities, multiple other 
things that, frankly, parochially had been programmed to come 
to a base in my district. That is not going to be there now. It 
has been developed. It is a worthy craft, and I would encourage 
Homeland Security to consider that and in relationship to the 
border issues, the Northern Border, it may certainly be 
helpful.
    But having said that, let me move on to my main question I 
have here, that also is concerned in my district, with the 
President's request reducing the number of detention beds to 
1,200 beds for illegal immigrants.
    Secretary Napolitano. Reduce it by 1,200.
    Mr. Walberg. Reduce it by 1,200, excuse me. The intent is, 
as I understand it, to enhance savings in the detention 
program, which it is less expensive when you think of $122 per 
day on average for a detention bed. Yet there is concern that 
the alternatives to detention generally leads to higher levels 
of absconding, which adds additional support and security 
problems as well. So with the memory of some high-profile cases 
of alternative detention situations where an individual, for 
instance, in Massachusetts, took off the electronic device and 
absconded, will there be guarantees put into this program, 
stronger guarantees, stronger preventative tools to make sure 
that if we are going away from the beds that we are not having 
absconders and high-risk individuals entering our community and 
wasting the resources we have done already?
    Secretary Napolitano. Well, first of all, I think that it 
is important to make clear that we would only put into ATD low, 
low-risk individuals, that those who pose any kind of a risk to 
public safety would not be considered for ATD. ATD runs as 
variety of--you know, there are a variety of ways you can do 
it, anything from a kind of a reporting mechanism on a regular 
basis, all the way to wearing a bracelet and having to call in 
at certain intervals, and the like. So there is a broad range 
of ways that it can be done. Our goal is, obviously, not to 
have ATD be used as a back door to absconding. Our goal also is 
to make sure that we have available the beds we need for 
detention, and so the budget request includes language that as 
we go through the year, if we need to move some of those ATD 
resources back into detention, that I, as the Secretary, would 
be allowed to do so.
    Mr. Walberg. Is there any serious looking at using 
contracted facilities, private facilities?
    Secretary Napolitano. For?
    Mr. Walberg. For detention.
    Secretary Napolitano. We do have some private facilities 
used for detention. We do contract with some, yes.
    Mr. Walberg. Any expansion of that for cost purposes, as 
well as--of course, we would expect them to provide adequate 
care, but have we looked at the cost comparisons for using our 
own facilities versus contracted private facilities?
    Secretary Napolitano. Well, a lot of our contracts are 
actually with other public entities, like sheriff's offices who 
run jails, so we have a mix of private-public in that sense, 
not just Federally-operated facilities. But we are always 
looking at cost and bed cost and bed availability as we make 
these determinations.
    Mr. Walberg. Are there any studies on that, cost 
comparisons between the contracted facilities----
    Secretary Napolitano. I will look for you. Undoubtedly 
there are on a project-by-project basis because they compete, 
you know, they bid compete for the contracts. But whether there 
is kind of something overall that looks private versus public, 
that I don't know.
    Mr. Walberg. We would appreciate that information.
    Secretary Napolitano. You bet.
    Mr. Walberg. Thank you.
    Thank you, I yield back.
    Chairman King [presiding]. The gentleman yields back. I 
recognize the gentlelady from Texas, Ms. Jackson Lee, for 5 
minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. Let me 
thank the Ranking Member and thank the Secretary. Thank you for 
visiting Lone Star College in Houston. They expressed their 
appreciation.
    I am also very happy of the disaster aid increase in the 
President's budget. I would ask publicly on the record for 
someone from the Department, I know FEMA, FEMA Director, on 
some issues that are still going on in Houston, Texas, 
regarding recent incidences of disaster declarations. So if I 
could get that I would greatly appreciate it.
    You said something--and I am going to have rapid-fire 
questions--said something earlier that I would very much 
appreciate hearing again in your five points or as you opened. 
You said the issue of radicalization and terrorism, and I am 
paraphrasing your words, is not attended to a label by any 
religion or any particular group. Would you want to just 
clarify that for us? I think it is very important to the many 
diverse groups in our Nation how we address the question of 
terrorism and terrorist threats here domestically.
    Secretary Napolitano. What I said was that terrorism is not 
narrowed to any ideology or Nation. It is Islamist, jihadist, 
it can be based on other ideologies, it can be internationally 
based, it can be home-grown. So it requires those of us that 
are in the terrorism prevention area to be looking at all of 
the known threats all of the time.
    Ms. Jackson Lee. Looking closely at behavioral 
characteristics. I know that intelligence looks at many factors 
in our war against terror and terrorist acts.
    Secretary Napolitano. We are looking for techniques, we are 
looking for behaviors, we are looking for tactics, early 
warning signs, anything that will enable us to prevent a 
terrorist act from being completed.
    Ms. Jackson Lee. I will not----
    Secretary Napolitano. Or committed, excuse me.
    Ms. Jackson Lee. I thank you very much for that. Some of us 
agree with that approach. I just wanted to be clear that our 
budget framed it in that way as well. I am not asking you this 
question, but I do know that having sat through a hearing on 
Fast and Furious with the Attorney General, and one being held 
in the Oversight Committee, I would refer my colleagues to the 
testimony that he gave in both those committees, along with a 
very astute report on Fast and Furious that would be helpful to 
the questions that they may be seeking to ask.
    I want to go to the Transportation Security Administration. 
I know that through the FAA bill that I won't even say a 
compromise was made, but what I think is a provision that 
really is questionable, but it is law because we wanted to move 
on the FAA bill. That is to undermine the discretion of the TSA 
Administrator as relates to privatization. The language was 
``may,'' it is now ``shall.'' Can you speak to the issue of the 
testimony given that suggests that the privatization would cost 
taxpayers up to 9 percent more if the entire system was not 
privatized, or the value of having Federal TSO officers 
professionally trained and under the supervision of the United 
States Government?
    Secretary Napolitano. I believe that the TSA has studies 
indicating that the cost of the private facilities is 3 to 9 
percent more than what we would ultimately pay on the Federal 
side, and that given the security needs that we have and how we 
manage the TSO workforce, it is much easier to have them all in 
one chain of command. That being said, we will work with the 
language and we will abide by the law.
    Ms. Jackson Lee. Well, I would expect you to say that, 
Madam Secretary, but the law was a compromise to get a larger 
bill passed. I would make the point on the record I think it is 
disastrous. I would hope that you would use your discretion or 
your authority to interact with the White House on how best to 
address the question of securing the Nation's airports, and to 
make sure that that is the case.
    I also would like to ask the question about these AIT 
machines and the fact that there is going to be some new 
technology, ATR. Are you familiar with the kind of funding that 
you will need to retrofit these machines?
    Secretary Napolitano. Yes. We have planned for that. Our 
expectation is the ATR will be in all of the machines by the 
end of the year.
    Ms. Jackson Lee. Then with respect to small businesses, if 
I can ask a question, I know that you are moving away from 
total dependence on contractors. I certainly think there is 
value to that. There is a Balanced Workforce Initiative, and 
opportunities for workers being created. I hope it will be 
diversified. But in the course of that, small, minority, and 
women-owned businesses are in the eye of the storm. Many of 
them have worked effectively and efficiently as contractors for 
the Federal Government. How are you seeking to make sure that 
they are not disproportionately impacted when you move to this 
kind of approach?
    Secretary Napolitano. Well, we continue to work on making 
sure that we are conducting good outreach to the small business 
community, women and minority-owned businesses and the like. 
Last year I think almost 30 percent of our contracting dollars 
went to small businesses. So what we are going to do is just to 
make sure that as we issue RFPs and so forth that we continue 
to do so and look at ways that we can facilitate small business 
interacting with the Department to try to get some of those 
contracting dollars.
    Ms. Jackson Lee. I thank you. I look forward to meeting 
with you on this issue dealing with the TSA and TSO officers. I 
think this is very important.
    Thank you. I yield back.
    Chairman King. The gentlelady yields back. I now recognize 
the gentleman from New York City, Mr. Turner, for 5 minutes.
    Mr. Turner. Thank you, Chairman King. Nice to see you 
again, Madam Secretary. Earlier in the hearings you and 
Chairman King discussed the increased threats from Iran against 
soft targets, some synagogues and such in New York City, where 
we have a large concentration of them. These organizations had 
been eligible and are eligible for the National Preparedness 
Grant Program. Can you tell me the status of that?
    Secretary Napolitano. Yes. We have set aside some money in 
the 2012 grant awards for the National Preparedness--for NGOs, 
excuse me, under the National Preparedness Grant Program. Our 
idea, or our vision is to consolidate everything under one 
major grant program. That would be one of the grants 
consolidated. So to summarize, there will be a separate 
carveout in 2012 as we bridge to 2013, but our vision is a lot 
of these separate carveouts now be merged into one umbrella 
grant program.
    Mr. Turner. This year versus last year, increases?
    Secretary Napolitano. I am not at liberty to say because 
the rules of the body require us to provide adequate--or a 
certain number of days' notice. So I have to abide by those.
    Mr. Turner. All right. We will wait for that. All right. 
Thank you. Just another moment, I would like your comment 
again. Earlier Representative Rigell talked about the 287(g)s 
and the cooperation between local departments. As you may know 
in New York City, and I think this is in other municipalities 
as well, perhaps Chicago, the city council has directed the 
Department of Corrections not to inform ICE when a felon is 
released after serving his time. So we have a three-strike 
rule. Strike 1, you entered the country illegally. Strike 2, 
you committed a felony. Now we are giving them a third 
opportunity in New York. Is the Federal Government interested 
in this?
    Secretary Napolitano. Well, yes. There are a few 
communities, there are a few places around the country where, 
for a variety of reasons, Secure Communities has run into some 
opposition. Ninety-five percent of the country that we are in 
it is fine, it is doing well. We are going to be working with 
these localities, Cook County is one, New York City is the 
other, see if we can make it clear that honoring the ICE 
detainers, allowing there to be a seamless move from 
incarceration detention at the local level to our ability to 
remove from the country makes sense at a lot of different 
levels. So we will be working with those communities.
    Mr. Turner. Common sense. Very uncommon commodity. Thank 
you. I yield back, Mr. Chairman.
    Chairman King. The gentleman yields back. I recognize the 
gentlelady from California, Ms. Richardson, for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman. Thank you, Madam 
Secretary, for your service and the steady hand that we have 
had with this Department. It has been noticed and greatly 
appreciated. My first question is, to build upon Ms. Miller's 
committee hearing, and you spoke a little bit about your 
intentions of requesting the 2-year extension for the 100 
percent screening. I am sure your staff has briefed you on my 
concerns and other Members' concerns. Specifically, I wanted to 
speak to you, at that hearing it was said on the record that 4 
percent of containers that are identified through the screening 
process as high-risk containers are then allowed to leave 
foreign waters and to come here to U.S. land. So my question is 
specifically I realize it is going to take us time to get 
through this 100 percent issue, but clearly I wanted to find 
out what were your thoughts of what we were going to do to 
prevent those high-risk containers that go through your process 
that is currently identified that is getting to our shores 
without being scanned and without being inspected?
    Secretary Napolitano. Well, there is a number of things 
that are underway in that regard to make sure that before those 
containers are unloaded in our ports and shipped across the 
country, what have you, that we ascertain what is in those 
high-risk containers, or we know with confidence what is in 
those high-risk containers. In our ports we have monitors, we 
have individuals with hand-helds and so forth to look for the 
radiological contents, if there are any, among other things. So 
really from the point of time when something is put into the 
supply chain to the point of time it is actually put in a 
container, then loaded on a ship, then delivered to the United 
States and unloaded in the United States, there is lots of ways 
now under our Supply Chain Initiative that we have the 
opportunity to make sure that we have information and have 
confidence in the information, and if not we have the ability 
to do more by way of either screening or scanning.
    Ms. Richardson. Madam Secretary, specifically what I am 
asking is can you commit or provide information to this 
committee that the 4 percent of the high-risk containers, which 
were approximately 1,700, were in fact scanned and/or inspected 
prior to getting on U.S. soil since they were not done so in 
the foreign?
    Secretary Napolitano. Yeah. Part of that is also 
randomness. One of the ways that we confound our adversaries is 
we always do some checking purely at random so that you never 
know at any one time whether something will be pulled off.
    Ms. Richardson. No, the question is of the ones that were 
identified as high-risk and should have been properly scanned 
or inspected had we had the resources or the relationships in 
place in those foreign ports, the question is for those 4 
percent, what confidence, what assurance do we have in this 
committee that as those were unloaded on U.S. soil that they 
were in fact then scanned and/or inspected?
    Secretary Napolitano. We will get that information for you.
    Ms. Richardson. Perfect. Thank you. I appreciate it. If for 
some reason I wasn't clear in the earlier part, excuse that.
    My other question has to do with you have gotten a lot of 
questions today about the grant program. Obviously that is near 
and dear to a lot of our hearts because that is our way of 
ensuring in our local communities that safety is there. Do you 
intend on maintaining the tier systems within the National 
Preparedness Grant Program?
    Secretary Napolitano. Like I said, we are evaluating. Our 
vision is to do things based on risk. We are not tiering in the 
way, thinking of tiering in the same way overall that we do 
for, for example, in the UASI context, but we are looking at 
this as primarily a risk-based grant program.
    Ms. Richardson. So could we anticipate that something 
similar to that as you evaluate risk, that you would be looking 
at cities and communities as they qualify of how they fall 
along that level?
    Secretary Napolitano. Yes. I think you can anticipate that 
we will be looking at the area of risk very thoroughly in terms 
of these grant dollars. Again, I want to emphasize the 
President has requested in the fiscal year 2013 budget $500 
million more in grant funding than Congress enacted last year. 
I know a number of you really were very strong in your 
opposition to the cuts to the grants. You see how they actually 
get used out in communities and how important they are. So I am 
hopeful as we go through the appropriations and the budget 
process that we get some more money to put into the grants pot 
to begin with.
    Ms. Richardson. Mr. Chairman, could I follow up?
    Chairman King. One quick question if you will, sure.
    Ms. Richardson. Thank you, sir. That is very kind of you. 
Madam Secretary, I am also the Ranking Member on Emergency 
Communications, Preparedness, and Response. This year FEMA did 
in fact conduct our first National test of the emergency alert 
system. The test message broadcast was successful in some 
areas, but Lady Gaga ruled the day in some other areas. Have 
you had an opportunity to do the full review of the EAS test? 
If so, are you prepared to share those results with the 
committee at this time?
    Secretary Napolitano. I have not yet done a full review. I 
think that is still within FEMA. Obviously, there were some 
issues with the test. That is why you do a test, is to find out 
the issues. I have not yet consulted with Lady Gaga on how she 
achieved her results.
    Ms. Richardson. Thank you, Madam Secretary. Thank you, Mr. 
Chairman.
    Chairman King. The gentlelady yields back. I recognize the 
Chairman of the Cybersecurity Subcommittee, the gentleman from 
California, Mr. Lungren.
    Mr. Lungren. Thank you, Madam Secretary, for being here, 
and thank you for your service both on the State level and on 
the Federal level. Of course what we are doing here is in the 
backdrop of the terrible economic circumstance that is facing 
us and the budget crisis that is facing us. As one of the top 
leaders in our National defense said a year or so ago, the 
greatest threat to National security he thought was this 
deficit. So I understand why you have some tough decisions to 
make with respect to a budget that you bring to us. I 
appreciate very much your emphasis on risk-based analysis all 
the way through. So I may disagree with you on some things, but 
I understand the tough job that you have got here.
    Let me ask you about one area that I have got specific 
concern about, and that is the area of course of cybersecurity. 
We have been working with you and others in the administration 
in the area of cybersecurity. I look at your budget that you 
submitted, there is a large increase in funding for 
cybersecurity activities in the Department, which I appreciate 
and I applaud. That seems to be focused specifically on the 
responsibility that you have of coordinating the cybersecurity 
efforts across different Executive Branch agencies and 
departments. Yet there seems to be little in the budget for the 
coordination effort and cooperation with the private sector.
    Can you tell me, does that indicate a lack of concern for 
that or a lessened priority for the responsibility that the DHS 
has? As you know, the bill that we have moved out of our 
subcommittee and hopefully will be considered by the full 
committee recently makes abundantly clear in statute that DHS 
would be the main focus and platform of the Federal Government 
working with the private sector on the civilian side.
    Secretary Napolitano. No, we have quite a bit in the budget 
for coordination with the private sector. It is a very 
important part. I really appreciate the work on cybersecurity. 
I will be testifying on the Senate side tomorrow on that area. 
I think it is urgent, and needed, and very, very important. I 
think perhaps because the coordination work across the Federal 
family and the deployment of--the completion of Einstein 2 and 
the readying of Einstein 3 are going to almost--you know, they 
are easily segregable from other cyber protection activities we 
do, they get broken out. But that is not to suggest that the 
work with the private sector is any less robust.
    Mr. Lungren. Thank you. On a controversial issue that got 
started without Congress fully appreciating it, the SOPA, the 
Stop Online Piracy Act, we are starting over again in the 
Judiciary Committee. I benefited greatly from assistance by 
people in your Department about the impact of our original 
proposal over there, or the original proposal over there in the 
Judiciary Committee on DNSSEC, which is I happen to think 
essential for us to ensure the integrity of the internet. I 
would just ask your permission to work with your people as we 
work in other committees to try and get an appropriate fix once 
we establish what the public policy ought to be. We did not do 
a good enough job I think of understanding the technology. You 
have some expertise in your Department. I would hope that we 
could work with them in attempting to come up with a fix that 
is necessary to protect against intellectual property theft, 
but at the same time not do unintended damage to the internet 
and internet security.
    Secretary Napolitano. We would be happy to provide 
technical assistance to the committee in that regard.
    Mr. Lungren. Thank you very much. My last subject is the 
area of TSA, the Screening Partnership Program. We have had the 
head of TSA up here a couple of times. I respect him very much. 
I think he does an overall good job. But there does seem to be 
a slant in the Department against that program. I notice that 
in your budget you have, well, a slight decrease in that 
program for fiscal year 2012. It has been a very small program, 
I think in part because the Department has been very reluctant 
to expand it. In the FAA reauthorization conference report 
which was passed early this month by both the House and the 
Senate, it has language that requires the administrator to make 
a decision whether or not to accept SPP applications within 120 
days of receiving it, and to accept any application unless a 
determination is made that such approval would compromise 
security or have a detrimental effect on cost efficiency or 
effectiveness of security screening at that airport. That would 
anticipate additional airports requesting that. I would just 
hope that there would not be the response that you don't have 
the budget to be able to respond to those requests since I am 
personally aware of a number of airports that wish to at least 
apply for that.
    Secretary Napolitano. As I said earlier, we understand the 
language in the FAA reauthorization, and we will seek to comply 
with it.
    Mr. Lungren. Thank you very much. Thank you, Mr. Chairman.
    Chairman King. The gentleman yields back. The gentleman 
from Illinois, Mr. Davis, is recognized for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman. Thank you, 
Madam Secretary, for being here and for your testimony, and for 
the tremendous service that you provide to our country. I 
understand from the budget that for the first time a major 
focus of Homeland Security grant funding will be sustainment of 
capabilities. Just to clarify and help me understand, does this 
mean that you intend to focus more on sustainment of 
capabilities, and will this maybe over support new 
developments?
    Secretary Napolitano. It depends, Representative. It 
depends on what a particular community needs. It may need to 
buy something new. But what we have found in the past is that 
there used to be a prohibition on being able to pay for 
maintenance over time. So there was a constant emphasis on 
buying new stuff, for lack of a better term. We think now, with 
$35 billion out the door, that it is time to really be looking 
at how we maintain those resources as well as purchasing new 
ones.
    Mr. Davis. Would you see the sustainment support as being 
transitional or would it be perennial?
    Secretary Napolitano. Again, you know, with respect to the 
past years that are allocated and not yet out the door, we see 
sustainment as being part of getting those moneys out the door. 
Whether and how that is calculated in for 2013 and beyond is 
something that we will work on with the committee.
    Mr. Davis. Earlier today you testified before the House 
Appropriations Committee regarding the proposed National 
Preparedness Grant Program. You explained that a small portion 
of the funding would be distributed based on a portion of the 
funding population, and that the rest of the money would be 
awarded to grantees based on risk. You suggested that States 
would expect to receive less money based on formula funding 
because the program would be primarily risk-based. Is it your 
expectation that the jurisdictions that currently receive the 
bulk of money pursuant to risk assessments would receive the 
same or even more support under the new program?
    Secretary Napolitano. Again, it depends. I don't want to be 
premature in saying how the awards will be given out, but 
unless a high-risk jurisdiction somehow becomes a low-risk 
jurisdiction, that would be the conclusion.
    Mr. Davis. The budget proposes $650 million to fund 
important research and development advances in cybersecurity, 
explosives detection, and chemical, biological response 
systems. Of course both Chicago and New York have had some 
problems. How do you see these--how optimistic are you that 
these new technologies and programs are going to help rectify 
those problems?
    Secretary Napolitano. Well, again, it depends. But by 
focusing the research and development dollars we do get to 
three or four areas which we plan to do, and are doing. We have 
actually stopped about 100 different programs and projects in 
order to focus and concentrate. We think we upped the odds that 
we will get some significantly better technologies. Again, the 
research cycle is not a 1-year or 2-year cycle, but over time.
    Mr. Davis. Well, thank you very much. We have noted some 
what I think to be rather important advances. And again, we 
appreciate your work. I yield back.
    Secretary Napolitano. Thank you, sir.
    Chairman King. The gentleman yields back. I now recognize 
the gentleman from South Carolina, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman. Secretary Napolitano, 
thanks for sitting here. I know you have been here a long time, 
so I appreciate your patience. This is my second round of the 
President's budget request and budget hearings. I must say it 
has been an eye-opening experience for me. One thing that I am 
reminded of is that Washington loves to talk with flourishes, 
but generally calls for more bureaucracy as the answer to the 
problems. So how is it that the public rhetoric of deficit 
reduction and savings is so at odds with the actual action? The 
budget request states that guarding against terrorism was the 
founding mission of the Department of Homeland Security, and 
remains our top priority. You state the importance of border 
security, but CBP has no plans to build any additional miles of 
fencing. It does not use the operational control as a 
measurement, and it fails to include an alternative standard to 
measure its effectiveness. In the budget proposal, the Coast 
Guard eliminates 1,056 personnel, including 1,000 uniform 
active-duty personnel and 772 people from the front line 
operational units. It decommissions numerous front-line 
operational units, which significantly lessens the interdiction 
of illegal aliens, the amount of drugs captured, the security 
operations undertaken. This budget request will result in a 
reduction of 10 percent of all of the 110-foot patrol boat 
operations. You talk about the importance of partnering with 
other countries around the world in your testimony, yet you 
include no funding to expand the visa waiver program to provide 
additional screening for visa applications in high-risk 
countries. Yet your Departmental management operation requests 
a $10 million increase. Your own personal budget includes a 
million-dollar increase from fiscal year 2012. You have 
transferred and combined three other offices, including an 
Office of International Affairs with 44 positions and a budget 
of $8 million with no real explanation as to what they will do, 
who they will answer to, and if I do the math right, it is 
about $180,000 per employee. Now I know all that isn't 
associated personnel costs, but I just did some quick math 
here.
    So my question to you is how can you justify taking people 
away from the field with regard to Coast Guard and other areas, 
the front lines of defense, to bloat the office of bureaucracy 
and create duplicity with the work that the State Department 
does? By duplicity, I mean there is a lot of things within the 
Office of International Affairs that I would think the State 
Department is already doing. So there is some redundancy and 
duplicity. So if you could justify that for me.
    Secretary Napolitano. Well, first of all, I will start with 
CBP, where the budget does sustain all the existing plus-ups in 
personnel. Our numbers at the border speak for themselves. They 
are very strong. We haven't seen this few illegal immigrant 
attempts at that border since the early 1970s. I say that as 
someone who was raised in a border State and who lived her 
adult life in a border State. The numbers continue to go down.
    Mr. Duncan. Let me ask you that, do you think the economy 
has anything to do with that, the number of illegals wanting to 
come here for work?
    Secretary Napolitano. Undoubtedly. But the reports we have 
also with the added personnel, equipment, and the like that you 
will all have funded----
    Mr. Duncan. I agree with you there.
    Secretary Napolitano [continuing]. It allows us do a lot 
more. I go down there regularly. I will be going back in the 
next couple of days back, and I will go now to Arizona and 
south Texas. So what we have requested for CBP allows us to 
sustain those very, very strong efforts.
    With respect to the Coast Guard, we are not laying off 
anyone or removing anyone. But what we are doing is not filling 
some attrited positions, and not hiring for positions that in 
the judgment of the Commandant we really don't need. Those fall 
within headquarters staff in Washington, DC, some of the 
recruitment staff that are unnecessary. But they are not, 
again, the front-line personnel that I think you are thinking 
about.
    What was the third one that you had?
    Mr. Duncan. We were just talking about some of the 
duplicity with----
    Secretary Napolitano. Oh, the State Department.
    Mr. Duncan [continuing]. This International Affairs Office.
    Secretary Napolitano. Yeah, we have an enormous 
international portfolio. It is something that because we are 
called Homeland Security most people don't realize. But we 
actually have personnel in 75 countries right now. They do 
everything from screening cargo, they work in airports, they do 
training missions. They do a whole host of activities that we 
are required to do. One of the things we have been focused on 
is pushing the work of the Department out from the actual 
physical borders of the United States to other places in the 
world. If we do it, that has a number of benefits. One is it 
maximizes our opportunity to interrupt something. But it also 
takes some of the pressure off the lines at our airports and 
our land ports. So that international work has become more and 
more important as the Department has matured.
    Mr. Duncan. For the record, I just want to say that I 
appreciate your not taking people out of the field, the front-
line operatives. I understand the need to trim personnel, to 
trim budgets in these economic types. But the taxpayers expect 
us to make sure that every dollar is accounted for, every 
dollar is spent wisely. That was the purpose of the line of 
questioning. But I think having visited the port with Ms. 
Miller in Baltimore, seeing what the Coast Guard is doing, what 
the CBP is doing, I appreciate the efforts to keep our country 
safe. Thank you.
    Secretary Napolitano. Thank you.
    Chairman King. The time of the gentleman has expired. Madam 
Secretary, you have been here now for well over 2 hours. I want 
to thank you very much. I have one question, the Ranking Member 
has a question. Also for the record Mr. Smith, who is also 
Chairman of the Judiciary Committee, he had to leave this 
hearing. He has three questions he would like responses to, if 
possible, by the end of February. I submit them for the record 
upon unanimous consent. Without objection, it is so ordered. We 
will get those questions out to you.
    A question I have myself is in October 2011 there was a 
select group of Mexico-based trucking carriers which was 
granted provisional operating authority, allowing them access 
throughout the United States, and eventually permanent 
authority. Section 703 of the SAFE Port Act requires the 
Secretary of Homeland Security and the Secretary of 
Transportation to draft guidelines for cross-border trucking no 
later than April 2008. The Department has yet to issue those 
guidelines. On November 21 of last year Chairwoman Miller and I 
wrote an oversight letter to you expressing security concerns 
about the pilot. On January 20 your staff got back to us and 
said that you are currently drafting guidelines, and you 
anticipate a timely resolution of the issue.
    So I have four questions. You can answer them now or get 
back to us on it. Can you provide a time line when you can 
expect the Department to issue these guidelines? How has the 
pilot impacted the volume of trucks at the border? How is CBP 
handling this increased volume? To the extent that you can 
disclose it in open setting or in a not-classified setting, are 
the Mexico-based carriers involved in this pilot subject to a 
significant level of additional scrutiny compared to American-
based trucks in terms of risk-based targeting? Does the 
presence of Mexican trucks and personnel with access throughout 
the United States result in any additional vulnerability?
    If so, how is this mitigated? Also the Federal Motor 
Carrier Safety Administration has equipped all vehicles 
involved in this program with a GPS device that allows for 
remote monitoring of the vehicles. How do you collaborate 
ensuring that the relevant DHS components have access to this 
GPS information?
    You can either answer it today to the extent you wish to, 
or get back to us.
    Secretary Napolitano. Why don't we get back to you? Some of 
that does require us going into some classified information, 
Mr. Chairman. But I will be happy to send you something in 
writing if you wish, and we will answer those questions for 
you.
    Chairman King. If you would. Great. Thank you. With that, I 
yield to the gentleman from Mississippi, the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman. Madam Secretary, at 
several hearings we talked about recoupment and the concern 
that a lot of people, through no fault of their own, received 
reimbursements for expenses. What we needed was some clarity on 
whether or not those individuals would be pursued for possible 
prosecution. I think the appropriators saw that issue, too. I 
would like to thank your operation for understanding the 
sensitivity of what those many families went through during 
Katrina, and some several years later receive a bill, and the 
fact that since you now have devised a notification procedure 
and some appeal procedure of payments, I would encourage you to 
make that as robust as possible so that individuals who 
probably don't have the money to pay back can pursue the waiver 
provisions of it. I would encourage you to be as aggressive in 
public service announcements and a lot of other organizations 
who worked with many of those families, to include them in part 
of the strategy so that they can not become victims of a system 
that wasn't designed to make them victims. So I would encourage 
you to look at that.
    Secretary Napolitano. Yes. I appreciate that. We have the 
ability now to grant waivers for these older disasters, 
Katrina, Rita being among them. FEMA is preparing that process 
now. But I think we are prepared to be very robust there.
    Mr. Thompson. Another issue is basically we have spent 
millions of dollars trying to design biometric entrance and 
exit systems, starts, stops. That is still, I believe, a wish 
of a lot of us that somehow we should perfect this and make it 
a part of the system. Do you see that happening at some point?
    Secretary Napolitano. I think biometric entry is well on 
its way. Biometric exit is a much different kettle of fish, in 
part because our ports were not designed to have biometric 
equipment in the exit lanes. That is just one of the many 
reasons. So that is going to be a very expensive process. To 
compensate for that we are, as you know, moving US-VISIT to 
CBP. We want to consolidate those kind of border-vetting 
responsibilities, get greater leverage out of the resources 
that we have--CBP and ICE for overstays, but CBP at the exit 
stage. We also have developed now, and are able to combine a 
number of different databases for very layered and robust 
biographic information at the exit stage. It is not the same as 
biometric, but it is very close to the same. We think that that 
will give us a good bridge to when ultimately biometric becomes 
feasible to do.
    Mr. Thompson. Thank you. Yield back, Mr. Chairman.
    Chairman King. The gentleman yields back. Now with some 
trepidation I yield to the gentlelady from Texas for one 
question.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I 
appreciate your courtesies. Madam Secretary, I sit on two 
committees, subcommittees, that both deal with the issue of 
cargo, the Transportation Security Committee and the Border 
Committee that deals with border, both land and of course the 
ports. I am, frankly, disappointed and concerned about what we 
have come to in light of the situation dealing with not doing 
100 percent cargo inspection. So my question is--I heard an 
earlier answer, but I just wanted a clearer understanding. My 
question is with the really concern as it relates to air cargo 
and the lack of 100 percent inspection. Can we, and will you 
set actual time frames of which we can work together as a 
committee and as your Department is working, to see what the 
alternatives are, or in fact to see whether or not the 100 
percent cargo inspection is still viable even if the deadline 
has been pushed back?
    Secretary Napolitano. Well, I was talking about scanning in 
the maritime environment. With respect to air cargo, we are at 
the stage of 100 percent for cargo that is put on passenger 
planes leaving from U.S. domestic airports, whether they be 
leaving on a domestic flight or on an international flight.
    Ms. Jackson Lee. That is what I wanted you to clarify.
    Secretary Napolitano. Yes. We don't do screening at 
international airports. So we are working with the 
international airports or foreign-flagged carriers to cover the 
high-risk flights from abroad.
    Ms. Jackson Lee. Okay. With the ports, with the other 
aspect you will work with the committee? The other aspect of 
screening, you will work with the committee?
    Secretary Napolitano. Screening and/or scanning, yes.
    Ms. Jackson Lee. All right. Thank you. I yield back.
    Chairman King. Thank the gentlelady.
    Madam Secretary, thank you very much for your testimony 
today. Again, thanks for accommodating our schedule. Sorry for 
the delay at the beginning. We were on the floor voting. So 
thank you for your testimony and the Members for their 
questions.
    The Members of the committee may have some additional 
questions for you. We would ask you to respond to those in 
writing. The hearing record will be held open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 5:20 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

   Questions Submitted by Chairman Peter T. King for Janet Napolitano
    Question 1. Can you provide a time line when you can expect the 
Department to issue guidelines on cross-border trucking?
    Answer. As of May 24, the guidelines were available via the 
internet at: http://www.dhs.gov/files/publications/cross-border-
trucking-guidelines.shtm.
    Question 2. How has the pilot impacted the volume of trucks at the 
border, and how is CBP handling this increased volume?
    Answer. There has been not been a substantial increase in volume, 
since many of the program's interested applicants are undergoing the 
application process to be granted operating authority.
    Question 3. To the extent that you can disclose it in an open 
setting or in nonclassified setting, are the Mexico-based carriers 
involved in this pilot subject to a significant level of additional 
scrutiny compared to American-based trucks on terms of risk-based 
targeting?
    Answer. Every company that applies to participate in the program is 
being vetted by CBP as well as the Federal Motor Carrier Safety 
Administration (FMCSA). CBP is applying the same eligibility criteria 
used for Customs-Trade Partnership Against Terrorism (C-TPAT) and Free 
and Secure Trade (FAST) to advise the Department of Transportation 
whether CBP has any derogatory feedback. FMCSA considers CBP's feedback 
as part of its deliberative process. Every truck that crosses the 
border, regardless of its destination, is subject to the same, layered 
risk assessment process. For trucks participating in this pilot, new 
data variables like the destination of the truck will cause the risk 
scoring to be adjusted.
    Question 4. Does the presence of Mexican trucks and personnel with 
access throughout the United States result in any additional 
vulnerability? If so, how is it mitigated?
    Answer. No, there is no additional vulnerability since the trucks, 
their operators, and any passengers will go through a layered risk 
assessment process before being allowed to cross the border and 
operators and any passengers will be required to have appropriate visas 
to proceed beyond the border zone.
    Question 5. The Federal Motor Carrier Safety Administration has 
equipped all vehicles involved in this program with a GPS device that 
allows for remote monitoring of the vehicles. How do you collaborate in 
ensuring that the relevant DHS components have access to this GPS 
information?
    Answer. FMCSA has indicated it will make GPS information available 
to DHS components upon request.
    Question 6. In regards to TWIC readers, when can we expect 
something from the Department on TWIC reader guidance and whether the 
problem with the readers the Department or where has the breakdown been 
for last 4+ years?
    Answer. Promulgation of the TWIC reader rule is a Department-wide 
regulatory priority. The Secretary has directed DHS components to 
devote the necessary resources and manpower to complete the rulemaking 
expeditiously but consistent with all applicable requirements and after 
due and careful consideration of the relevant policy and operational 
matters. The U.S. Coast Guard intends to publish a Notice of Proposed 
Rulemaking by the end of 2012 to seek comment on card reader 
requirements and deployment requirement plans. An Advance Notice of 
Proposed Rulemaking (ANPRM) on the TWIC reader requirements was 
published in the Federal Register on March 27, 2009. The ANPRM comments 
have been analyzed along with pilot data, and together they will help 
inform the NPRM. The TWIC Reader Pilot Report was completed and 
delivered to Congress on February 27, 2012. The Transportation Security 
Administration (TSA) designed and conducted a Transportation Worker 
Identification Credential (TWIC) Reader Pilot to test the business 
processes, technology, and operational impacts associated with 
deploying transportation security card readers at secure areas of the 
marine transportation system. TSA's goals for the TWIC Reader Pilot 
included determining the technical and operational impacts of 
implementing a transportation security card reader system; determining 
any actions that may be necessary to ensure that all vessels and 
facilities to which this section applies are able to comply with such 
regulations; and performing an analysis of the viability of equipment 
under the extreme weather conditions of the marine environment.
  Questions Submitted by Ranking Member Bennie G. Thompson for Janet 
                               Napolitano
    Question 1. For the first time in DHS' history, you are coming 
before Congress, requesting less money than you received in the year 
before. In reviewing your submission, it would appear that your 
efficiency efforts are, in part, responsible. While you are to be 
commended for your efforts at finding areas for cost savings, I cannot 
help but feel that some of the reduction is at the expense of vital 
programs. How much of the roughly $1.3 billion reduction is 
attributable to efficiencies and how much is the result of reducing 
capacity in certain areas or eliminating programs?
    Answer. Since the beginning of this administration, the Department 
of Homeland Security (DHS) has made an unprecedented commitment to 
efficiency and has implemented a variety of initiatives to cut costs, 
share resources across Components, and consolidate and streamline 
operations wherever possible in order to best support our front-line 
operations and build a culture of fiscal discipline and accountability. 
With the launch of Secretary Napolitano's Department-wide Efficiency 
Review (ER) in March 2009, DHS has been proactive in promoting 
efficiency throughout the Department. We have changed the way DHS does 
business, identifying over $3 billion in cost avoidances by 
streamlining operations and fostering a culture of greater 
transparency, accountability, and fiscal discipline through 45 ER 
initiatives and other Department-wide initiatives. DHS has redeployed 
these cost avoidances to mission-critical initiatives across the 
Department.
    To preserve core front-line priorities in fiscal year 2013, the 
administration's budget redirects over $850 million in base resources 
from administrative and mission support areas, including contracts, 
personnel (through attrition), information technology, travel, 
personnel moves, overtime, directed purchasing, professional services, 
and vehicle management. Additionally, for the first time in the 
Department's history, we conducted a formal base budget review for 
fiscal year 2013, looking at all aspects of the DHS budget to find 
savings within our current resources and to better align those with 
operational needs.
    Question 2. I applaud the Department's effort to move away from 
dependence on contractors. The Balanced Workforce Strategy seems to 
have some merit and, in a very short period of time, it seems that DHS 
has made strides, created new Federal Government job opportunities, and 
reduced costs. I am concerned, however, that, unless you pay a watchful 
eye, there's a risk that the implementation of this strategy may have 
some unintended consequences. Specifically, I am concerned that small 
and minority-owned businesses that rely on Federal contracts to survive 
may be disproportionately impacted. What, if any, steps are being taken 
to protect against such unintended consequences?
    Answer. The Department has taken several steps to ensure that small 
and disadvantaged businesses are not unfairly affected by the Balanced 
Workforce Strategy.
  <bullet> In keeping with OMB guidance in Policy Letter 11-01, we are 
        not applying the Balanced Workforce Strategy to contracts with 
        total dollar values below $150,000, given that the values of 
        such contracts suggest that they do not pose a significant risk 
        to mission control and should be reserved for small and 
        disadvantaged businesses, when possible.\1\
---------------------------------------------------------------------------
    \1\ Office of Federal Procurement Policy, Policy Letter 11-01, 
Performance of Inherently Governmental and Critical Functions (Sept. 
2011)
---------------------------------------------------------------------------
  <bullet> The Office of Small and Disadvantaged Business Utilization 
        advises the Balanced Workforce Strategy Departmental Working 
        Group (which approves Components' sourcing recommendations for 
        contracts currently being performed by contractors),\2\ 
        focusing on all insourcing decisions with the potential to 
        affect small and disadvantaged businesses.
---------------------------------------------------------------------------
    \2\ Contracts for new or re-competed requirements are reviewed and 
approved by Component-level Balanced Workforce Strategy Working Groups.
---------------------------------------------------------------------------
  <bullet> The Department encourages Components to include DHS Small 
        Business Specialists in the deliberations of their Component-
        level Balanced Workforce Strategy working groups.
    Question 3. The recently released Office of Personnel Management 
2011 Federal Employee Viewpoint Survey revealed that at DHS, 91.4% of 
the respondents believed that the work they do is important and 72% 
believed that DHS accomplishes its mission. That's good news. The bad 
news; however, is that only 32.3% believed that creativity and 
innovation are rewarded and only 40%, less than half, believed that 
they have the resources they need--people, materials, and budget--to 
get their job done. On the heels of this report is a budget that strips 
requirements down--especially in the management and administrative 
arena--to the bare bones. How does the Department intend to reconcile 
the effect of limited budget authorities with the need to boost 
employee morale, especially in light of this recent survey and the fact 
that DHS' morale remains low, as compared to other Federal agencies?
    Answer. I am committed to making DHS one of the best places to work 
in the Federal Government and efforts are taking place across the 
Department--based on employee input--to achieve this goal. From 
highlighting employee accomplishments to strengthening leadership 
development opportunities at every level of the DHS workforce, we're 
focused on providing employees across the Department with opportunities 
to develop and grow. We're also holding leadership accountable. Through 
a new Employee Engagement Executive Steering Committee, comprised of 
Component leadership, we're meeting regularly to share ideas among 
offices and identify ways to continue to improve the work environment. 
In addition, I have directed Component Heads to:
  <bullet> Develop and assume responsibility for employee engagement 
        improvement plans;
  <bullet> Identify and assign specific responsibilities for improved 
        employee engagement to Component Senior Executive performance 
        objectives;
  <bullet> Identify and assign a Senior Accountable Official (Component 
        Deputy or senior management official) to serve on the DHS 
        Employee Engagement Executive Steering Committee (ESC);
  <bullet> Conduct town hall meetings with employees (including in 
        field locations);
  <bullet> Attend a Labor-Management Forum meeting (if applicable); and
  <bullet> Provide monthly reports on actions planned and progress made 
        to the Office of the Chief Human Capital Officer.
    The DHS Employee Engagement Executive Steering Committee is 
responsible for identifying DHS-wide initiatives to improve employee 
engagement, oversee the efforts of each DHS Component to address 
employee engagement, and provide periodic reports to the Under 
Secretary for Management, Deputy Secretary, and Secretary on 
Department-wide efforts to improve employee morale and engagement as 
measured by the Federal Employee Viewpoint Survey (FEVS) results and 
other survey/employee feedback tools in use.
    In addition, DHS has a number of other initiatives underway as part 
of our comprehensive strategy to enhance employee morale, including:
  <bullet> Strengthening the leadership skills and capacity of all 
        supervisors and managers in DHS via the Cornerstone supervisory 
        leadership development program;
  <bullet> Delivering DHS-wide programs that emphasize common 
        leadership skills across the Department, including the DHS 
        Senior Executive Service Candidate Development Program, the DHS 
        Fellows Program, and the soon-to-launch Secretary's Honors 
        Program;
  <bullet> Creating one common Learning Management System (LMS); and
  <bullet> Implementing a new Diversity and Inclusion strategic plan.
    Question 4. In fiscal year 2011, the Department executed nearly 
134,000 procurement transactions. This fiscal year, 12,385 have been 
executed thus far. I am concerned about the amount of oversight that is 
needed to ensure that these contracts are being properly performed. The 
lack of contractor oversight has been a significant challenge faced by 
the Department. SBInet, Deepwater, and the Federal Protective Service 
contract guard program are a few examples of how inadequate oversight 
can result in increased costs and performance issues. Given the risks, 
I had hoped to see you request new personnel resources for contract 
oversight. Unfortunately, there does not seem to be a plus-up in this 
area. What do you plan to do to improve contract oversight, since you 
are not expanding your cadre of Contractor Officer Technical 
Representatives?
    Answer. I agree that it is important to have appropriate contract 
oversight and a sufficient number of well-trained personnel to ensure 
that DHS contractors are providing goods and services in accordance 
with the terms and conditions of their contracts with the Department. 
DHS is improving contract oversight by developing and providing 
enhanced training for employees who are administering contracts, 
creating new tools to improve the efficiency of our oversight, and 
expanding the number of people who administer contracts including the 
number of Level II and Level III certified Contracting Officer 
Representatives.
    Late in fiscal year 2011, the Office of Federal Procurement Policy 
(OFPP) issued new certification requirements for Contracting Officers' 
Representatives (CORs), formerly referred to as Contracting Officers' 
Technical Representatives. OFPP's new policy introduced a three-tiered 
certification program that increases training and certification 
requirements for each successive certification level. Because of the 
complexity of the DHS contract portfolio, DHS imposes the two most 
rigorous certification levels and only certifies individuals to COR 
Levels II and III. The more intensive training and experience 
requirements better prepare our CORs to identify lapses in schedule, 
increases in cost, and poor performance in execution.
    To support these CORs, DHS issued its Contracting Officers' 
Representative Essential Elements Guide in fiscal year 2011. The Guide 
is currently being expanded to cover more contract administration 
issues and provide more samples, checklists, and other job aids. The 
Guide will enhance our CORs' knowledge and leverage the collective 
experience of our more seasoned CORs to enable DHS CORs to more 
efficiently resolve problems and document any shortcomings in 
contractor performance. It is anticipated that this Guide will be 
continuously refined to meet the CORs' needs and adapted to an on-line 
wiki-like environment to promote best practices across the Department.
    DHS is also taking steps this fiscal year to identify the 
appropriate level of contract oversight for critical contracts and 
contracts closely associated with inherently Governmental functions. 
While still a pilot program, the new Balanced Workforce Tool allows 
program offices to identify the Government resources that should be 
applied to administer the contract in advance of contract award.
    Several DHS components have expanded contract oversight beyond 
those individuals identified as CORs. For example, at the 
Transportation Security Administration, property administrators are 
being added to the contract administration team. Using this cadre to 
handle routine property issues allows the higher-skilled CORs to focus 
their attention on oversight of contractor performance issues. 
Likewise, at the United States Coast Guard, technical monitors are used 
extensively to perform routine inspections. These technically trained 
individuals provide data to the CORs enhancing the CORs ability to 
oversee overall performance.
    DHS is devoting additional resources to the Office of Program 
Accountability and Risk Management (PARM). This office aids major 
programs with defining requirements and by providing guidance and 
support in areas that could impact the programs' performance, and 
recommends correction actions. PARM will work with program offices to 
minimize performance risk as well as serve as a valuable resource for 
CORs on our major programs.
    We have also developed and are instituting an aggressive program to 
develop a highly-skilled cadre of certified CORs. As of June 28, 2012, 
DHS has 5,487 certified CORs, 1,100 which have been certified in fiscal 
year 2012. By rapidly qualifying additional DHS personnel into the COR 
cadre, we are able to spread contract oversight responsibilities across 
a larger pool of individuals, thereby reducing the demand on 
individuals assigned. Additionally, we are instituting best practices 
and new tools, enabling each assigned COR to perform their functions 
more effectively and efficiently.
    Question 5. Pursuant to the fiscal year 2013 request, the Office of 
International Affairs (OIA) will move from the Office of Policy to an 
independent status with a direct report to you. When the Department's 
Office of Inspector General examined OIA a few years ago, it made 18 
separate recommendations for its improvement. How will moving OIA from 
policy to a stand-alone office improve its functions and what affect 
will this move have on on-going security negotiations with our foreign 
partners?
    Answer. As the Department continues to mature and OIA continues to 
take on more significant responsibilities across the Department, the 
Office of International Affairs can best execute its responsibilities 
through a similar structure to other external facing outreach offices 
such as the Office of Intergovernmental Affairs (IGA) and the Office of 
Legislative Affairs (OLA). The proposed reorganization improves 
efficiency by more clearly identifying the role of this office and 
allowing it to better coordinate across all Components. The change is 
also in line with several recommendations contained within the 
Department's Office of Inspector General (OIG) audit in June 2008 
(Management of Department of Homeland Security International Activities 
and Interests, OIG 08-71).
    Question 6a. In 2010, you formed a Counterterrorism Advisory Board, 
a group of interagency officials that meet to help coordinate 
counterterrorism efforts across DHS and oversee the issuance of the new 
threat bulletin program. Can you explain how the counterterrorism 
advisory board functions? To date, what would you say have been the 
board's main successes?
    Question 6b. During consideration of the DHS authorization bill in 
October, there was a proposal to make the board permanent, by 
authorizing it in law. Is that something you'd support?
    Answer. Following the attempted attack on December 25, 2009, I 
directed Rand Beers to be the Department's Coordinator for 
Counterterrorism in order to better coordinate counterterrorism 
activities across the Department's directorates, components, and 
offices related to detection, prevention, response to, and recovery 
from acts of terrorism. In November 2010, DHS created the 
Counterterrorism Advisory Board (CTAB) to further improve coordination 
on counterterrorism among DHS components. The CTAB is chaired by the 
Coordinator for Counterterrorism, and co-chaired by the Under Secretary 
of Intelligence and Analysis and the Assistant Secretary for Policy. 
Members include the leadership of TSA, CBP, ICE, FEMA, USCG, USCIS, 
USSS, NPPD, and OPS. The DHS General Counsel serves as legal advisor to 
the CTAB and is present at all meetings.
    The CTAB brings together the intelligence, operational, and policy-
making elements within DHS headquarters and its components to 
facilitate a cohesive and coordinated operational response so that DHS 
can deter and disrupt terrorist operations.
    The CTAB meets on a regular basis to discuss current intelligence 
and coordinate on-going threat mitigation efforts and operational 
activities. These discussions include how best to share information 
with other Federal, State, local, Tribal, territorial, and private-
sector partners; as well as how best to implement these actions. Under 
certain circumstances, the CTAB may meet more often. There is a small 
number of detailed DHS staff that coordinates the day-to-day 
activities.
    The CTAB has been integral in coordinating Department-wide efforts 
to respond to numerous intelligence threat streams over the past 2 
years. For example, through the CTAB, all of the Department's 
countermeasures leading up to the 10th Anniversary of 9/11 were 
coordinated. The CTAB also successfully coordinated the Department's 
countermeasures during the 2011 holiday period. Additional details on 
the CTAB's activities in response to threat streams are classified, and 
we would be happy to provide a briefing for you or your staff in a 
classified setting.
    Question 7. What is DHS doing in its role with the National 
Countering Violent Extremism strategy?
    Answer. The Department has responsibility for implementing a range 
of CVE initiatives outlined in the administration's National CVE 
Strategic Implementation Plan (SIP) for Empowering Local Partners to 
Prevent Violent Extremism in the United States. This role includes 
leveraging the Department's analytic, research, and information 
capabilities, engaging State and local authorities and communities to 
bolster pre-existing local partnerships, and supporting State, local, 
Tribal, and territorial law enforcement and communities through 
training, community policing practices, and grants. DHS works closely 
to coordinate and collaborate on these efforts with the National 
Counter Terrorism Center (NCTC), the Department of Justice (DOJ), the 
Federal Bureau of Investigation (FBI), and other interagency and 
community partners.
    The Department is working with its Federal, State, local, Tribal, 
and territorial partners to fully integrate CVE awareness into the 
daily activities of law enforcement and local communities nationwide by 
building upon pre-existing partnerships and their existing practices, 
such as community policing, that have proven to be successful for 
decades. Specifically, DHS has made substantial progress in CVE in 
three key areas:
    1. Better understanding the phenomenon of violent extremism through 
        extensive analysis and research on the behaviors and indicators 
        of violent extremism;
    2. Enhancing operational partnerships with local communities, State 
        and local law enforcement, and international partners; and
    3. Supporting community policing efforts through curriculum 
        development, training, and grant prioritization.
Better Understanding the Phenomenon of Violent Extremism
    DHS has conducted extensive analysis and research to better 
understand the threat of violent extremism. This includes over 75 case 
studies and assessments produced by the DHS Office for Intelligence and 
Analysis (I&A) since 2009 on homegrown violent extremist activities and 
potential material support activities in the United States on behalf of 
violent extremist groups or causes, including an in-depth study that 
looks at the common behaviors associated with 62 cases of al-Qaeda-
inspired violent extremists. DHS has also produced numerous 
unclassified homeland security reference aids analyzing domestic 
violent extremist groups.
Enhancing Operational Partnerships and Best Practices with Local 
        Communities, State and Local law Enforcement, and International 
        Partners
    DHS has made significant advancements in operational CVE exchanges 
with international partners. We have international CVE partnerships 
with Australia, Belgium, Canada, Denmark, Germany, the Netherlands, 
Spain, and the United Kingdom, as well as partnerships with 
international law enforcement organizations such as Europol. For the 
past year, DHS, Europol, and E.U. partners have exchanged information 
on U.S.- and E.U.-based fusion center best practices, CVE training 
standards, and research and case studies, including a joint case study 
on the 2011 Norway attacks. These exchanges help us support State and 
local law enforcement by equipping them with up-to-date analysis on the 
behaviors and indicators of violent extremism, so they can prevent 
potential future violent extremist incidents from occurring in their 
communities.
    DHS has coordinated with the Department of State to train field-
based U.S. Government officials, both domestically and internationally, 
on how to engage and partner with local communities to build community 
resilience against terrorist recruitment and radicalization to 
violence. This training has encouraged interagency relationship-
building and ensures that U.S. Government officials operating in the 
CVE sphere, both domestically and at our embassies abroad, promote a 
consistent CVE message while offering the opportunity for an exchange 
of good practices.
    The Department has also significantly expanded outreach to 
communities that may be targeted for recruitment by violent extremists 
and promote a greater awareness of Federal resources, programs, and 
security measures available to communities. For example, the DHS Office 
of Civil Rights and Civil Liberties (CRCL) has held over 72 roundtable 
events Nation-wide since 2011, which have helped to address grievances, 
increase awareness of CVE resources, and build partnerships between 
State and local law enforcement, local government, and community 
stakeholders.
    To further strengthen the partnership with law enforcement, DHS, 
the White House, NCTC, DOJ, and the FBI hosted 50 State, local, and 
Tribal law enforcement officials at the White House in January 2012, to 
inform the Federal Government on how we can better support their local 
CVE efforts. Secretary Napolitano, Attorney General Holder, FBI 
Executive Assistant Director Giuliano, and Assistant to the President 
for Homeland Security and Counterterrorism Brennan participated. The 
feedback received in this workshop supported the Department's continued 
commitment to including CVE language in fiscal year 2012 grant guidance 
and the current development of on-line CVE training for officers 
Nation-wide. We are also working with law enforcement organizations, 
including the International Association of Chiefs of Police (IACP), the 
Major Cities Chiefs Association (MCCA), the Major County Sheriffs 
Association (MCSA), and the National Sheriffs Association (NSA), to 
implement CVE efforts and protect communities from violence.
Supporting Community Policing Efforts Through Curriculum Development, 
        Training, and Grant Prioritization
    DHS is in the final stages of developing and implementing CVE 
training for Federal, State, local, and correctional facility law 
enforcement, as well as a training block for State police academies. 
The key goal of the training is to help law enforcement recognize the 
behaviors associated with violent extremist activity and distinguish 
between those behaviors that are potentially related to crime and those 
that are Constitutionally protected or part of a religious or cultural 
practice.
    As part of our effort to develop operationally accurate and 
appropriate training, DHS is working with the Los Angeles Police 
Department (LAPD), MCCA, and the National Consortium for Advance 
Policing (NCAP) to complete a continuing education CVE curriculum for 
front-line and executive State and local law enforcement. DHS is also 
working with the International Association of Chiefs of Police (IACP) 
to develop an internet-based CVE curriculum for State police academies, 
which will be introduced into academies before the end of 2012.
    DHS is also working with the Federal Law Enforcement Training 
Center (FLETC) to deliver a CVE curriculum for Federal law enforcement 
that will be integrated into existing training for new recruits. In 
collaboration with the Interagency Threat Assessment Coordination Group 
(ITACG), Bureau of Prisons (BOP), and National Joint Terrorism Task 
Force (NJTTF), the Department is working to implement CVE awareness 
training for front-line correctional facility, probation, and parole 
officers at the State and local level.
    We are also working closely with interagency partners, and law 
enforcement associations, such as the MCCA and senior law enforcement 
officials Nation-wide to improve CVE training standards. In January, 
2012, the MCCA adopted a motion to ensure that all CVE training is 
operationally appropriate and accurate. The Department is also working 
to develop an accreditation process for CVE trainers and develop a 
train-the-trainer program by fiscal year 2013.
    DHS has also expanded fiscal year 2012 grant guidance to include 
funding for CVE training, partnerships with local communities, and 
local CVE engagement in support of the SIP. The Department also co-
chairs a working group on CVE Training with NCTC that helps ensure that 
training best practices are created and shared throughout the 
interagency.
    Question 8. What is DHS doing to counter violent extremism by 
right-wing groups and small cells?
    Answer. We face a threat environment where violent extremism is 
neither constrained by international borders, nor limited to any single 
ideology. We know that foreign terrorist groups affiliated with al-
Qaeda (AQ), and individual terrorist leaders, are actively seeking to 
recruit and/or inspire individuals living in the United States to carry 
out attacks against U.S. targets.
    DHS has designed a CVE approach that applies to all forms of 
violent extremism, regardless of ideology, and does not infringe on 
civil liberties protected by the Constitution.
    In the case of right-wing extremist threats and other non-AQ 
threats, DHS is continuing to support communities and local law 
enforcement by providing briefings, products, case studies, and 
information sharing on right-ring extremism and other non-AQ violent 
extremist threats. DHS also integrates research and case studies on 
right-wing extremism and non-AQ-related violent extremisms into our 
training and curriculum development efforts.
    DHS is continuing to leverage its analytic and research 
capabilities to further understand right-wing and non-AQ-inspired 
violent extremism threats in an international context. Additionally, 
DHS exchanges analyses and studies in this area with international 
partners.
    DHS would be pleased to brief you on the products, training, and 
briefings our components regularly share with State, local, and 
international partners at your convenience.
    Question 9a. I was interested to see that, for the first time, 
there is a line item in the budget for the ``Counterviolent Extremism 
through State and Local Law Enforcement Program'' within the Office of 
Civil Rights and Civil Liberties. Please explain the specifics of this 
program.
    With respect to training, will it be conducted by DHS, if so, will 
it be done by the Civil Rights and Civil Liberties Office?
    Question 9b. Will the program provide funding for the purchasing, 
by State and local law enforcement, of training from private companies 
and foundations? If so, what, if any, standards or requirements would 
be applied?
    Answer. CRCL supports the Department's mission to secure the Nation 
while preserving individual liberty, fairness, and equality under the 
law. CRCL integrates civil rights and civil liberties into all the 
Department's activities. CRCL subject matter experts conduct on-site 
training courses for law enforcement personnel and intelligence 
analysts to help increase understanding, communication, build trust, 
and encourage interactive dialogue between officers and the communities 
they serve and protect.
    While CRCL does not provide direct funding for training from 
private companies and foundations, DHS grants may be used for such 
purposes. To ensure accurate training, DHS released CVE Training 
Guidance and Best Practices to all State and local partners and 
grantees as part of DHS' grant guidance policy on October 7, 2011. We 
are also working closely with interagency partners, and law enforcement 
associations, such as the Major Cities Chiefs Association (MCCA) and 
senior law enforcement officials Nation-wide to improve CVE training 
standards. The Department is also working to develop an accreditation 
process for CVE trainers and develop a train-the-trainer program by 
fiscal year 2013.
    Question 10. These days, one of the fiercest debates in Congress 
has been about whether DHS should have the authority to directly 
regulate cybersecurity standards for certain critical infrastructure 
providers essential to our National or economic security. This debate 
will likely be decided by legislation, one way or the other. From your 
experience working with the private sector, conducting risk 
assessments, and providing operational support on a voluntary basis, do 
you think the private sector critical infrastructure is properly 
secured from cyber attacks with the voluntary programs in place today?
    If not, do you think they can ever adequately secure themselves 
when prompted by voluntary or market-based incentives with little 
Government regulation?
    Answer. Critical infrastructure owners and operators face enormous 
potential consequences from a range of cyber threats and 
vulnerabilities. The Department is committed to expanding its work with 
its partners both in the public and private sector by supporting 
legislation that strengthens the market for better cybersecurity 
practices, encourages improved information sharing between Government 
and the private sector, and establishes mandatory baseline security 
requirements across the most crucial sectors of covered critical 
infrastructure.
    Question 11. In the unfortunate event that a crippling cyber attack 
is carried out against our Government networks, critical infrastructure 
sector, or both, who, ultimately, is in charge of responding to such an 
attack, mitigating the damage and restoring the networks? Do you 
believe that we have sufficient clarity in the authorities granted to 
DHS, the FBI, and DOD?
    Answer. Over the past 3 years, the Federal Government has enhanced 
its capacity to protect against and respond to cyber threats in a 
number of ways, including increasing the number of cyber experts and 
standing up information-sharing mechanisms. The Department of Homeland 
Security (DHS) coordinates the response to significant cyber incidents, 
particularly coordinating National-level emergencies, leading 
mitigation efforts to help impacted entities restore their networks, 
and promulgating information from the attack to help other entities 
protect against a similar attack. DHS coordinates closely with our 
interagency partners that have complementary missions and authorities 
in the National response to such an event.
    DHS's National Cybersecurity and Communications Integration Center 
(NCCIC) serves as the primary information exchange during a significant 
cyber incident. The NCCIC coordinates National response efforts, 
assists with prioritization and deconfliction, and leverages collective 
expertise and capabilities among Federal, State, local, Tribal, and 
territorial governments and the private sector. The NCCIC executes 
these activities consistent with a number of current authorities, 
including the Homeland Security Act, the Federal Information Security 
Management Act, Homeland Security Presidential Directive (HSPD)-5, 
HSPD-7, and HSPD-23/National Security Presidential Directive-54.
    However, DHS currently carries out its cyber mission 
responsibilities under a patchwork of statutory authority and Executive 
Branch directives. There is no single overarching statutory framework 
describing all the DHS roles and responsibilities for cybersecurity. 
Pending legislation will help by codifying and clarifying current DHS 
responsibilities and authorities as part of a coherent statutory 
framework that will ensure that DHS has the continued ability to carry 
out its cybersecurity mission effectively and efficiently.
    Question 12. The budget requests to transfer the core US-VISIT 
operations, including the management of the biometric storage and 
matching service, from NPPD to CBP to align US-VISIT's operations with 
CBP's mission at the border and the collection of airline departure 
information. I have long supported transfer of US-VISIT's core 
operations to CBP and therefore support this request.
    Hundreds of millions of dollars have been spent on this program 
over the past few years, but the biometric entry-exit system that 
Congress envisioned has been elusive. Please explain how this transfer 
will help US-VISIT and CBP meet their respective missions, as well as 
what efficiencies the transfer will help achieve.
    Answer. The fiscal year 2013 budget proposes the transfer of US-
VISIT functions from NPPD to CBP and ICE. Currently, CBP operates 
numerous screening and targeting systems, and integrating US-VISIT 
within CBP will strengthen the Department's overall vetting capability 
while also realizing efficiencies.
    Pending enactment, CBP will assume responsibility for the core US-
VISIT operations and management of the biometric and biographic 
information storage and matching and watch list management services. 
ICE will assume responsibility of the US-VISIT overstay analysis 
services. CBP uses US-VISIT systems to help determine admissibility of 
foreign nationals arriving at all U.S. ports of entry (POEs) and to 
process aliens entering the United States illegally between the POEs. 
Currently, CBP operates numerous screening and targeting systems, 
supporting more than 70,000 users from over 20 Federal agencies that 
are responsible for a wide range of programs that rely on CBP 
information and systems to determine benefits, process travelers, 
inform investigations, support case management, and enhance 
intelligence capabilities. The US-VISIT systems will complement the CBP 
systems by adding the biometric identification and screening 
capabilities, which are also used across and beyond DHS. It will 
streamline interactions with the U.S. Department of State and the 
Federal Bureau of Investigation for both biographic and biometric 
screening.
    Although ICE will assume responsibility for US-VISIT overstay 
analysis, CBP and ICE will collaborate on system support for the 
overstay mission. Transition of the analysis and identification of the 
overstay population in ICE clearly aligns with the ICE mission of 
administrative immigration enforcement. Additionally, functions of 
support to CIS will provide feeder data related to domestic benefit 
fraud schemes for ICE investigations.
    CBP, ICE, and US-VISIT have established a transition team composed 
of senior representatives from each organization. This transition team 
is working to identify and prioritize crucial functional areas and 
determine the optimal strategy for transitioning each function.
    This transition team will identify targets of opportunity for 
operational and cost efficiencies. Priority will be placed on those 
transition initiatives that focus on increases in efficiency and 
effectiveness within mission support and ``corporate'' functions such 
as logistics, human resources, and information technology. Once all of 
the information is collected and arrayed, it will be analyzed with the 
goal of finding efficiencies while maintaining US-VISIT's mission with 
no degradation of services.
    Question 13. The budget requests an increase of $13 million for 
Customs and Border Protection's (CBP) Container Security Initiative 
(CSI), which is responsible for identifying and resolving concerns 
related to high-risk maritime cargo containers bound for the United 
States. The budget also indicates CBP intends to expand its ``hub'' 
approach to staffing its 58 CSI ports, whereby CBP personnel cover 
multiple ports from one location rather than having CBP officers 
stationed at each participating port. I am concerned that this hub 
approach and reduced CBP officer presence will be detrimental to the 
program, and even more concerned that it appears we are going to be 
paying more to do less.
    Can you assure us that security will not suffer under CBP's new 
approach to staffing CSI ports? Please explain how you intend to use 
the additional $13 million for fiscal year 2013.
    Answer. CBP is committed to ensuring the security of cargo coming 
to the United States. The CSI hub approach will continue to maintain 
security while increasing efficiency. Under the hub approach, where we 
have multiple CSI ports in the same country, 100% bill of lading review 
will continue to take place and all cargo deemed high-risk will 
continue to be examined.
    In those countries where the hub approach is implemented, there 
will be CBP Officers stationed in the foreign hub to review all 
shipments, identify high-risk cargo, and refer high-risk cargo to the 
host counterparts. When CBP Officers refer high-risk shipments to host 
counterparts, the shipment will be scanned for radiation and X-ray 
imaging and sent to the CBP officers in the hub location for review and 
mitigation. Under this concept, CSI will consolidate personnel into a 
centralized location from which targeting for all ports within that 
country will occur.
    Example: In France all CSI personnel are physically stationed in Le 
Havre but conduct bill of lading review for both Le Havre and 
Marseille. If CSI Officers in Le Havre need to have a container in 
Marseille examined, they will use the CSI Remote Targeting (CSI RT) 
software to communicate that to Marseille. French Customs in Marseille 
will conduct the Non-Intrusive Inspection (NII) exam and provide the 
NII image to Le Havre utilizing the CSI RT. Review of the image by CSI 
personnel in Le Havre will then determine if the cargo can be released 
or if further scrutiny (physical exam) is warranted.
    The $13 million request for fiscal year 2013 is not an increase to 
expand the CSI program or implement any significant changes. The 
request is for a restoration to the CSI base funding to continue 
current service level operations and restore funding to fiscal year 
2011 enacted levels. The restoration will allow CSI to continue current 
operations in all ports without having to close any ports due to budget 
shortfalls.
    The request will enable CBP to continue to review high-risk cargo 
that can be targeted and inspected before reaching a U.S. port. 
Operational in 58 ports, CSI is an effective multinational program 
protecting the primary system of global trade--maritime containerized 
shipping--from being exploited or disrupted by international 
terrorists. The request will support the CSI rebalancing of its 
international footprint and maintain current operations. The program 
will continue the hub concept in several international locations where 
there are multiple CSI ports. These hubs would utilize software 
specifically designed for CSI remote operations. The host country 
counterparts would perform the requested exam, upload the image 
utilizing the software, and send the images to the hub location. CBP 
officers located at the hub would review the images and either release 
the shipment if no anomalies are found or request a physical 
examination. The funding will also support the repositioning of remote 
targeting at the ports by introducing internet and software technology 
capabilities to transfer imaging to major hub sites or to the NTC.
    The fiscal year 2011 President's budget requested a reduction to 
CSI of over $50 million that was proposed to be achieved by transiting 
from a physical presence to a virtual presence at most CSI ports. 
However, due to technical constraints and the inability to modify an 
existing agreement with host countries, the virtual presence transition 
could not be fully implemented. The fiscal year 2013 President's budget 
request of $62.9 million was built from the fiscal year 2012 enacted 
base of $53.9 million. The fiscal year 2012 enacted base does not 
reflect the capability funded in the fiscal year 2011 enacted level of 
$59.9 million. See chart below.

                         INTERNATIONAL CARGO SCREENING PPA (CSI FOR OFO) FUNDING LEVELS
                                        Fiscal Year 2011-Fiscal Year 2013
----------------------------------------------------------------------------------------------------------------
                                                                                      Fiscal Year
                                           Fiscal Year   Fiscal Year   Fiscal Year  2012 Financial   Fiscal Year
                                              2011      2011 Enacted  2012 Enacted     Plan With        2013
                                            Requested                               Reprogramming*    Requested
----------------------------------------------------------------------------------------------------------------
OFO.....................................   $41,293,860   $59,857,292   $53,857,263    $59,857,263   $62,913,000
----------------------------------------------------------------------------------------------------------------
* Pending Congressional Approval of reprogramming of $6 million.

    Question 14a. The budget requests $91.8 million to support the 
continued deployment of surveillance technology along the Southwest 
Border in Arizona as a replacement for the canceled SBInet program. 
Funds will be used to procure and deploy commercially available 
technology, including Integrated Fixed Tower (IFT) systems and mobile 
technology. How does this new technology deployment differ from SBInet?
    Answer. While the technology associated with the IFT program may be 
similar to the SBInet technology, the acquisition strategy to procure 
the IFT system is fundamentally different. This strategy, developed in 
part from lessons learned from SBInet, is designed to procure and 
deploy a proven, fully integrated system that can be immediately put to 
use. The IFT system will not be a stand-alone technology solution, but 
will be operationally integrated with other fixed tower, mobile, and 
agent portable surveillance systems to facilitate border security. Each 
sector's technology system plan was optimized to reflect the sector's 
unique terrain and topography using the appropriate mix of commercial, 
off-the-shelf technologies rather than the proprietary, one-size-fits-
all SBInet system.
    Question 14b. What is different this time around?
    Answer. The following are the differences between IFT and SBInet:
    1. Non-developmental system deployment.--The former SBInet solution 
        required significant system development, i.e., the contractor 
        had to design, engineer, and test the solution prior to the 
        Government deploying the system. The IFT Request for Proposal 
        (RFP) states that CBP is NOT interested in any kind of a system 
        development. Instead, CBP is interested in selecting a non-
        developmental (and preferably commercially available) system 
        that represents the best mix of capabilities at a fair and 
        reasonable price. The use of currently available technology 
        systems means these systems can be ordered, delivered, and put 
        to use very quickly. The IFT Operational Requirements Document 
        (ORD) reflects results of market research to ensure the 
        requirements are achievable within the limits of today's 
        technology and is not intended to describe a system that 
        requires a development effort. Based on market research, CBP is 
        confident that the IFT technology exists in the marketplace as 
        a non-developmental system.
    2. System Demonstrations.--The IFT acquisition strategy includes a 
        plan that requires offerors that are included in the 
        competitive range to demonstrate the performance of their 
        proposed system during the source selection process. The former 
        SBInet program strategy did not include system demonstrations 
        prior to contract award. These IFT pre-award demonstrations are 
        intended to confirm that the proposed solutions exist as non-
        developmental systems and will inform the source selection 
        process prior to contract award.
    3. Sensor site selection process.--IFT sensor site locations for 
        each Border Patrol Station area of responsibility (AOR) are 
        being finalized by CBP prior to the award/exercise of a 
        contract line item (CLIN) to build out a particular AOR. This 
        process, which includes an environmental review and approval in 
        accordance with the National Environmental Policy Act--NEPA, is 
        currently underway and is not expected to affect or delay any 
        construction or deployment activities within an AOR after 
        award/exercise of the respective CLIN. The former SBInet 
        development contract did not specify tower site locations prior 
        to contract award (award/exercise of a CLIN) and included a 
        provision for the contractor to determine these locations under 
        a cost-plus contract. This added considerable time to the 
        SBInet deployment schedule (approximately 18-24 months for a 
        typical Border Patrol Station AOR) due to the lengthy site 
        selection and environmental compliance process. The current IFT 
        strategy to deploy a proven, fully integrated technology 
        solution coupled with the existence of construction-ready 
        sensor site locations allows the IFT program to reduce the 
        overall system deployment cycle time to approximately 8 to 12 
        months for a typical Border Patrol Station AOR.
    4. Use of fixed-price contracts.--The IFT program will use fixed-
        price contracts for all work. Fixed-price contracts will 
        provide the incentive for the contractor to complete all work 
        in a minimum amount of time, while minimizing the risk of 
        higher government costs if the contractor(s) does not perform 
        satisfactorily. The former SBInet contract was primarily cost 
        reimbursement where the Government paid the contractor for all 
        effort, to include re-work and additional funding for 
        performance delays.
    Question 14c. Can you assure us that this program will succeed 
where SBInet and its predecessors failed?
    Answer. The IFT system procurement is one element of a broader CBP 
strategy to rapidly acquire non-developmental (and, when feasible, 
commercially available) systems to support border enforcement efforts. 
Technology is combined with other CBP resources and capabilities; 
notably personnel, infrastructure, and intelligence; to improve the 
overall efficiency and effectiveness of our border enforcement efforts.
    The IFT acquisition focuses on an available non-developmental 
system that represents the best mix of capabilities at a reasonable 
price.
    Additionally, the IFT acquisition strategy mitigates risks in 
several ways. By requiring offerors within the competitive range to 
demonstrate the performance of their proposed solutions as part of the 
source selection process, CBP can not only confirm market research 
findings that non-developmental systems exist, but can ensure that the 
solution selected will provide the best value to the Government. CBP 
has made it clear in the IFT RFP that if there are no offerors who 
provide adequate confidence in the non-developmental nature of their 
system, or no offerors provide enough performance at reasonable cost, 
CBP will cancel the solicitation rather than procure an ineffective or 
high-risk offering. Also, by having CBP select and prepare the IFT 
sensor sites for each AOR prior to award/exercise of the CLIN, 
deployment cycle time is estimated to be reduced to approximately 8 to 
12 months for an AOR compared to the approximately 18 to 24 months per 
AOR it took for SBInet. Finally, through the use of a fixed-price 
contract, CBP reduces the risks of cost growth and schedule delays, 
since the contractor will be incentivized to complete all work and 
deliver an acceptable solution in the most expedient and efficient 
manner possible.
    Question 15. The budget fails to request any new Customs and Border 
Protection (CBP) officers, despite long lines at our Nation's land and 
air ports and a recovering economy that will hopefully result in more 
international trade and travel. The budget proposes cutting CBP officer 
overtime by $20 million, which will mean fewer hours for officers to 
spend inspecting travelers and goods entering this country. With no new 
CBP officers and fewer hours for the officers we do have, it is 
reasonable to expect wait times would increase.
    Has DHS studied what effect this reduction in overtime would mean 
for wait times at our ports and what the economic implications of 
further delays would be?
    Answer. To maximize limited overtime resources, CBP is currently 
implementing a strategy focused on maintaining flexibility and 
supporting the changing operations that occur as a result of peak-time 
operations at ports of entry. As part of this strategy, CBP is pursuing 
Business Transformation Initiatives, such as ready lanes in the land 
border environment, Global Entry kiosks in the air environment, and new 
mobile technologies. These initiatives shorten processing time by 
segmenting high-risk and low-risk traffic helping to reduce wait times 
as low-risk traffic is cleared more quickly and efficiently and CBPOs 
are free to focus upon the higher-risk traffic.
    CBP also continues to explore alternative financing options to 
address staffing requirements in both the short and long term, 
including pursuing public-private partnerships to fund enhanced 
services, such as outlier flights. The President's fiscal year 2013 
budget includes a legislative proposal to provide CBP with 
reimbursement authority for enhanced CBP services, which would 
authorize CBP to enter into reimbursable fee agreements to provide 
services in response to private sector and State and local requests. In 
addition to public-private partnerships, CBP is also evaluating current 
user fees in an attempt to recover more of the costs associated with 
providing services.
    While increases in traffic can result in higher wait times, CBP 
will continue to pursue strategies which minimize the impact of 
staffing on service levels. To most effectively use existing resources, 
CBP has deployed sophisticated software tools to schedule front-line 
personnel. CBP is also working to transform its core passenger 
processes to automate and streamline operations in order to expedite 
legitimate travelers and reduce the total staff required to process 
passengers. For example, CBP has automated the I-94W form through 
implementation of the Electronic System for Traveler Authorization 
(ESTA), saving up to 58 percent of the processing time for visa waiver 
program travelers.
    Question 16. Under Customs-Trade Partnership Against Terrorism (C-
TPAT), members of the trade community are offered expedited processing 
of their cargo if they comply with Customs and Border Protection's 
(CBP's) measures for securing the supply chain. The budget states that 
CBP will be reducing the frequency of compliance re-validations for (C-
TPAT) program participants to every 4 years, rather than the current 3-
year schedule. It is troubling that one of the programs the Department 
touts as being integral to its ``layered strategy'' for cargo security 
is scaling back compliance checks, apparently due to staffing 
constraints.
    How does CBP plan to ensure the integrity of C-TPAT and its other 
cargo security programs if the Department does not provide the 
necessary resources to do so?
    Answer. The Safe Port Act requires C-TPAT to conduct revalidations 
every 4 years. If warranted based on risk, C-TPAT may elect to validate 
a higher-risk supply chain prior to the 4-year revalidation cycle. In 
addition to the revalidations, there are additional measures taken 
including annual security profile reviews and annual vetting.
    Question 17. Secretary Napolitano, in the fiscal year 2013 budget 
request, Coast Guard presents a number of decreases such as 
decommissioning cutters and patrol boats, retiring aircrafts, and the 
closing seasonal air facilities. While I am aware of the need for Coast 
Guard to continue to move forward with the long process of modernizing 
its surface and air vessels, I am concerned that these types of 
decreases may lead to a gap in available resources and personnel.
    How has Coast Guard ensured that there will be enough resources and 
personnel to carry out its maritime security mission?
    In the case of upsurge, similar to the Deepwater Horizon Oil Spill 
of 2010, how will Coast Guard provide necessary support for our 
maritime environment?
    Answer. The Coast Guard will decommission legacy assets in order to 
complete the crewing, training, and operations of new acquisition 
surface and air assets. For example, the Coast Guard will have ten Fast 
Response Cutter (FRC) crews on budget at the end of fiscal year 2013 to 
ensure the personnel are fully trained and ready to accept delivery of 
FRC hulls as they are delivered to the fleet. Near term impacts are 
expected to be minimal as new and more capable assets become 
operational. For example, five FRCs and three National Security Cutters 
are expected to be fully operational by the end of fiscal year 2013. 
Moreover, the 110 Patrol Boat Mission Effectiveness Project, which 
will complete the final hull in summer 2012, improves patrol boat 
reliability for in-service hulls until transition to the FRC fleet is 
completed.
    Within the aviation domain, fully operational HC-144's, and C-
130J's will replace aging aircraft, and will bring vastly improved 
intelligence and surveillance capabilities. These aircraft will fly 
more hours and provide more efficient mission execution. Additionally, 
the Coast Guard will continue to assess aviation mission demands and 
priorities for aircraft use in alignment with National priorities and 
the realities of current resources.
    Also, in conformance with our operational construct, the Coast 
Guard will ``surge'' or reallocate assets to meet our highest mission 
requirements as needed.
    The Coast Guard allocates its multi-mission assets to the Nation's 
highest order needs. In the cases of the operational responses to the 
Haiti earthquake and Deepwater Horizon Oil Spill, personnel and assets 
were diverted from routine planned mission assignments at the time to 
provide the initial search-and-rescue response and long-term mission 
support for the disasters. These incidents required the Coast Guard 
Reserve to mobilize approximately 2,800 selective reservists. The Coast 
Guard may conduct an involuntary recall of Reservists under Title 14 
for a maximum of 120 days within a 2-year period.
    Question 18. Recently, in response to questions about the lack of 
Coast Guard funding for the acquisition of more air and surface 
vessels, Coast Guard Commandant Papp was quoted as saying that ``The 
Coast Guard is just very difficult to understand . . . I'm constantly 
faced with this challenge of explaining exactly what the Coast Guard 
does. In fact, sometimes it happens even within our own department.''
    How do you respond to this statement?
    Answer. The role of the Coast Guard within the Department, and the 
value of the Coast Guard to the Nation is clear. The Coast Guard 
possesses a unique mix of authorities, capabilities, and partnerships 
critical to the Department's performance around the globe. Unique 
within the Department, the Coast Guard is the Nation's only Federal law 
enforcement agency that is also an armed service, and as such, has the 
ability to establish and enforce standards, reduce risk, control 
activities, and respond to emergencies in the maritime domain.
    Question 19. As you know the TWIC program has faced a number of 
problems since DHS began to enroll applicants in 2007. Now, 5 years 
later, the TWIC program is facing another challenge. The first batch of 
TWICs is set to expire later this year. DHS has not even issued its 
final rule for the purchase of TWIC readers by the ports.
    Even as the Department has struggled to uphold their end of the 
bargain, American workers have continued to make multiple trips to TWIC 
enrollment centers and spend $132.50 on essentially ``flash passes.''
    When will the Department issue the final TWIC reader rule?
    I have asked the Department, in the past to consider extending the 
deadline for TWIC renewals so that economically-strapped port workers 
are not forced to pay another $132.50 when DHS has not lived up to its 
end of the bargain. Will you consider pushing out the time line?
    The committee understands that the process for acquiring a TWIC 
card can be burdensome and transportation workers, often requiring 
several trips to distribution centers. Will the Department review the 
TWIC application process to evaluate whether less burdensome procedures 
are possible?
    Answer. TWIC is one element in our layered approach to maritime 
security and adds a level of additional security to our port facilities 
and vessels. Prior to the TWIC Program, there was no standard identity 
verification or background check policy for entrance to a port 
facility. Today, facility and vessel owners and operators look for one 
standard identification document that confirms the holder's identity, 
and verifies that he or she successfully completed a security threat 
assessment/background check. TWICs contain security features that make 
the card highly resistant to counterfeiting and difficult to use by 
anyone other than the authorized holder.
    Coast Guard regulations require facilities and vessel owners and 
operators to conduct a thorough visual inspection of the credential 
prior to allowing access to a secure area. The visual inspection 
requirements are: (1) Determine that the credential has not expired; 
(2) examine one or more security features on the credential; and (3) 
compare the facial photo on the card to the person presenting the card. 
The TWIC features, coupled with the visual inspection requirements, 
ensure that eligibility for unescorted access to secure areas is 
determined to a much higher degree than relying on the many documents 
that were acceptable for access prior to TWIC. Ultimately, the facility 
and vessel owner/operator is also responsible for determining whether 
the individual presenting the TWIC has any need to access the vessel or 
facility. Thus a TWIC alone does not guarantee admission to a port 
facility or vessel, but arms those making access control decisions with 
additional information about the individual to whom the card was 
issued.
    In 2006, TSA and U.S. Coast Guard issued a joint Notice of Proposed 
Rulemaking (NPRM), setting the proposed requirements and processes for 
implementation of the TWIC program in the maritime sector. As a result 
of public comments and additional analysis, DHS decided to make several 
changes to the proposed rule, most notably, splitting the rulemaking 
process into two separate rules--one on the card and security threat 
assessments, and one on the card reader requirements. In January 2007, 
DHS issued the first of these rules, the TWIC Final Rule, establishing 
the TWIC program requirements and identification card standards. DHS 
intends to issue a subsequent NPRM to address reader requirements.
    DHS has been laying the groundwork for the reader NPRM since that 
time. Pursuant to the requirements of the SAFE Port Act of 2006, which 
requires the final regulations for TWIC readers to be consistent with 
the findings of a reader pilot program, TSA conducted the TWIC Reader 
Pilot Program. From 2008 through 2011, TSA evaluated the technical 
performance of the TWIC biometric reader function at a sample 
population of maritime facilities. TSA was able to gather valuable data 
on reader performance, as well as assess the operational and business 
process impacts of conducting biometric verification of identity under 
diverse field conditions. A final report on the results of the TWIC 
Reader Pilot Program was delivered to Congress in February 2012 (see 
http://chsdemocrats.house.gov/sitedocuments/twicreaderreport.pdf).
    Concurrently, in 2009, the Coast Guard published an Advanced NPRM 
(ANPRM) (see 74 FR 13360 (Mar. 27, 2009) at http://www.gpo.gov/fdsys/
pkg/FR-2009-03-27/pdf/E9-6852.pdf) to describe its proposed risk-based 
framework and to solicit comments from the public. The ANPRM discussed 
the Coast Guard's preliminary thoughts on potential requirements for 
the use of electronic readers designed to work with TWIC as an access 
control measure. The Coast Guard is now developing the TWIC Reader 
NPRM, which will reflect the findings of the TSA Reader Pilot Program, 
and public comments gathered through the ANPRM process. DHS anticipates 
that the TWIC Reader NPRM will be issued later this year. Following 
publication of the NPRM, the Coast Guard will carefully review all 
public comments and develop a TWIC Reader Final Rule.
    There are a few matters of note with respect to the TSA Reader 
Pilot Program and the challenges faced during the Pilot Program. 
Initial development and deployment of the pilot program presented 
several challenges. From the outset of the pilot, for example, maritime 
stakeholders requested that card readers be capable of conducting a 
biometric match, without requiring the workers to enter their personal 
identification number or inserting their card into the reader. In 
partnership with maritime facility and vessel operators, the smart card 
and reader industry, and other Government agencies, TSA developed a 
reader specification for the pilot program that was compatible with the 
TWIC standards set forth in regulation. Subsequently, commercial 
vendors participating in the pilot program then had to develop and 
install readers based on the new specification. While the reader 
requirements put forth in the pilot program will be used as a potential 
model/alternative, we will also be collecting further information about 
available technologies and possible use of other available standards in 
the forthcoming reader NPRM--through the regulatory alternatives 
analysis process.
    Other challenges emerged in execution, due to the voluntary nature 
of the pilot. At some facilities, time lines for technical and physical 
infrastructure modifications were extensive, and TSA was not in the 
position to enforce a time line for the project plan. Furthermore, the 
recession had a tremendous impact on commercial operators, which meant 
reductions in staff and financial reserves across the board. TSA 
offered general guidance to ports and facilities, but could not provide 
a ``one-size-fits-all'' reader template due to the unique nature of 
each regulated facility and vessel operation.
    Despite the challenges, the pilot also highlighted security and 
operational benefits associated with readers including the automation 
of access control, so that regular users could use their TWICs for 
quick processing into a port. In turn, participating pilot port 
security officers gained integrated access control systems resulting in 
more efficient and effective processing of workers entering secure 
areas.
    Finally, on June 15, 2012, DHS announced that beginning August 30, 
2012, DHS will offer eligible TWIC holders the opportunity to replace 
their expiring TWICs with a 3-year extended expiration date (EED) card 
for a fee of $60. TSA issued this exemption to give eligible 
individuals the option to extend for an additional 3 years their 
current security threat assessments (STAs) and 5-year TWICs that are 
set to expire on or before December 31, 2014,\3\ rather than require 
them to renew the card at full price for 5 years. Through this notice, 
we exempted eligible individuals from 49 C.F.R 1572.23(a) and (a)(1) 
and 1572.501(d) of the TWIC regulation.
---------------------------------------------------------------------------
    \3\ 49 C.F.R.  1572.23.
---------------------------------------------------------------------------
    Eligible individuals choosing the 3-year TWIC extension may obtain 
it by ordering the credential via telephone, paying a $60 card 
replacement fee, and visiting a TWIC enrollment center to pick up and 
activate the card. For the purposes of the exemption, the 3-year TWIC 
is considered a valid TWIC, in that it can be used to enter maritime 
facilities and vessels just as the 5-year TWIC is used currently. The 
3-year TWIC will expire 3 years from the expiration date of the TWIC 
that is being replaced. Eligible individuals selecting the 3-year TWIC 
option do not have to go through the standard renewal process that 
includes providing new biometric and biographic information at an 
enrollment center, new STA, payment of the renewal fee of $129.75, and 
a second trip to an enrollment center to retrieve and activate the 
credential.
    This exemption will reduce the burden and cost associated with 
obtaining a new TWIC for the majority of individuals holding expiring 
TWICs, while the U.S. Coast Guard develops the TWIC reader regulation. 
This exemption (and the option that it will provide to certain TWIC 
holders with expiring TWICs) and the U.S. Coast Guard TWIC reader 
rulemaking are part of the Department of Homeland Security's overall 
effort to ensure that TWIC readers are deployed, through a risk-based 
approach, to appropriate vessels and facilities throughout the Nation 
in the coming 3-year period.
    Question 20. Last year, we learned that the Department would not be 
meeting the air cargo deadline for inbound passenger aircraft until 
December 2012. TSA's screening plan must ensure that adequate controls 
are in place to validate screening of inbound cargo aboard passenger 
flights.
    What can you tell us about the status of your efforts at getting 
agreements and systems in place to ensure that all inbound cargo is 
screened?
    With regard to the 100% air cargo mandate, what impact, if any, do 
you anticipate the moving of the Office of International Affairs out of 
the Office of Policy will have?
    Answer. Under its risk-based security approach, TSA recently issued 
changes to its Standard Security Programs, which incorporate the 
Trusted Shipper concept and require 100-percent screening of 
international inbound cargo transported on passenger aircraft by 
December 3, 2012. As part of this strategy, TSA continues to review 
foreign cargo security programs under the National Cargo Security 
Programs (NCSP) recognition process to determine whether these programs 
provide a level of security commensurate with current U.S. standards.
    Under the NCSP recognition program, TSA conducts a comprehensive 
review to assess whether a foreign government's air cargo security 
program is commensurate with current U.S. standards for air cargo 
security. TSA is primarily focusing on those countries with a 
significant volume of air cargo inbound to the United States, but is 
also considering additional factors for country prioritization, 
including the number of airports in the country from which cargo 
originates and criticality of the country as a transhipment point for 
significant volumes of cargo destined for the United States.
    To date, TSA has recognized the air cargo security requirements 
under the EC air cargo security framework, which includes all 27 
Members of the European Union plus Switzerland. Additionally, outside 
of the European Union, TSA has recognized Canada, Australia, and 
Israel. Through NCSP recognition, TSA permits air carriers to follow 
the security programs of countries that TSA determines to be 
commensurate with TSA requirements therefore reducing the burden on 
industry by eliminating potentially duplicative requirements between 
the two countries' security programs. This recognition also ensures 
that the screening of air cargo is conducted and a high level of 
security is maintained for air cargo bound for the United States. NCSP 
recognition also enables TSA to leverage the host government's 
oversight capabilities to verify air carrier screening operations and 
data.
    TSA's Office of Global Strategies (OGS) verifies the security 
measures applied to international inbound air cargo and does so through 
deployment of its TSSs. The verification procedures include a series of 
on-site assessments of foreign airports, air carrier cargo facilities, 
and off-airport cargo sites. Air carrier inspections are conducted at 
every foreign LPD airport at least annually, with interim activities 
scheduled for the higher-priority sites. These activities included 
reviews of each air carrier's requirements under TSA's Standard 
Security Programs (e.g., cargo screening and training) and 
participation in the NCSP recognition process.
    Within these compliance activities, TSA is also able to increase 
its ability to verify the accuracy of international inbound air cargo 
data reported by carriers. The administration's fiscal year 2013 budget 
request includes funding to fully annualize more than 50 international 
cargo inspectors added in fiscal year 2012 to enhance air cargo 
inspection and other security oversight and improvements to meet the 
statutory requirement of 100-percent system-wide screening of cargo on 
passenger aircraft, including aircraft originating overseas. The 
addition of these international cargo inspectors overseas will enable 
TSA to better verify screening operations and security measures at the 
departure points, ensure that reported data is generally accurate, and 
highlight for further resolution, supply chain vulnerabilities or 
inconsistencies in data reporting that is not supported by onsite 
observations.
    DHS does not anticipate any impact on its efforts to satisfy the 
100-percent air cargo mandate for international inbound cargo from 
moving the Office of International Affairs out of the Office of Policy.
    Question 21. Please explain why you believe that your homeland 
security grant consolidation proposal is superior to the current 
approach of funding specific homeland security grant programs targeted 
at particularly important capabilities.
    Answer. As we look ahead, in order to address evolving threats and 
make the most of limited resources, FEMA proposed a new vision for 
homeland security grants in the fiscal year 2013 President's budget 
that focuses on building and sustaining core capabilities associated 
with the five mission areas within the National Preparedness Goal (NPG) 
that are readily deployable and cross-jurisdictional, helping to 
elevate Nation-wide preparedness. This proposal reflects the lessons 
we've learned in grants management and execution over the past 10 
years. Using a competitive, risk-based model, this proposal envisions a 
comprehensive process to assess gaps, identify and prioritize 
deployable capabilities, limit periods of performance to put funding to 
work quickly, and require grantees to regularly report progress in the 
acquisition and development of these capabilities.
    Consolidating grant programs will support the recommendations of 
the Redundancy Elimination and Enhanced Performance for Preparedness 
Grants Act (REEPPG) and streamline the grant application process. This 
increased efficiency will enable grantees to focus on how Federal funds 
can add value to the jurisdiction's prioritization of threats, risks, 
and consequences while contributing to National preparedness 
capabilities. In addition, all States and territories are required to 
complete a comprehensive Threat Hazard Identification and Risk 
Assessment (THIRA) which provides an approach for identifying and 
assessing risks and associated impacts across their State/territory. 
FEMA Regional Offices have been tasked with coordinating THIRAs in 
their respective regions and will assist grantees in their efforts to 
address the gaps identified in their THIRA, while building important 
State-wide and National capabilities.
    Question 22. As I mentioned in the hearing, I am concerned about 
the people who survived Hurricanes Katrina and Rita, received 
inaccurate reimbursements for expenses immediately after the storm, 
through no fault of their own, and were subject to recoupment for 
FEMA's mistake several years later. Thanks to legislation enacted with 
my support, there is now a waiver process for these impacted 
individuals. As I stated at the hearing, I encourage the Department to 
aggressively do outreach to impacted persons so that they can access 
this waiver process. Please provide a full description of the outreach 
efforts underway to ensure that impacted people are made aware of their 
rights to seek a waiver within the time frame.
    Answer. The President signed the Disaster Assistance Recoupment 
Fairness Act (DARFA) into law on December 23, 2011. Immediately 
following enactment, FEMA began working on an implementation plan that 
culminated with the mailing of waiver notices to over 88,000 disaster 
survivors during the week of February 13, 2012. As of July 3, 2012, 
FEMA has received about 19,100 waiver requests and is in the process of 
reviewing these cases under this new authority.
    FEMA is making every effort to reach disaster survivors through 
mail, public outreach, and through Congressional and State delegations 
to explain the process available to request a waiver and the method by 
which FEMA will review waiver requests, including the documentation 
required and the time limits involved.
    FEMA's Legislative Affairs Division is spearheading a comprehensive 
outreach plan which capitalizes on the unique role of Congressional 
caseworkers based in Members' respective State and district offices. In 
February, senior FEMA staff conducted a conference call with 
caseworkers which, in addition to outlining the details of the new 
waiver authority, aimed to encourage our Congressional partners to use 
every means available to inform eligible disaster survivors living in 
their respective States to apply for a waiver once they receive the 
requisite information in the mail. In addition, the Division is also 
working with Congressional offices to ensure that FEMA has up-to-date 
contact information for disaster survivors who may have moved recently 
and are eligible for a waiver under this new authority.
    FEMA's Public Affairs Division, in coordination with the agency's 
regional offices, has utilized a wide range of traditional and social 
media based resources to encourage individuals to apply for a waiver 
once they receive the requisite information in the mail. The Public 
Affairs team also posted web videos in Spanish and English outlining 
the waiver process. The videos, along with further information, may be 
found here: http://www.fema.gov/debtwaiver/.
    Finally, FEMA's Office of Chief Counsel has also been at the 
forefront in engaging stakeholders on DARFA implementation. In 
February, Chief Counsel, Brad Kieserman, spoke with attorneys from the 
Legal Services Corporation National Disaster Network, Loyola University 
Law Clinic of New Orleans and other interested legal aid attorneys. In 
each of these engagements, the Chief Counsel took the opportunity to 
proactively inform the legal community of the new DARFA legislation and 
its potential applicability for their clients, to inform them of the 
short-term and unique nature of this waiver authority, and to urge them 
to encourage and assist their clients in availing themselves of this 
opportunity.
   Questions Submitted by Honorable Lamar Smith for Janet Napolitano
    Question 1. Clinton administration INS Commissioner Meissner said 
that ``exercising prosecutorial discretion does not lessen the INS's 
commitment to enforce the immigration laws to the best of our ability. 
It is not an invitation to violate or ignore the law.'' Just last 
March, she said that ``[p]rosecutorial discretion should be exercised 
on a case-by-case, basis, and should not be used to immunize entire 
categories of noncitizens from immigration enforcement.'' Do you agree 
with Ms. Meissner?
    Answer. Prosecutorial discretion is not exercised on a categorical 
basis for large classes of aliens. The exercise of prosecutorial 
discretion makes the best use of the Department's resources and allows 
U.S. Immigration and Customs Enforcement (ICE) to prioritize the 
removal of aliens who pose a danger to National security or public 
safety, recent illegal entrants, and aliens who are fugitives or 
otherwise obstruct immigration controls. In determining whether an 
exercise of prosecutorial discretion is appropriate in any given case, 
ICE officers, special agents, and attorneys review the case on its own 
merits in conformity with the ICE priorities described in ICE Director 
John Morton's March 2, 2011 memorandum titled ``Civil Immigration 
Enforcement: Priorities for the Apprehension, Detention, and Removal of 
Aliens,'' and the June 17, 2011 memoranda titled ``Exercising 
Prosecutorial Discretion Consistent with the Civil Immigration 
Enforcement Priorities of the Agency for the Apprehension, Detention, 
and Removal of Aliens'' and ``Prosecutorial Discretion: Certain 
Victims, Witnesses, and Plaintiffs.'' In addition, the Secretary of 
Homeland Security's June 15, 2012 memorandum titled ``Exercising 
Prosecutorial Discretion with Respect to Individuals Who Came to the 
United States as Children'' clarified those certain individuals who 
came here as children are generally low enforcement priorities for DHS. 
Pursuant to that memo, ICE and U.S. Citizenship and Immigration 
Services (USCIS) are developing a process to consider such individuals 
for deferred action, which is an exercise of prosecutorial discretion 
not to pursue removal in a given case. This memo does not represent the 
exercise of prosecutorial discretion on a categorical basis, rather it 
sets out guidelines to identify individuals who may be considered on a 
case-by-case basis for deferred action.
    Question 2. Is it not true that DHS's recent memos make hundreds of 
thousands if not millions of illegal immigrants potentially eligible 
for deferred action? Once illegal immigrants are granted deferred 
action, they can apply for work authorization. Do you know that your 
administration grants work authorization to 90% of the aliens to whom 
you grant deferred action? If you keep up the same approval rate, isn't 
it true that you are on a glide path to grant work authorization to 
hundreds of thousands if not millions of illegal immigrants? How can 
you justify this when American citizens don't have jobs and struggle to 
make ends meet?
    Answer. On November 17, 2011, the U.S. Department of Homeland 
Security (DHS) began reviewing the removal cases--approximately 300,000 
of them--currently pending in the U.S. Department of Justice's 
Executive Office for Immigration Review to determine whether the 
exercise of prosecutorial discretion is appropriate in any of the 
cases. As part of the review of the 300,000 cases, the preferred 
mechanism for exercising prosecutorial discretion has been through 
administrative closure. Administratively closing a case results in 
immigration prosecution being held in abeyance, but confers no 
immigration benefit to the individual.
    Individuals are not eligible for work authorization on the basis of 
receiving administrative closure alone. However, individuals whose 
cases are administratively closed and who are eligible for work 
authorization on another basis may apply for work authorization, 
including paying associated fees, and their requests will be separately 
considered by U.S. Citizenship and Immigration Services (USCIS) on a 
case-by-case basis.
    Question 3a. ICE just announced that criminal charges have been 
filed in what it calls ``one of the largest immigration fraud schemes 
to have ever been committed in our country.'' ICE indicated that ``to 
date, the Government has identified at least 25,000 immigration 
applications submitted by the David Firm--the vast majority of which 
have been determined to contain false, fraudulent, and fictitious 
information.'' How could this massive fraud on the American public have 
lasted for well over a decade before the Federal Government got wind of 
it?
    Answer. Benefit fraud investigations are complex and challenging 
since they often involve sophisticated schemes with multiple co-
conspirators. Elaborate methods devised by these schemes to elude 
detection, coupled with the in-depth analysis required to assess all 
leads and gather the necessary evidence, often take time to 
successfully identify, investigate, and prosecute these types of cases. 
As the lead agency within the U.S. Department of Homeland Security 
(DHS) for the investigation and prosecution of alleged immigration 
fraud, U.S. Immigration and Customs Enforcement's (ICE) Homeland 
Security Investigations (HSI) ensures the integrity of the Nation's 
immigration system by preventing criminal enterprises and individuals 
that perpetrate fraud from extending the entry, stay, and movement of 
unauthorized aliens, terrorists, and criminals throughout the United 
States. The case referenced above was worked by HSI's New York Document 
and Benefit Fraud Task Force (DBFTF). Eighteen HSI offices throughout 
the country lead DBFTFs, which combat both document and benefit fraud. 
In fiscal year 2010, HSI initiated 1,334 benefit fraud investigations 
and conducted 529 benefit fraud-related criminal arrests. In fiscal 
year 2011, HSI initiated 1,439 benefit fraud investigations and 
conducted 520 such criminal arrests.
    Question 3b. How many other David law firms are out there?
    Answer. It is difficult to know the number of immigration benefit 
fraud facilitators who are currently operating. ICE is aware of those 
which ICE has investigated and confirmed are fraudulent operators. In 
fiscal year 2010, HSI initiated 1,334 benefit fraud investigations and 
conducted 529 benefit fraud-related criminal arrests. In fiscal year 
2011, HSI initiated 1,439 benefit fraud investigations and conducted 
520 such criminal arrests.
    Question 3c. Isn't it true that DHS rarely revokes immigration 
benefits granted to aliens through fraud schemes that the Government 
has uncovered? Can you commit to me that DHS will seek to revoke the 
immigration benefits for the tens of thousands of aliens who received 
benefits fraudulently through the David Firm?
    Answer. In cases where ICE chooses not to criminally prosecute 
individuals involved in a fraud scheme, ICE will refer the alien to 
USCIS's Fraud Detection and National Security (FDNS) for an 
administrative investigation. FDNS officers will conduct a fraud 
investigation and complete a statement of findings that is sent to 
USCIS adjudicators for further processing. In cases where FDNS finds 
and articulates fraud, it may recommend that USCIS pursue further 
action, including revocation, denial, requesting additional evidence, 
or issuing a notice of intent to revoke.
    USCIS devotes considerable attention to ensuring that the 
beneficiaries of a fraud scheme are or were not themselves an active 
participant in the misrepresentation. In cases where the beneficiary 
was a willful participant, USCIS will use all lawful means to revoke or 
rescind a granted benefit or to deny any pending benefits.
    FDNS's administrative investigation in fraud scheme cases focuses 
on each associated alien's eligibility for the benefit. Close attention 
is given as to whether the individual applying for the benefit has 
misrepresented a material fact in procuring a benefit. Factors 
considered include whether the applicant willfully misrepresented or 
concealed a fact or material in USCIS's original decision to grant the 
benefit. This review may conclude that the alien is still eligible for 
the benefit granted, despite his/her representative's fraudulent 
activity, if there is no evidence that the beneficiary had knowledge of 
or willfully participated in the fraud.
    This case was investigated by the HSI New York DBFTF. Over the 
course of the investigation, the DBFTF identified fraud indicators 
specific to the David Firm, such as boilerplate language and/or 
supporting documentation. HSI provided these indicators to USCIS, a HSI 
New York DBFTF partner, to aid in the determination as to which of the 
files contain evidence of fraud. USCIS is reviewing those cases that 
were sent to them and determining the appropriate actions to take.
 Question Submitted by Honorable Michael T. McCaul for Janet Napolitano
    Question. Secretary Napolitano, as you know, the Department was 
created in 2003 by combining 22 different agencies and establishing new 
headquarters offices. A top priority for this committee has been the 
integration of Departmental functions, streamlining the bureaucracy, 
and eliminating stovepipes. In our current fiscal environment, this 
goal is even more important today. Yet, the administration's budget 
request for Department headquarters seems to be going in the opposite 
direction. The budget proposes to pull three functions out of the 
Office of Policy and establish them as ``direct reports'' to your 
office. These functions are the Office of International Affairs, the 
Office for State and Local Law Enforcement, and the Private Sector 
Office. Could you please give us the rationale for this proposal, 
including:
  <bullet> what effects it will have on the future role of the Office 
        of Policy,
  <bullet> whether your office will require more resources to oversee 
        three new direct reports, and
  <bullet> how three new reporting chains will be integrated into 
        Departmental operations?
    Answer. The Private Sector Office, the Office of International 
Affairs, and the Office for State and Local Law Enforcement can best 
execute their responsibilities through a similar structure to other 
external facing outreach offices such as the Office of 
Intergovernmental Affairs (IGA) and the Office of Legislative Affairs 
(OLA). As the Department continues to mature and these offices continue 
to take on more significant responsibilities across the Department, 
it's appropriate for them to become direct reports to the Secretary. 
The reorganization improves efficiency by more clearly identifying the 
role of these offices. All three offices will be able to better 
coordinate across all Components.
    The Office of Policy (PLCY) will continue to streamline and focus 
its mission to include policy analysis and implementation. PLCY will 
also provide the Department with an integrated and DHS-wide capability 
for strategy development, strategic planning, long-term assessment, and 
decision analysis.
    No new funds are requested for the PSO/OIA and OSSLE moves; funding 
will come from the existing base of the PLCY budget.
    The Under Secretary for Management (USM) already provides the 
Office of Secretary and Executive Management administrative services, 
including budget, human resource, and logistical support. With the 
reorganization, all entities within the Office of Secretary and 
Executive Management will continue to receive administrative support 
from the USM.
   Questions Submitted by Honorable Tim Walberg for Janet Napolitano
    Question 1. In regards to detention beds, are there any studies on 
the cost comparison between contracted facilities?
    Answer. U.S. Immigration and Customs Enforcement (ICE) has put in 
place numerous measures to responsibly keep detention costs down, 
including: Closure of the most expensive facilities, negotiating lower 
bed rates, closing higher-cost facilities, and increasing the use of 
ICE Health Service Corps to deliver detainee health care. ICE has 
performed analysis of the average daily bed costs by facility type. 
This analysis, using fiscal year 2011 data (the most current full-year 
data set), provides the following costs:
  <bullet> ICE-owned service processing centers (SPC): $131.27 per day;
  <bullet> Contract detention facilities (CDF, contracted out for ICE 
        use only): $84.70 per day;
  <bullet> Intergovernmental service agreements (IGSA): $115.19 per 
        day.
    At the end of each fiscal year, ICE conducts a bed cost annual 
review which analyzes all bed-related obligations and expenditures. The 
financial information is loaded into a database and the data is sorted 
by sub-object class code, and cost type. These sub-object classes 
reflect all the different costs that ICE incurs at our detention 
facilities. These costs include detention bed and detention guard 
contracts, food, medical care, compliance oversight, maintenance, 
payments to detainees for work provided, provisions for detainees, 
supplies for detainee welfare, telecom, and utilities.
    The average bed rate that ICE pays differs by facility type. CDF 
and IGSA facilities are operated by corporations that can leverage 
economies of scale to achieve a rate that is lower than what ICE pays 
at an SPC. These CDF and DIGSA facilities can also incorporate better 
design features that maximize the guard-to-detainee ratio, reducing 
overall costs. SPCs are owned by the Government and operated by a 
contractor. These facilities can be expensive because they are older 
and require more maintenance and also because they incorporate EOIR 
court rooms and large administrative spaces which is factored into the 
SPC costs. IGSA rates fluctuate by geographic region and are based on 
labor rates and facility standards. Additionally, SPCs, CDFs, and ICE-
dedicated IGSA facilities are contracted with guaranteed minimum rate 
clauses, which means that ICE occupies an agreed-upon minimum amount of 
bed space in order to achieve cheaper beds rates, in contrast to non-
dedicated IGSAs which are more of a ``pay as you go'' service.
    Question 2. Provide the committee with the Department plans to 
incorporate the use and reallocation of excess military equipment 
returning to the United States from the withdrawal of troops from 
foreign theaters.
    Specifically, the use of C-27J airlift aircraft for domestic 
emergency response efforts.
    Answer. The Coast Guard does not currently have any appreciable 
amount of excess equipment in theater. In general, it is anticipated 
that any major equipment that Coast Guard forces deployed with, will 
return with those units and be used for that particular Coast Guard 
unit's primary missions/purposes. In addition, the Coast Guard 
currently has six Patrol Boats deployed in theater in support of the 
Combatant Commander which are still deployed conducting operations. 
Upon return from theater and depending on the vessels' condition, these 
Patrol Boats will resume primary Coast Guard missions in their 
respective Areas of Responsibility.
   Questions Submitted by Honorable Scott Rigell for Janet Napolitano
    Question 1. The 287(g) program is a cooperative initiative between 
the Federal Government and States and localities, which enables 
specially-trained State and local officers to perform immigration 
enforcement functions. The President's budget reduces funding for the 
287(g) program by 25%. In addition to decreasing funding for existing 
agreements, the administration has announced that it will no longer 
consider additional requests for 287(g) partnerships. I understand the 
success of Secure Communities may mitigate the need for some 287(g) 
agreements; however, I believe that this budget goes too far in 
eliminating the valuable force multiplier that State and local law 
enforcement personnel provide. Do you believe that the 287(g) program 
has been effective in helping enforce our immigration laws? If so, why 
the significant decrease in funding?
    Answer. In light of the Nation-wide activation of Secure 
Communities, the proposed fiscal year 2013 budget reduces funding for 
the 287(g) program by $17 million to phase out 287(g) task force 
agreements. The Secure Communities screening process is more efficient 
and cost-effective in identifying for removal criminal and other 
priority aliens. To implement this reduction, ICE will begin by 
discontinuing the least productive 287(g) task force agreements in 
those jurisdictions where Secure Communities is already in place with 
sufficient Federal personnel and will also suspend consideration of any 
requests for new 287(g) task force models. With regard to the 
effectiveness of the 287(g) program, please see the response to 
question 12.
    Question 2. In the ICE budget justification documents it states 
that ICE gains force multiplication through State and local law 
enforcement officers currently participating under the 287(g) jail 
model program. Why is the 287(g) jail model considered an effective 
force multiplier, when the 287(g) task force model is considered 
expensive and inefficient, and thus not worthy of additional 
deployment?
    Answer. Each 287(g) program model provides different kinds of 
services and, upon review, the services provided by the Jail 
Enforcement Model (JEO) are a more efficient use of ICE resources. The 
JEO is designed to assist with the processing of aliens incarcerated 
within a local law enforcement agency's (LEA) detention facilities. 
Officers participating in the JEO do so under the supervision of ICE 
and are integral to the processing of removable aliens who have been 
identified through Secure Communities' use of IDENT/IAFIS 
interoperability following an arrest by State or local law enforcement 
agencies in the course of their normal criminal law enforcement duties. 
The ability of the JEOs to process these individuals prevents ICE from 
having to deploy enforcement resources to these State and local jails 
and prisons. Because the JEO has proven to be an effective force 
multiplier for ICE personnel in this respect, it has increased 
efficiency and has proven to be an effective use of ICE resources.
    By contrast, the Task Force Model (TFO) officers have proven to be 
a less efficient substitute for ICE personnel, particularly in light of 
the Nation-wide deployment of Secure Communities. The Secure 
Communities' use of IDENT/IAFIS interoperability has proven to be more 
efficient and cost-effective in identifying and removing criminal and 
other priority aliens. In contrast to the JEO Model, the TFO Model is 
not based upon encountering incarcerated aliens. Rather, TFO officers 
exercise immigration-related authorities during the course of other 
criminal investigations.
    As the chart below demonstrates, TFO officers have assisted ICE 
with the removal of significantly fewer priority aliens that JEO 
officers. During fiscal year 2011, the TFO program encountered 1,861 
criminal aliens, of which 1,703 were processed for removal and 1,026 
were ultimately removed. In comparison, during the same time frame, the 
JEO program encountered 53,060 criminal aliens, of which 37,638 were 
processed for removal and 22,719 were ultimately removed.

                         287(g) FISCAL YEAR 2011
------------------------------------------------------------------------
                Category                    JEO        TFO       Total
------------------------------------------------------------------------
Encounters.............................     53,060      1,861     54,921
Processed..............................     37,638      1,703     39,341
Removals...............................     22,719      1,026     23,745
------------------------------------------------------------------------
IIDS data as of 2/6/2012.

    The chart below depicts the average number of aliens processed per 
TFO versus JEO:

                      287(g) FISCAL YEAR 2011-2012
                   Average Number of Aliens Processed
------------------------------------------------------------------------
                                                         Type of MOA
                    Fiscal Year                    ---------------------
                                                       TFO        JEO
------------------------------------------------------------------------
2011..............................................          7        104
2012..............................................          3        65
------------------------------------------------------------------------
Data as of 07/16/2012.

    Accordingly, in light of the Nation-wide activation of Secure 
Communities ICE will gain $17 million in budgetary savings by 
discontinuing the least productive TFO agreements in those 
jurisdictions where Secure Communities is already in place and will 
also suspend consideration of any new requests for TFOs.
     Question Submitted by Hon. Henry Cuellar for Janet Napolitano
    Question 1a. As I mentioned at the hearing, I am interested in the 
status of the $639.4 million that the Government Accountability Office 
identified as unobligated balance in CBP's customer user fees account 
(associated with NAFTA).
    What is the status of this money?
    Answer. In 1993, Congress enacted the North American Free Trade 
Agreement Implementation Act, Pub. L. No. 103-182 (NAFTA). Section 521 
of NAFTA amended the Consolidated Omnibus Budget Reconciliation Act of 
1985 (COBRA) to raise the fees charged for the provision of customs 
services for passengers aboard commercial vessels and aircraft from 
$5.00 to $6.50 from fiscal year 1994 to fiscal year 1997. In addition, 
Section 521 also removed the country exemptions for passengers from 
Canada, Mexico, and the Caribbean islands, requiring the $6.50 fee from 
those passengers for the affected period.
    Using the previous fee collections from fiscal year 1993 as a 
baseline, Section 521 required Customs to deposit into the Customs User 
Fee Account (CUFA) only those amounts in excess of that baseline. These 
``excess fees'' were made available for ``reimbursement of inspectional 
costs (including passenger processing costs), not otherwise reimbursed 
under this section.'' However, breaking with the pre-NAFTA treatment of 
all other COBRA fees, Section 521 introduced an additional requirement: 
the excess fees were made ``available only to the extent provided in 
appropriations acts.'' Previously, the statute allowed the agency to 
expend without any subsequent appropriation. See 19 U.S.C.  58c(f)(3). 
Section 521, on the other hand, did not permit the excess fees to be 
used without being subsequently appropriated. In fact, the 
Congressional Budget Office (CBO) found that Section 521 would result 
in ``additional fee collections of $758 million over the fiscal years 
1994 through 1997.'' CBO Cost Estimate, NAFTA, S. 1627 (Nov. 18, 1993). 
Congress expressed the same scoring preference in NAFTA's legislative 
history: ``Section 521 makes the necessary statutory changes to customs 
user fee authority to provide offsets against the revenue losses 
attributable to NAFTA in accordance with the PAY-GO requirements of the 
Budget Enforcement Act. According to the Congressional Budget Office 
(CBO), the 5-year effects of changes made by section 521 on direct 
spending amount to a savings of $758 million.'' H.R. REP. NO. 103-
361(I), at 103, as reprinted in 1993 U.S.C.C.A.N. 2552, 2653.
    Furthermore, the Homeland Security Act of 2002 (HSA, Pub. L. 107-
296) repealed, by apparent inadvertence, in 2002, the NAFTA language 
authorizing (but not appropriating) CBP's expenditure of these excess 
fees. As a result, even though the excess fees remain in the CUFA, CBP 
no longer has legal authority to expend them.
    Question 1b. Has CBP made a determination that it can utilize these 
funds?
    Answer. At this time, CBP does not believe that it possesses the 
legal authority to obligate these funds. Such authority would require 
legislative action. More specifically, CBP would require legislation 
conferring new authority to spend the funds for a particular purpose 
(e.g., to hire additional CBP officers) as well as an appropriation 
making the funds available for obligation. If CBP is able to gain 
access to these funds, the $640 million in the CUFA could be used to 
hire, train, and sustain 2,000 additional CBPO's for approximately 2.5 
fiscal years (using $123,500 as the average for salary and benefits). 
Legislation making these funds available would score as a cost.
   Questions Submitted by Hon. Laura Richardson for Janet Napolitano
    Question 1a. At the hearing, we discussed the Department's efforts 
to comply with the 100% maritime scanning mandate, and the Department's 
expectation that an extension will be necessary. I expressed concern 
that I had been told that 4 percent of containers from CSI ports that 
CBP has identified as ``high-risk'' arrive to our shores without CBP 
being able to resolve the issues of concern.
    What percentage of inbound maritime cargo comes through CSI ports?
    Answer. Approximately 80% of all U.S.-bound maritime cargo 
originates in or transits through a CSI port.
    Question 1b. What is CBP doing to ensure that unresolved ``high-
risk'' containers do not arrive at U.S. ports?
    Answer. The Department of Homeland Security (DHS) is committed to 
ensuring that all goods coming into the United States are secure and do 
not pose a threat to our citizens or National interests. Through robust 
partnerships with law enforcement, foreign governments, and industry, 
we are developing innovative solutions that will help maintain the 
efficient flow of legitimate commerce upon which our Nation's economy 
depends. We believe an effective, layered, risk-based approach will 
best ensure we achieve these goals and align with the President's 
National Strategy for Global Supply Chain Security (Strategy).
    DHS has focused substantial attention and resources over the last 
several years on securing goods being transported within maritime 
containers. As a result, we have strengthened our multi-layered 
security measures, more effectively securing and facilitating the large 
volume of goods arriving in the United States each year. By leveraging 
programs such as the Container Security Initiative (CSI) for the 
integrated scanning of high-risk containers, the Customs-Trade 
Partnership Against Terrorism (C-TPAT), and the Importer Security 
Filing (often called ``10+2'') for the advance collection of manifest 
and import data to enhance targeting, we are more secure than ever 
before.
    For example, CSI is a risk-based program that focuses on working 
with foreign governments to establish security criteria for identifying 
high-risk U.S.-bound containers based on advance information. U.S. and 
foreign government personnel pre-screen containers at the earliest 
possible point-and-use technology to quickly scan high-risk containers 
destined to the United States. The benefits of CSI include: The ability 
to conduct more accurate risk assessment though increased access to 
information; and expedited clearance in the United States for cargo 
which has been screened and scanned overseas. CSI covers more than 80 
percent of the maritime containerized cargo shipped to the United 
States. The remaining 20 percent of cargo is screened at the National 
Targeting Center--Cargo (NTC-C) and by specialized CBP units located at 
the first port of arrival within the United States.
    CBP officers stationed at CSI ports, with assistance from the CBP 
NTC-C, review 100 percent of the manifests for cargo originating and/or 
transiting those foreign ports that are destined for the United States. 
In this way, CBP identifies and examines high-risk containerized 
maritime cargo prior to lading at a foreign port and before shipment to 
the United States, and mitigates risk through a variety of measures 
including screening, scanning, physical inspection, or resolution by 
foreign authorities. In fiscal year 2011, CBP officers stationed at CSI 
ports reviewed over 9.5 million bills of lading and conducted 45,500 
exams in conjunction with their host country counterparts.
    Through programs like CSI, DHS will continue to work 
collaboratively with industry, our Federal partners, and the 
international community on efforts to secure the global supply chain.
    Question Submitted by Hon. Cedric Richmond for Janet Napolitano
    Question. As I stated at the hearing, I have heard from many people 
in my district--including the mayors and the school boards--and the 
Governor of Louisiana about the disaster loan forgiveness. The Vice 
President of the United States came down to St. Bernard Center, 
Louisiana, and said that the disaster loans would be forgiven for 
certain municipalities. But that is not happening. People made 
decisions based on the Vice President's commitment, and the right thing 
to do is to honor that commitment to waive the repayment of those 
disaster loans.
    What is the status of the Department's efforts to honor the Vice 
President's promise regard the forgiveness of disaster loans and what 
related outreach has the Department conducted?
    Answer. FEMA is only authorized to cancel Special Community 
Disaster Loans where ``revenues of the local government during the full 
3 fiscal year period following the major disaster are insufficient to 
meet the operating budget for the local government, including 
additional unreimbursed disaster-related expenses of a municipal 
operating character.'' (44 C.F.R.  206.376(a))
    In those cases where applicants have met the requirements of the 
Stafford Act and the Regulations, they have been cancelled or partially 
cancelled.
    Since March 2011, FEMA has met personally with each individual 
applicant and worked with them directly to ensure they were provided 
the greatest potential for cancellation. Where necessary, FEMA met with 
individual applicants on multiple occasions. For those applicants where 
cancellation was denied, applicants were provided the opportunity to 
appeal their decision within 60 days. An independent contractor was 
procured specifically to provide a fresh and unbiased view of the 
submitted appeals based upon the Stafford Act and Regulations.
    FEMA has sought to provide those applicants the greatest 
opportunity for cancellation in their appeals instructing the appeals 
contractor to notify FEMA if they identify any areas where cancellation 
is possible for an applicant outside of what they submitted. 
Additionally, FEMA approved 5-year extensions for all applicants who 
requested one. To date, 19 appeals have been submitted: 6 appeals have 
been denied; 3 appeals have been upheld (i.e., $15.2 million in 
additional cancellation); 9 are in the concurrence process; and 1 is 
with the Appeals Contractor (awaiting additional information from the 
applicant).
    In our efforts to provide each applicant the best chance for 
cancellation, we have afforded each appeal applicant the ability to 
submit additional information beyond their original appeal submission. 
This translates into a longer review process for some due to the new 
information submitted.
   Question Submitted by Hon. Kathleen C. Hochul for Janet Napolitano
    Question. At the hearing, I discussed an amendment I introduced to 
the Department of Homeland Security Authorization bill--accepted by my 
colleagues--that would require the Department to purchase uniforms that 
are made in America. As we agreed, National security is tied to our 
economic security. Although the authorization bill has not reported out 
of this committee and my amendment has, accordingly, not been enacted, 
I am interested in learning about what voluntary steps the Department 
has taken or is considering to ensure that its procurement activities 
help keep the Nation secure by protecting the American economy. Please 
provide any updates of initiatives the Department has initiated or is 
considering toward that end.
    Answer. DHS is committed to not only meeting its homeland security 
mission needs, but delivering value to the American taxpayer through 
effective and efficient acquisition practices.
    DHS is subject to the requirements of the Buy American Act (BAA) 
and the Trade Agreements Act (TAA), and related Executive Orders. The 
BAA restricts the purchase of supplies above $150,000 that are not 
domestic end products unless the price of the lowest domestic offer is 
unreasonable or another exception applies (e.g., commercial information 
technology, commissary resale, etc.). Under the TAA, eligible products 
from countries that have signed international agreements with the 
United States receive non-discriminatory treatment in the procurement 
process. With respect specifically to uniforms, DHS's Uniforms Program 
supports U.S. manufacturing. Based on both the Federal Procurement Data 
System--Next Generation and vendor reports, approximately three-fourths 
(73%) of the total amount DHS spends on uniforms is for either uniforms 
manufactured in the United States (57%) or uniforms made in Mexico from 
United States-supplied materials (16%). In terms of dollars, of the $82 
million spent on uniforms in fiscal year 2011, DHS spent over $47 
million on uniforms manufactured in the United States and another $13 
million was spent on uniforms made in Mexico from United States-
supplied materials. In addition, DHS continues to pursue opportunities 
to increase the use of domestically manufactured uniforms. For example, 
working with industry, DHS shifted the production of the most widely-
used uniform, the Customs and Border Protection (CBP) Rough Duty 
Uniform, from Mexico to the United States in fiscal year 2007. The 
Uniforms Program is also a strong supporter of small business with over 
$22 million of our domestic purchases awarded directly or subcontracted 
to small businesses.

                                 <all>

</pre></body></html>
